<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

JOSEPH M. McDADE, Pennsylvania        SIDNEY R. YATES, Illinois
JIM KOLBE, Arizona                    JOHN P. MURTHA, Pennsylvania
JOE SKEEN, New Mexico                 NORMAN D. DICKS, Washington
CHARLES H. TAYLOR, North Carolina     DAVID E. SKAGGS, Colorado
GEORGE R. NETHERCUTT, Jr., Washington JAMES P. MORAN, Virginia
DAN MILLER, Florida                   
ZACH WAMP, Tennessee                  

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik,
                            Staff Assistants
                                ________

                                 PART 11

    REVIEW OF NATIONAL PARK SERVICE HOUSING AND CONSTRUCTION PROGRAMS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
44-963 O                    WASHINGTON : 1997




                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director








DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              

                                       Wednesday, October 29, 1997.

             NATIONAL PARK SERVICE HOUSING AND CONSTRUCTION

                               WITNESSES

WILMA A. LEWIS, INSPECTOR GENERAL, U.S. DEPARTMENT OF THE INTERIOR
BARRY T. HILL, ASSOCIATE DIRECTOR (ENERGY, RESOURCES AND SCIENCE), 
    GENERAL ACCOUNTING OFFICE
CLIFF FOWLER, ASSISTANT DIRECTOR, GENERAL ACCOUNTING OFFICE
STEVEN MOBERLY, U.S. DEPARTMENT OF THE INTERIOR, OFFICE OF INSPECTOR 
    GENERAL

    Mr. Regula. I am going to call the committee to order. We 
have a lot of testimony, so we are going to have to try to move 
this hearing along. It is not usually my custom to make any 
opening remarks, but because this is an oversight hearing and 
not a traditional appropriations hearing, I think it is both 
appropriate and useful to set the stage for today's hearing. 
And incidentally, there are copies of all the statements and 
testimony on the back table.

                    Opening Remarks--Chairman Regula

    All of you, I am sure, have read the recent accounts of 
high cost, what I would term ``gold-plated'', construction by 
the National Park Service. Each year I use the county fairs in 
my district as a barometer of how people are feeling. In the 
past few years, the economy has been good. People have had 
jobs, and they generally have been in pretty good spirits at 
the fairs. This year, the same was generally true, except 
people were very unhappy that the National Park Service was 
spending nearly $600,000 per unit on housing for its employees 
in Yosemite. And to add insult to injury, the Park Service was 
attempting to defend and justify these costs. At that time, the 
Pennsylvania project had not yet made the news.
    It seems to me the Park Service needs a little attitude 
adjustment. As the Park Service well knows, while most other 
budgets under this subcommittee's jurisdiction were shrinking, 
the Park Service has watched its budget grow. And I would point 
out that exclusive of the $700 million that is a special 
project, our total budget for fiscal year 1998 is $400 million 
less than the previous year, although the Park Service budget 
is up.
    The Park Service's budget has almost become untouchable, 
sheltered from the effects of the belt-tightening and cost 
consciousness that we have had to impose on the other agencies 
under our jurisdiction. Why is that? Because Americans love the 
national parks. Many Americans have fond memories of that one 
great family vacation to Yellowstone, Yosemite or the Grand 
Canyon. And today with many national parks such as Gateway, 
Cuyahoga and Golden Gate near enormous population centers, many 
of our national parks are daily refuges from the urban concrete 
jungles.
    But this love is not unconditional. The average American 
cannot comprehend government housing of $600,000 or toilets in 
excess of $300,000. While these cost components may be 
explained, they can never be justified. And I am particularly 
disturbed by the apparent lack of concern exhibited by remarks 
from the Park Service such as, ``Frankly, that is what we are 
paying for toilets.'' For the Park Service to continue down 
this road of disinterest or acceptance is foolhardy and 
irresponsible.
    For the benefit of some of our newer Members on the 
committee, I want to point out that my remarks would seem harsh 
if this was the first time that the committee had questioned 
the Park Service about its construction program or had not 
suggested and urged improvements. It is not.
    I had the staff review the record, and going back as far as 
1989, this committee on a bipartisan basis has been questioning 
the costs of construction projects, the priority setting 
process, the scope of projects and overall accountability for 
the construction program at all levels; Washington, Denver and 
the individual parks.
    For example, in fiscal year 1990, when Representative Yates 
chaired this subcommittee, his report said, and I quote, ``Of 
the projects requested and for which funds were appropriated 
since fiscal year 1985, 90 percent have cost more than 
estimated, and 90 percent have taken a longer time to complete 
than anticipated.'' That is not a very good record.
    In fiscal year 1994, both the House and the Senate had 
strong language critical of the construction program, citing 
unreliable cost estimates, an indecipherable priority system, 
changes in project scope, et cetera. At that time a review was 
directed, but to my knowledge, other than a report which is 
collecting dust in many offices, I have seen little 
improvement.
    Based on the recent article on the $330,000 toilets at the 
Delaware Water Gap, the Park Service appears complacent and 
seems to think this is acceptable. It is not. You simply cannot 
and should not attempt to justify 12 Park Service designers, 
architects and engineers spending 2 years designing a custom 
toilet, with custom mixed paint costing $78 a gallon, wild 
flower seeds at $720 a pound, limestone from Indiana, and so 
on.
    I am not sanguine about the fact that the Park Service, 
despite our many admonitions over the years--and again Chairman 
Yates in his reports often pointed to the problem--seems not to 
care about or even recognize the problem. There is a problem, 
and it must be addressed or the Park Service risks losing its 
base of support, which is the American taxpayer.
    I might say that historically the parks have enjoyed great 
support among the public, but these kinds of things erode that, 
and that is our concern. We want the parks to have support.
    Today, I want to explore how other similar land management 
agencies handle their construction programs. For example, while 
the Park Service employs 500 people in the Denver Service 
Center for their construction program, the Bureau of Land 
Management has 26, and the Fish and Wildlife Service 15. The 
Forest Service, which has both more acreage and more 
organizational units than the Park Service, uses no central 
construction center to manage its construction program. While 
many of these agencies use standard designs, the Park Service 
admits that all of the dozens of comfort stations built in 
recent years have been custom-designed and custom-built.
    Why is that extra cost necessary? Why shouldn't these types 
of facilities be standardized to save the taxpayers money and 
to allow the Park Service to address its self-identified $6 
billion backlog of unmet maintenance projects? I want to 
reemphasize that. The testimony from the Park Service is that 
there is a $6 billion backlog of maintenance needs that is not 
being taken care of. We have been trying to address that 
backlog, even earmarking money. But it is difficult to 
reconcile that backlog with the building of $330,000 toilets.
    Yes, the public wants and appreciates nice facilities in 
the parks, but they do not need, nor expect, a Taj Mahal of 
restrooms, as they apparently can get in the Delaware Water 
Gap. And to use this $330,000 outhouse, one must go in the warm 
weather because composting toilets, of which this is one, do 
not work in freezing temperatures.
    I have concluded that to some degree the current system 
invites excessive spending. The Denver Service Center is not 
base-budgeted, but, rather, depends for its existence on a 
percentage of construction project costs. In short, there 
exists no incentive for cost savings. It reminds me of the time 
when military contracts were awarded on a cost plus basis.
    Under the current system, for a project like the TajMahal 
of outhouses, Denver sends out an on-site construction supervisor for 
10 months. Cost: $81,220. There is simply no sense of limits, no 
attempt to focus on lower cost alternatives. And in today's climate of 
tight budgets, with the land management agencies identifying billions 
of dollars of unmet maintenance needs, we simply cannot tolerate this 
mindset.
    The bottom line of all this is that we want the public to 
have confidence in this subcommittee, we want the public to 
have confidence in our management, and we want the public to 
continue to have confidence in the Park Service. And it is hard 
for people to sustain confidence when they read these kinds of 
stories. I don't think the military has fully recovered from 
the $600 hammers, and we certainly don't want this to happen to 
the Park Service.
    On our agenda today, we have three panels. For the first 
panel, we have Wilma Lewis, Inspector General of the Department 
of the Interior; and Barry Hill, who is an Associate Director 
in the GAO. On the second panel will be members from the other 
land management agencies: Fish and Wildlife Service, Forest 
Service and BLM. And on the third panel will be the Director of 
the National Park Service, Mr. Stanton; the Deputy Director, 
Mr. Galvin; and thirdly, Mr. Clapper, the Director of the 
Denver Service Center.
    I think we will start and get on with our first witnesses 
today, who will be Wilma Lewis, Inspector General of the 
Department of the Interior, and Barry Hill of the GAO. Would 
you both come up here? I think what we will do is to have you 
go first, Mr. Hill, and then Ms. Lewis.
    Mr. Hill. Thank you, Mr. Chairman and Members of the 
subcommittee. Before I begin, let me introduce my colleague. 
With me today is Cliff Fowler, who is the assistant director 
responsible for our work on national park issues. To support 
the Chair's wishes to move things along, I am prepared to 
briefly summarize my full statement and submit the full 
statement for the record, if you please.
    Mr. Regula. While I normally would welcome that, I think 
there is so much in here that I would like the subcommittee 
Members to hear, and I think I would prefer that you give us 
your entire statement.

               Opening Remarks--Associate Director of GAO

    Mr. Hill. Yes, sir. I am pleased to be here today to 
summarize our past work on National Park Service employee 
housing issues. Our comments today are based on two reports 
that we issued in 1993 and 1994. Where possible, we have 
updated some of the information in preparation for today's 
hearing. While these reports are now a few years old, their 
findings and recommendations are still valid.
    In summary, our work has shown the following four concerns 
and issues:
    First, the Park Service has not clearly justified the need 
for all of its employee housing units. The agency requires 
parks to perform needs assessments to justify its housing. 
However, these assessments may not be in depth, objective, nor 
performed consistently from park to park. In response to the 
Omnibus Parks and Public Lands Management Act of 1996, the 
agency is beginning the process to assess the need for its 
housing units. However, this process is not scheduled to be 
completed until 2002. That is 9 years after we recommended such 
assessments.
    Second, the Park Service has not been able to provide 
detailed support for its backlog for repairing and replacing 
its housing inventory. In 1993, we reported that the agency 
estimated its housing backlog at $546 million. However, the 
Park Service could not support this figure. Today, the agency 
estimates its housing backlog to be about $300 million. 
However, the Park Service acknowledges that this figure is not 
based on a detailed assessment of its housing repair and 
maintenance needs, but, rather, on a gross estimate based on 
the total number of houses whose condition has been rated less 
than good.
    Third, individual park managers have broad discretion in 
implementing park housing policy. This has resulted in 
inconsistencies in how the program is managed across the agency 
and raises questions about whether housing decisions are being 
made in the best interests of the agency. For example, the 
Department of the Interior's Inspector General's Office 
reported last year that in constructing employee housing at the 
Grand Canyon, a former park manager decided to build 59 single-
family houses. At the time of the report, these houses were in 
the process of being constructed, and many of them had already 
been completed. According to the report, the decision to build 
59 single-family houses was made despite advice from the Park 
Service regional office and others that building a mix of 114 
single-family and multi-family units would better address that 
park's housing shortage. By building the single-family houses, 
the report stated that approximately 50 permanent and 100 
seasonal employees would still be living in substandard housing 
at the completion of the construction.
    Fourth, other Federal land management agencies, such as the 
Forest Service and the Bureau of Land Management, do not 
provide the same level of housing to their employees. Because 
its mission emphasizes providing more in-park visitor services 
than the other agencies, the Park Service believes that it 
needs to provide a larger number of its employees with in-park 
housing.
    For example, in 1994, we reported that the Park Service had 
one housing unit for every five employees, while the Forest 
Service had one unit for every 11 employees, and BLM had one 
unit for every 58 employees. Furthermore, when compared with 
the other agencies, the Park Service's mix of housing units has 
relatively more houses, multiplex units and apartments, and 
relatively fewer dormitories and cabins. Because of this, the 
Park Service's housing inventory is more costly to maintain.
    Before discussing these issues in greater detail, let me 
take a minute to provide some needed background and perspective 
on the Park Service housing issue. The Park Service has about 
5,200 housing units, which include facilities such as detached 
single-family homes, multiplexes, apartments, cabins, 
dormitories and trailers. These housing units are located in 
many of the 370 parks throughout the country, although about 70 
percent of the housing inventory is located in western parks.
    In accordance with Office of Management and Budget 
guidance, the Park Service is authorized to provide park 
housing to seasonal employees in all locations and to permanent 
employees whose position descriptions require them to live in 
the park to provide needed service or protection or when 
adequate housing in the local community is not available.
    In November 1996, the Congress passed the Omnibus Parks and 
Public Lands Management Act of 1996. This act required the Park 
Service to review and revise its employee housing policy and 
conduct a park-by-park assessment of the conditionof and need 
for park housing units.
    In response to the act, the agency recently modified its 
housing policy to state that housing will be provided for those 
not required to live in the park only when all other 
alternatives have been exhausted. However, Park Service 
headquarters officials acknowledged that while the agency is 
taking the steps needed to implement this policy, it may take a 
few years for the field units to fully comply.
    Each park that provides housing is required by the Park 
Service to have a housing management plan. This plan is to 
identify the park's need for housing, the condition of housing, 
and an assessment of the availability and affordability of 
housing in nearby communities.
    The agency requires that the parks update their housing 
management plan every 2 years so that it reflects the current 
need of the park. Housing management plans are generally 
approved at the park level by the park superintendent. The 
plans are not required to be reviewed or approved by 
headquarters or regional management.
    Now, I would like to discuss the first issue I mentioned 
earlier, the need for employee housing not being fully 
justified. In 1993, we reported that the Park Service had not 
fully justified the need for all of its employee housing. Most 
park housing is for seasonal employees, employees at isolated 
parks such as Yellowstone and the Grand Canyon, and employees 
who are required to live in the park to provide needed service 
or protection, such as law enforcement rangers. In 1993, these 
employees accounted for about 4,570 of the agency's 5,200 
housing units, and the justifications for these housing units 
appeared adequate. However, there was little, if any, 
justification for the 630 remaining housing units for employees 
located in nonisolated parks who were not required occupants.
    Some of these housing units were being provided because 
park managers believed that adequate housing was not affordable 
in nearby communities. But in 1993, we found that only 1 of 11 
nonisolated parks we visited had prepared the required 
assessments to show that local housing was not affordable. 
Furthermore, even though park managers at some of these parks 
felt that adequate housing was not affordable, the surrounding 
evidence suggested otherwise. Specifically, about 75 percent of 
the permanent employees at the 11 nonisolated parks were living 
in nearby communities.
    In updating this information for this hearing, we found 
that while there has been some improvement, many of the same 
problems we found 4 years ago are still evident today. For 
example, in a recent sample of 15 parks, we found 7 parks did 
not have a current assessment of the availability or 
affordability of housing in nearby communities.
    Park Service headquarter's housing officials have raised 
concerns that many assessments conducted at local parks are not 
being performed consistently across the agency. In addition, 
these officials said that most Park Service employees are not 
technically qualified to conduct assessments of real estate 
markets. Furthermore, according to these officials, because of 
the culture, tradition and past practices of the agency, park 
managers may not be able to provide an unbiased objective 
review of the housing needs at any park.
    As a result, in response to the requirements of the Omnibus 
Parks and Public Lands Management Act of 1996, the agency is in 
the process of issuing a contract to provide an assessment of 
housing needs within the Park Service. The contractor will 
review the justification of those considered required 
occupants, the availability and affordability of housing in 
nearby communities, and the condition of existing housing 
facilities within each park. If funding is available, Park 
Service officials expect that the contract will be completed 
and implemented by 2002.
    Once this contracted assessment is completed, the agency 
should have a more consistent and objective assessment of its 
housing needs, and at that point agency headquarters and 
regional staff can use the findings to better hold park 
managers accountable for their management of each park's 
housing program.
    Now I would like to discuss the issue of the backlog 
estimate not being based on a facility-specific assessment. 
Today, as in 1993, the Park Service cannot provide detailed 
support for its backlog of housing needs. In 1993, we reported 
that the Park Service estimated the backlog to be about $546 
million. However, at that time, the agency was not able to 
provide support for this figure. Our 1993 report recommended 
that the agency develop a repair/replacement estimate that is 
supportable. Today, the agency estimates that its housing 
backlog is about $300 million. However, a Park Service housing 
official acknowledged that this estimate is not based on a 
park-by-park review of the condition of housing facilities, but 
rather on a gross estimate based on the total number of houses 
whose condition has been rated less than good.
    The Park Service anticipates that it will soon make some 
progress toward having a supportable housing backlog figure, as 
this is one of the requirements of the upcoming contracted 
needs and facilities assessment. In response to the 
requirements of the Omnibus Parks and Public Lands Management 
Act of 1996, the contractor, among the other items previously 
discussed, will be required to provide a detailed condition 
assessment for each housing facility within the park's review. 
Once the contractor has reviewed all parks where housing is 
provided, the agency will have a supportable backlog estimate 
of its housing needs. The contractor is scheduled to complete 
its work in 2002. That is 9 years after we raised this problem 
in our 1993 report.
    Next I would like to talk about the issue of the broad 
discretion that park managers have and exercise in managing the 
housing program. As required by the Omnibus Act of 1996, the 
Park Service has reviewed and revised its housing policy. Its 
new policy puts greater emphasis on the use of government 
housing as a last resort after all other alternatives have been 
exhausted. However, while the policy has changed, it has not 
yet been implemented by park managers, and until that happens, 
the employee housing program will continue as it has, with 
individual park managers implementing employee housing programs 
under broad guidelines with little oversight. As a consequence, 
there is a wide range of employee housing conditions across the 
national park system, and there is no assurance that housing 
decisions are being made in the best interests of the Park 
Service.
    In the 15 park units we recently surveyed, park managers 
took a variety of approaches to providing employee housing. 
Among the sample of parks, we found wide disparities in the 
quality of the analysis of local housing markets among the 
parks we surveyed. For example, at the Harpers Ferry National 
Historic Park, the housing management plan providedno analysis 
of the local housing market. Instead, it simply provided a description 
of the local situation stating that, ``. . .  rental units are very 
difficult to find. Single-income park employees find it difficult to 
secure adequate housing.'' Without supporting analysis, there is no way 
to determine the validity of this assertion.
    In comparison, the analysis of local housing markets that 
accompanied the housing plan for Santa Monica National 
Recreation Area was an in-depth analysis prepared by a 
contractor and exceeded 35 pages. Similarly, at Arches National 
Park, the housing analysis included an in-depth assessment of 
the local housing market and rental rates, as well as an 
evaluation of the population and economic base of the 
surrounding area. Furthermore, we found that for 7 of the 15 
parks we sampled, assessments of local housing markets were 
either out of date or had not been done.
    Another indication of the broad discretion given to 
individual park managers is how housing units are allocated to 
employees. Beyond those employees whose position descriptions 
require them to live in the park, park managers use a variety 
of methods to determine which employees are provided park 
housing. These allocation methods include lotteries, as well as 
a variety of ranking systems, that give weight to such factors 
as length of employment, salary, size of family and number and/
or gender of children. The net effect of this is that housing 
decisions are not made consistently across the national park 
system.
    The significance of the broad discretion given to 
individual park managers is that the potential exists for 
housing decisions to be made that may not be in the best 
interest of the agency. This is best illustrated by some recent 
work done by the Department of the Interior's Office of 
Inspector General at the Grand Canyon.
    As I mentioned earlier, the Interior Inspector General's 
Office reported last year that in constructing employee housing 
at the Grand Canyon, a park manager decided to build 59 single-
family houses. At the time of the report, these houses were in 
the process of being constructed, and many of them had already 
been completed.
    According to the report, the decision to build single-
family houses was made despite advice from the Park Service 
regional office and others that building a mix of 114 single-
family and multi-family units would better address the park's 
overcrowded, unsafe and substandard housing conditions. 
According to the report, by building the single-family units, 
approximately 50 permanent and 100 seasonal employees would 
still be living in substandard housing at the completion of the 
construction.
    In responding to this point, the park manager at the Grand 
Canyon stated that it was never the park's intention to only 
build single-family houses, and that a mix of multi-family 
dwellings would be constructed at a later date. Nonetheless, 
the park manager's decision has resulted in more employees 
living in substandard housing units for a greater period of 
time. Furthermore, in reviewing records concerning the 
project's justification for the high quality of materials, the 
Interior Inspector General reported that the contracted 
architectural and engineering firm noted that costs would drop 
significantly, ``. . .  if some of the top-of-the-line items 
that the park is insisting on, that is, doors and windows, 
could be lowered a notch in quality.''
    The report stated that this proposal was not studied nor 
taken by the park. The park's decision on these matters is 
difficult to understand when budgets are so tight and the 
agency is faced with large maintenance backlogs and cutbacks in 
park services.
    Finally, I would like to discuss the amount of housing 
provided by the Park Service compared to other Federal land 
management agencies. The Park Service has taken a different 
approach to employee housing in comparison to BLM and the 
Forest Service. While all three are responsible for managing 
and protecting Federal lands, the Park Service provides a much 
larger portion of its employees with housing than the other two 
agencies. Also, the Park Service's housing inventory contains 
proportionately more houses, multiplex units and apartments, 
and fewer dormitories and cabins than the other two agencies. 
The sheer number and mix of the Park Service's inventory 
combine to produce higher initial construction costs and 
recurring maintenance costs for the agency.
    Compared with the Forest Service and BLM, the Park Service 
mission emphasizes providing more in-park visitor services such 
as law enforcement, search and rescue and other supporting 
activities. As such, the Park Service believes that it needs to 
provide a larger number of its employees with in-park housing. 
In 1994, we reported that the Park Service had 23,908 employees 
and 4,718 housing units, or about one housing unit for every 
five employees. In comparison, the Forest Service had 50,877 
employees and 4,402 housing units, or about one unit for every 
11 employees. BLM had 11,861 employees and 206 housing units, 
or about one unit for every 58 employees.
    Another indication of the variance in the agencies' housing 
programs is the extent to which the agencies require their 
employees to live on site. In 1994, the Park Service required 
about 1,400 employees, or about 9 percent of its permanent 
employees, to live on site in park housing to provide necessary 
visitor services, protect government property and resources, or 
both.
    In marked contrast, according to agency officials, the 
Forest Service required about 70 employees--that is less than 1 
percent of its permanent employees--to live on site in 
government housing. BLM had only two employees who were 
required to live on site.
    About 75 percent of the Park Service's housing inventory is 
composed of single-family and multiplex units compared with 
about 50 and 26 percent, respectively, for the Forest Service 
and BLM. In part because of the Park Service's mix of housing 
types, the agency has experienced far higher repair and 
rehabilitation costs. For example, in 1993, we reported that 
the Park Service estimated a backlog of $546 million for 
repairs, rehabilitation and replacement of its housing 
inventory; whereas the Forest Service, having about the same 
number of housing units, but a different mix, had a backlog of 
less than a third of the Park Service. A Park Service official 
had a difficult time substantiating this difference beyond 
noting the fact that only a portion of the difference resulted 
from the agency's higher rehabilitation and construction 
standards and higher costs associated with rehabilitating units 
classified as historic structures.
    Furthermore, in 1994, we reported that of the three 
agencies, only the Park Service plans to replace and upgrade 
its housing. Although the Forest Service and BLM do not plan to 
stop providing housing altogether, both plan to minimizetheir 
involvement in providing housing to employees and instead rely more 
upon private sector housing. Among the reasons the Forest Service and 
the BLM are minimizing housing is that their current housing 
inventories were too expensive to maintain; previous justifications for 
providing housing were no longer valid; better roads have made it 
easier for employees to live in nearby communities; and employees have 
shown a preference for living in private residences.
    In closing, Mr. Chairman, the Park Service has been slow to 
respond to problems that we have identified in past reports. It 
has taken an act of Congress to move the agency to review and 
revise its housing policies and make arrangements to determine 
its need for and condition of its housing inventory. By taking 
these steps, the agency appears to be on the right track toward 
making progress in key areas. However, it is clear that 
continued congressional attention is needed to ensure that the 
Park Service is held accountable to provide housing only where 
it is absolutely necessary and appropriately justified.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions that you or the other Members of the 
subcommittee have.
    Mr. Regula. Thank you very much. Your statement will be a 
part of the record.
    [The information follows:]
  Testimony of Barry T. Hill, Associate Director, General Accounting 
                                 Office
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to summarize our past work on National Park Service employee 
housing issues. Our comments today are based on two reports that we 
issued in 1993 and 1994.\1\ Where possible, we have updated some of the 
information in preparation for today's hearing. While these reports are 
now a few years old, their findings and recommendations are still 
valid.
---------------------------------------------------------------------------
    \1\ National Park Service; Condition of and Need for Employee 
Housing (GAO/RCED-93-192, Sept. 30, 1993), and National Park Service: 
Reexamination of Employee Housing Program Is Needed (GAO/RCED-94-284, 
Aug. 30, 1994).
---------------------------------------------------------------------------
    In summary our work has shown the following:
    The Park Service has not clearly justified the need for all of its 
employee housing units. The agency requires parks to perform needs 
assessments to justify its housing. However, these assessments may not 
be in-depth, objective, nor performed consistently from park to park. 
In response to the Omnibus Parks and Public Lands Management Act of 
1996, the agency is beginning the process to assess the need for its 
housing units; however, this process is not scheduled to be completed 
until 2002-9 years after we recommended such assessments.
    The Park Service has not been able to provide detailed support for 
its backlog for repairing and replacing its housing inventory. In 1993, 
we reported that the agency estimated its housing backlog at $546 
million. However, the Park Service could not support this figure. 
Today, the agency estimates its housing backlog to be about $300 
million. However, the Park Service acknowledges that this figure is not 
based on a detailed assessment of its housing repair and maintenance 
needs but rather a gross estimate based on the total number of houses 
whose condition has been rated less than good.
    Individual park managers have broad discretion in implementing park 
housing policy. This has resulted in inconsistencies in how the program 
is managed across the agency and raises questions about whether housing 
decisions are being made in the best interest of the agency. For 
example, the Department of the Interior's Inspector General's Office 
reported in 1996 that in constructing employee housing at the Grand 
Canyon, a former park manager decided to build 50 single-family houses. 
At the time of the report, these houses were in the process of being 
constructed, and many of them had already been completed. According to 
the report, the decision to build 50 single-family houses was made 
despite advice from the Park Service regional office and others that 
building a mix of 114 single-family and multi-family units would better 
address that park's housing shortage. By building the single-family 
houses, the report stated that approximately 50 permanent and 100 
seasonal employees would still be living in substandard housing at the 
completion of the construction.\2\
---------------------------------------------------------------------------
    \2\ U.S. Department of the Interior Office of the Inspector General 
Special Report: Cost of Construction of Employee Housing at Grand 
Canyon and Yosemite National Parks, National Park Service, (Report No. 
97-I-224, Dec. 11, 1996).
---------------------------------------------------------------------------
    Other federal land management agencies such as the Forest Service 
and the Bureau of Land Management (BLM) do not provide the same level 
of housing to their employees. Because its mission emphasizes providing 
more in-park visitor services than the other agencies, the Park Service 
believes that it needs to provide a larger number of its employees with 
in-park housing. For example, in 1994 we reported that the Park Service 
had one housing unit for every 5 employees, while the Forest Service 
had one unit for every 11 employees and the BLM had one unit for every 
58 employees. Furthermore, when compared with the other agencies, the 
Park Service's mix of housing units has relatively more houses, 
multiple units, and apartments and relatively fewer dormitories and 
cabins. Because of this, the Park Service's housing inventory is more 
costly to maintain.
                               background
    The Park Service has about 5,200 housing units which include 
facilities such as detached single-family homes, multiplexes, 
apartments, cabins, dormitories, and trailers. These housing units are 
located in many of the 370 parks throughout the country--although about 
70 percent of the housing inventory is located in western parks.
    In accordance with Office of Management and Budget guidance, the 
Park Service is authorized to provide park housing to seasonal 
employees in all locations and to permanent employees (1) whose 
position description requires them to live in the park to provide 
needed service or protection or (2) when adequate housing in the local 
community is not available. In November 1996, the Congress passed the 
Omnibus Parks and Public Lands Management Act of 1996 (P.L. 104-333). 
This act required the Park Service to review and revise its employee 
housing policy and conduct a park-by-park assessment of the condition 
of and need for park housing units. In response to the act, the agency 
recently modified its housing policy to state that housing will be 
provided for those not required to live in the park only when all other 
alternatives havebeen exhausted. However, Park Service headquarters 
officials acknowledged that while the agency is taking the steps needed 
to implement this policy, it may take a few years for the field units 
to fully comply.
    Each park that provides housing is required by the Park Service to 
have a housing management plan. This plan is to identify the park's 
need for housing, the condition of housing, and an assessment of the 
availability and affordability of housing in nearby communities. The 
agency requires that the parks update their housing management plan 
every 2 years so that it reflects the current need of the park. Housing 
management plans are generally approved at the park level by the park 
superintendent--the senior park official at any park. The plans are not 
required to be reviewed or approved by agency regional management.
          the need for employee housing is not fully justified
    In 1993, we reported that the Park Service had not fully justified 
the need for all of its employee housing. Most park housing is for 
seasonal employees, employees at isolated parks such as Yellowstone and 
the Grand Canyon, and employees who are required to live in the park to 
provide needed service or protection such as law enforcement rangers. 
In 1993, these employees accounted for about 4,570 of the agency's 
5,200 housing units, and the justifications for these housing units 
appeared adequate. However, there was little if any justification for 
the 630 remaining housing units for employees located in nonisolated 
parks who were not required occupants. Some of these housing units were 
being provided because park managers believed that adequate housing was 
not affordable in nearby communities. But, in 1993, we found that only 
1 of 11 nonisolated parks we visited had prepared the required 
assessments to show that local housing was not affordable. Furthermore, 
even though park managers at some of these parks felt that adequate 
housing was not affordable, the surrounding evidence suggested 
otherwise. Specifically, about 75 percent of the permanent employees at 
the 11 nonisolated parks were living in nearby communities.
    In updating this information for this hearing, we found that while 
there has been some improvement, many of the same problems we found 4 
years ago are still evident today. For example, at a recent sample of 
15 parks, we found 7 parks did not have a current assessment of the 
availability or affordability of housing in nearby communities. Park 
Service headquarter's housing officials have raised concerns that many 
assessments conducted at local parks are not being performed 
consistently across the agency. In addition, these officials said that 
most Park Service employees are not technically qualified to conduct 
assessments of real estate markets. Furthermore, according to these 
officials, because of the culture, tradition, and past practices of the 
agency, park managers may not be able to provide an unbiased objective 
review of the housing needs at any park. As a result, and in response 
to the requirements of the Omnibus Parks and Public Lands Management 
Act of 1996, the agency is in the process of issuing a contract to 
provide an assessment of housing needs within the Park Service. The 
contractor will review the justification of those considered required 
occupants, the availability and affordability of housing in nearby 
communities, and the condition of existing housing facilities within 
each park. If funding is available, Park Service officials expect that 
the contract will be completed and implemented by 2002.
    Once this contracted assessment is completed, the agency should 
have a more consistent and objective assessment of its housing needs. 
At that point, agency headquarters and regional staff can use the 
findings to better hold park managers accountable for their management 
of each park's housing program.
    backlog estimate is not based on a facility specific assessment
    Today, as in 1993, the Park Service cannot provide detailed support 
for its backlog of housing needs. In 1993, we reported that the Park 
Service estimated the backlog to be about $546 million--however, at 
that time, the agency was not able to provide support for this figure. 
The 1993 report recommended that the agency develop a repair/
replacement estimate that is supportable. Today, the agency estimates 
that its housing backlog is about $300 million. However, a Park Service 
housing official acknowledged that this estimate is not based on a 
park-by-park review of the condition of housing facilities but rather a 
gross estimate based on the total number of houses whose condition has 
been rated less than good. (The condition of park housing units are 
rated either excellent, good, fair, poor, or obsolete.)
    The Park Service anticipates that it will soon make some progress 
towards having a supportable housing backlog figure as this is one of 
the requirements of the upcoming contracted needs/facilities 
assessment. In response to the requirements of the Omnibus Parks and 
Public Lands Management Act of 1996, the contractor, among the other 
items previously discussed, will be required to provide a detailed 
condition assessment for each housing facility within the parks 
reviewed. Once the contractor has reviewed all parks where housing is 
provided, the agency will have a supportable backlog estimate of its 
housing needs. The contractor is scheduled to complete its work in 
2002--9 years after we raised this problem in our 1993 report.
  park managers have broad discretion in managing the housing program
    As required by the Omnibus Parks and Public Lands Management Act of 
1996, the Park Service has reviewed and revised its housing policy. Its 
new policy puts greater emphasis on the use of government housing as a 
last resort after all other alternatives have been exhausted. However, 
while the policy has changed, it has not yet been implemented by park 
managers. Until that happens, the employee housing program will 
continue as it has--with individual park managers implementing employee 
housing programs under broad guidelines with little oversight. As a 
consequence, there is a wide range of employee housing conditions 
across the national park system and no assurance that housing decisions 
are being made in the best interests of the Park Service.
    In the 15 park units we recently surveyed, park managers took a 
variety of approaches to providing employee housing. Among the sample 
of parks, we found wide disparities in the quality of the analysis of 
local housing markets among the parks we surveyed. For example, at 
Harpers Ferry National Historical Park, the housing management plan 
provided no analysis of the local housing market. Instead, it simply 
provided a description of the local situation stating that: ``rental 
units are very difficult to find . . . single income park employees 
find it difficult to secure adequate housing.'' Without supporting 
analysis, there is no way to determine the validity of this assertion. 
In comparison, the analysis of local housing markets that accompanied 
the housing management plan for Santa Monica National Recreation Area 
was an in-depth analysis prepared by a contractor and exceeded 35 
pages. Similarly at Arches National Park the housing analysis included 
an in-depth assessment of the local housing market andrental rates as 
well as an evaluation of the population and economic base of the 
surrounding area. Furthermore, we found that for 7 of the 15 parks we 
sampled, assessments of local housing markets were either out of date 
or had not been done.
    Another indication of the broad discretion given to individual park 
managers is how housing units are allocated to employees. Beyond those 
employees whose position descriptions require them to live in the park, 
park managers use a variety of methods to determine which employees are 
provided park housing. These allocation methods include lotteries as 
well as a variety of ranking systems that give weight to such factors 
as length of employment, salary, size of family, and number and/or 
gender of children. The net effect of this is that housing decisions 
are not made consistently across the national park system.
    The significance of the broad discretion given to individual park 
managers is that the potential exists for housing decisions to be made 
that may be in the best interest of the agency. This is best 
illustrated by some recent work done by the Department of the 
Interior's Office of the Inspector General at the Grand Canyon. The 
Interior Inspector General's Office reported in 1996 that in 
constructing employee housing at the Grand Canyon, a park manager 
decided to build 59 single-family houses. At the time of the report, 
these houses were in the process of being constructed, and many of them 
had already been completed. According to the report, the decision to 
build single-family houses was made despite advice from the Park 
Service regional office and others that building a mix of 114 single-
family and multifamily units would better address the park's 
overcrowded, unsafe, and substandard housing conditions. According to 
the report, by building the single-family units, approximately 50 
permanent and 100 seasonal employees would still be living in 
substandard housing at the completion of the construction. In 
responding to this point, the park manager at the Grand Canyon stated 
that it was never the park's intention to only build single-family 
houses and that a mix of multi-family dwelling would be constructed at 
a later time. Nonetheless, the park manager decision, has resulted in 
more employees living in substandard housing units for a greater period 
of time.
    Furthermore, in reviewing records concerning the project's 
justification for the high quality of materials, the Interior Inspector 
General reported that the contracted architectural and engineering firm 
noted that costs would drop significantly ``if some of the top-of-the-
line items that the Park is insisting on i.e., door and windows, could 
be lowered a notch in quality.'' The report stated that this proposal 
was not studied nor taken by the park. The park's decision on these 
matters is difficult to understand when budgets are so tight and the 
agency is faced with large maintenance backlogs and cutbacks in park 
services.
   park service provides significantly more housing than the forest 
                             service or blm
    The Park Service has taken a different approach to employee housing 
in comparison to BLM and the Forest Service. While all three are 
responsible for managing and protecting federal lands, the Park Service 
provides a much larger portion of its employees with housing than the 
other two agencies. Also, the Park Service's housing inventory contains 
proportionately more houses, multiplex units, and apartments and fewer 
dormitories and cabins than the other two agencies. The sheer number 
and mix of the Park Service's inventory combine to produce higher 
initial construction costs and recurring maintenance costs for the 
agency.
    Compared with the Forest Service and BLM, the Park Service mission 
emphasizes providing more in-park visitor services such as law 
enforcement, search and rescue and other supporting activities. As 
such, the Park Service believes that it needs to provide a larger 
number of its employees with in-park housing. In 1994, we reported that 
the Park Service has 23,908 employees and had about 4,718 housing units 
or about one housing unit for every 5 employees.\3\ In comparison, the 
Forest Service had 50,877 employees and 4,402 housing units or about 
one unit for every 11 employees. BLM had 11,861 employees and 206 
housing units or about one unit for every 58 employees. Another 
indication of the variance in the agencies' housing programs is the 
extent to which the agencies require their employees to live on-site. 
In 1994, the Park Service required about 1,400 employees (about 9 
percent of its permanent employees) to live on-site in park housing to 
provide necessary visitor services, protect government property and 
resources, or both. In marked contrast, according to agency officials, 
the Forest Service required about 70 employees--less than 1 percent of 
its permanent employees--to live on-site in government housing. BLM had 
only two employees who were required to live on-site.
---------------------------------------------------------------------------
    \3\ For each agency, the number of agency employees includes 
seasonal staff and the number of housing units does not include 
trailers.

    About 75 percent of the Park Service's housing inventory is 
composed of single family and multiplex units compared with about 50 
and 26 percent, respectively, for the Forest Service and BLM. In part, 
because of the Park Service's mix of housing types, the agency has 
experienced far higher repair and rehabilitation costs. For example, in 
1993, we reported that the Park Service estimated a backlog of $546 
million for repairs, rehabilitation, and replacement of its housing 
inventory; whereas the Forest Service, having about the same number of 
units but a different mix, had a backlog of less than a third of the 
Park Service. A Park Service official had a difficult time 
substantiating the difference beyond the fact that only a portion of 
the difference resulted from the agency's higher rehabilitation and 
construction standards and higher costs associated with rehabilitating 
units classified as historic structures.
    Furthermore, in 1994 we reported that of the three agencies, only 
the Park Service plans to replace and upgrade its housing. Although the 
Forest Service and BLM do not plan to stop providing housing 
altogether, both plan to minimize their involvement in providing 
housing to employees and instead rely more upon private sector housing. 
Among the reasons the Forest Service and BLM are minimizing housing is 
that (1) their current housing inventories were too expensive to 
maintain, (2) previous justifications for providing housing were no 
longer valid, (3) better roads have made it easier for employees to 
live in nearby communities, and (4) employees have shown a preference 
for living in private residences.
    In closing, the Park Service has been slow to resolve problems that 
we have identified in past reports. It has taken an act of Congress to 
move the agency to review and revise its housing policies and make 
arrangements to determine its need for and condition of its housing 
inventory. By taking these steps, the agency appears to be on the right 
track toward making progress in key areas. However, it's clear that 
continued congressional attention is needed to ensure that the Park 
Service is held accountable to provide housing only where it is 
absolutely necessary and appropriately justified.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer questions from you or any other Members of the Subcommittee.

    Mr. Regula. I think what we will do is defer questions 
until we have heard from Ms. Lewis, the Inspector General. Ms. 
Lewis, if you choose to summarize, I think probably some of 
this is repetitious, but however you think you can best present 
the information to the subcommittee, we will welcome it.
    Ms. Lewis. Okay.

               Opening Remarks--Inspector General of DOI

    Thank you very much, Mr. Chairman, Members of the 
subcommittee. I am very pleased to be here this morning to 
testify regarding an audit report issued by the Office of 
Inspector General on the cost of construction of employee 
housing at Grand Canyon and Yosemite National Parks. I have 
also been asked to comment on any reports that we have issued 
in the past several years that relate to the Park Service's 
decision-making process. We have prepared and made available to 
the Members of the subcommittee a detailed written statement, 
and also the audit report on employee housing. In the interest 
of time, I will just summarize my written testimony.
    Mr. Regula. And your full report and all the supporting 
information will be made a part of the record, without 
objection.
    Ms. Lewis. Thank you very much.
    Summarizing briefly, the first issue is our audit on 
employee housing. Our audit revealed that the Park Service 
constructed high-cost single-family homes at both Grand Canyon 
and Yosemite National Parks. Specifically, on a per-house 
basis, the average cost to construct a single-family home was 
$390,000 at Grand Canyon and $584,000 at Yosemite.
    By contrast, our estimates of construction costs in the 
private sector were at least $158,000 less than the Park 
Service's average cost at Grand Canyon and at least $334,000 
less than the Park Service's average cost at Yosemite.
    Similarly, the sales prices for homes in the Grand Canyon 
area were at least $215,000 less than the average of the Park 
Service's construction costs at Grand Canyon; and for homes 
around Yosemite, at least $284,000 less than the average of the 
Park Service's construction costs at Yosemite.
    Further, based on information gathered during the course of 
the audit, we also observed that other Federal agencies 
appeared to be meeting their housing needs at costs 
significantly less than the Park Service's. While recognizing 
the undeniable fact that its housing construction costs were, 
indeed, high, the Park Service took exception to some of the 
comparisons presented in the audit report. The Park Service 
challenged some of the computations and claimed that the Grand 
Canyon and Yosemite housing construction cost figures were 
``artificially enlarg[ed]'' and ``inflated.''
    The Park Service also sought to justify its housing 
construction expenditures by citing the environmental and 
quality aspects that were designed into the houses; the need 
for and benefits of such nonstandard and energy-efficient 
features; and the additional costs that are associated with 
complying with Federal laws and regulations and otherwise 
building on Park Service lands.
    Armed with these defenses, the Park Service maintained that 
it was, in fact, constructing ``modest types of housing''; that 
the construction represented a ``reasonable level of Park 
Service investment''; and that it was providing its employees 
with what they, like ordinary people, expect, that is, 
``standard, comfortable homes, with normal amenities and 
facilities such as are used in day-to-day living.''
    As described in detail in the audit report itself, as well 
as in my written testimony, copies of which have been provided 
to this subcommittee, the Park Service's mostly unsupported, 
sometimes conflicting contentions fell far short of refuting 
our conclusion that the Park Service constructed high-cost 
single-family homes and that such high costs must be contained. 
As representatives of the contracted architectural and 
engineering firm at Yosemite observed, ``If some of the top-of-
the-line items that the park is insisting on, such as doors and 
windows, could be lowered a notch in quality, then the unit 
costs would go down significantly.'' Conversely, if one were 
simply to accept the Park Service's representations regarding 
the need for such items and the extraordinary costs otherwise 
associated with its construction of single-family homes on Park 
Service lands, then more cost-effective housing options should 
have been explored. Accordingly, we recommended that the Park 
Service review the strategy that the parks, particularly Grand 
Canyon and Yosemite, have for addressing their employee housing 
needs to ensure that housing is designed and constructed in a 
cost-effective manner.
    In response to the final report, the Park Service agreed 
with our recommendation and identified several initiatives that 
are in process, such as completing a Servicewide housing needs 
assessment; evaluating housing partnerships with the private 
sector; revising the housing policy; relocating staff to 
surrounding communities; incorporating formal value analyses in 
the design of housing projects; establishing standardized 
housing designs; and relying on the private sector to finance 
or supply housing. We believe that the diligent pursuit of such 
actions will adequately implement our recommendation.
    With respect to the second issue, we have not conducted any 
audits directly related to the Park Service's decision-making 
process. However, we have conducted several audits which have 
shown that the decentralization of park management, without 
adequate headquarters oversight and control of park operations, 
has led to the inconsistent or inadequate implementation of 
Servicewide policies and procedures in the areas of facility 
construction, fee collections, the recovery of costs for 
emergency medical and search and rescue activities, 
maintenance, and utility services. Examples of such audits are 
set forth in my written statement.
    In concluding my remarks, I would request that a copy of 
the complete written statement, as well as the audit report, be 
placed in the record. I would now be happy to answer any 
questions that the subcommittee may have regarding my 
testimony.
    [The information follows:]
          Testimony of Wilma A. Lewis, Inspector General, DOI
    Mr. Chairman and Members of the House of Representatives Committee 
on Appropriations, Subcommittee on Interior and Related Agencies: I am 
pleased to be here today to provide testimony on a report we issued on 
December 6, 1996, entitled ``Cost of Construction of Employee Housing 
at Grand Canyon and Yosemite National Parks, National Park Service.'' 
We conducted the review in response to a request from Congressman Scott 
McInnis, who asked that we evaluate the ``excessive costs'' of employee 
housing in the two parks, and that we determine whether certain 
recreation areas on Federal lands in El Portal, California, were being 
constructed for Park Service employees only. I also have been asked to 
include in my testimony information from any audits we performed in the 
past several years that relate to the Park Service's decision-making 
process.
    Our audit on construction of employee housing at Grand Canyon and 
Yosemite National Parks revealed that the total estimated cost of 
planning, designing, developing infrastructure (which includes erecting 
roads, utilities, and building sites), and constructing 23 single-
family houses at Grand Canyon National Park and 34 apartments and 19 
single-family houses at Yosemite National Park was $29.2 million. On a 
per house basis, the average cost to construct a single-family home was 
$390,000 at Grand Canyon and $584,000 at Yosemite National Park. In 
contrast, we estimated that the total cost to construct an 1,800 
square-foot, three-bedroom house (which represents one of the larger 
houses being constructed by the Park Service at these locations) in the 
private sector ranged from $115,000 to $232,000 near Grand Canyon 
National Park, or at least $158,000 less than the Park Service's 
average cost, and from $102,000 to $250,000 near Yosemite National 
Park, or at least $334,000 less than the Park Service's average cost. 
To further put these costs in perspective, realtors near the parks 
stated that 1,200 to 1,800 square-foot homes near Grand Canyon National 
Park were selling for about $125,000 to $175,000, or at least $215,000 
less than the average of the Park Service's costs, and that sales 
prices near Yosemite ranged from about $80,000 to $300,000 for 1,200 to 
2,400 square-foot homes, or at least $284,000 less than the average of 
the Park Service's costs.
    Regarding the recreation areas being constructed by the Park 
Service at Yosemite's El Portal administrative site, we found that 
these areas will not be restricted to Park Service employees but will 
be available for use by the general public, the local community, and 
area schools.
    With respect to the Park Service's decision-making process, we have 
not conducted any audits specifically related to this subject. However, 
we have conducted several audits which have shown that the 
decentralization of park management, without adequate Headquarters 
oversight and control of park operations, has led to the inconsistent 
implementation of Servicewide policies and procedures in the areas of 
facility construction; fee collections; and the recovery of costs for 
emergency medical and search and rescue activities, maintenance, and 
utilities services. I will refer briefly to these reports later in my 
testimony.
             employee housing at grand canyon national park
    At the time of our review, which was conducted during fiscal year 
1996, the Park Service was constructing 59 single-family homes at Grand 
Canyon National Park. Since construction had not been completed, we 
audited the costs incurred and estimated the remaining costs to 
construct the first 23 of the 59 houses and determined that the total 
cost of planning, designing, constructing, and supervising the 
construction of the houses, including infrastructure, was approximately 
$8.9 million. Based on this total cost, the average cost to construct 
the 23 single-family employee houses was about $390,000 ($8.9 million 
divided by 23 houses), and the per unit cost ranged from $337,320 for a 
1,258 square-foot house to $472,999 for a 1,764 square-foot house.
    We found that the former Park Superintendent decided to build 59 
single-family homes, even though other Park Service officials from the 
Denver Service Center and the Pacific West Regional Office had 
recommended constructing up to 114 housing units composed of a mix of 
both single-family and multi-family units, such as apartments, town 
houses, or ``cluster'' homes, to better address the Park's housing 
shortage and overcrowded, unsafe, and substandard housing conditions. 
Park officials estimated that 50 permanent and 100 seasonal employees 
at the Park would still be living in deficient housing at the 
completion of this housing construction.
               employee housing at yosemite national park
    Between March 1993 and June 1996, the Park Service completed 
construction of 34 apartments and 19 single-family homes at El Portal, 
California, which is about 5 miles from Yosemite National Park. Based 
on our review of Park Service records, we determined that the total 
cost of planning, designing, constructing, and supervising construction 
of the houses and apartments, including infrastructure, was 
approximately $9.1 million for the 34 apartment units and was about 
$11.1 million for the 19 single-family homes. Based on this total cost, 
the average cost to construct the 19 single-family employee houses at 
Yosemite National Park was $584,000 ($11.1 million divided by 19 
houses), and the per unit cost ranged from $425,294 for a 1,267 square-
foot house to $681,410 for a 2,030 square-foot house.
    We concluded that the critical need for housing seasonal employees 
that existed in the Park cannot be fully addressed by adding only 19 
single family homes and 34 apartments (one- and two-bedroom units). We 
estimated, based on Park Service records, that after construction of 
those housing units in El Portal, at least 70 seasonal employees would 
still live under the same conditions that prompted the funding for the 
new housing for employees.
                      prior park service testimony
    We noted that Park Service officials had testified before this 
Subcommittee for fiscal years 1994 and 1995 on the high costs 
associated with housing at Grand Canyon and Yosemite National Parks. 
During these hearings, Park Service officials provided reasons as to 
why they believed the construction costs for the employee housing at 
these parks were high and informed the Subcommittee of the estimated 
average cost of the houses. Specifically, the Park Service testified, 
among other issues, that the average cost for housing would be $386,000 
at Grand Canyon National Park and $305,300 at Yosemite National Park. 
The Park Service testified that the reasons for the high costs of 
construction were related to such factors as the remote location of the 
construction and the environmental and quality aspects that were 
designed into the houses.
                       construction cost factors
    The Park Service stated during our review that a primary reason for 
the high costs of housing at Grand Canyon and Yosemite National Parks 
was the use of nonstandard and energy efficient materials in the homes, 
apartment units, and related infrastructure included during the 
planning and designing processes. The Park Service provided us with a 
list of items, such as solid core doors, solar water heaters, 
commercial-grade floor coverings, high quality and extra windows, extra 
insulation, four alternate means of cooling, and an enhanced planting 
plan, that were used in constructing the housing. Park Service 
officials told us that these and other items were necessary for 
``durability'' and for ``long-term maintenance savings,'' energy 
efficiency, noise control in apartments, and landscape enhancements. 
Park Service officials also told us that energy efficient houses were 
necessary to aid in the preservation of the environment and to reduce 
the employees' costs for energy. However, we were not provided any 
cost-benefit analyses to determine and validate the incremental costs 
or benefits associated with the use of these nonstandard and energy 
efficient items. On the other hand, we found reports and documents that 
questioned the use of some of these materials. For example, in notes of 
a meeting between Yosemite National Park officials and representatives 
of the contracted architectural and engineering firm, the firm stated, 
``If some of the top-of-the-line items that the Park is insisting on, 
i.e., doors and windows, could be lowered a notch in quality, then the 
unit costs would go down significantly.''
                planning, design, and supervision costs
    In addition to the use of nonstandard and energy efficient 
materials, we determined that the Denver Service Center's costs for 
planning, designing, and supervising construction contributed to the 
high costs of housing at the parks. We identified charges of $8.7 
million for planning, design, and construction supervision at both 
parks as follows:
    At Grand Canyon National Park, we found that these costs totaled 
$3.9 million as of January 1996. Of this amount, planning and design 
costs totaled about $2.8 million for 9 home designs for all 59 home 
sites, including $1.3 million for the 7 designs applicable to the 23 
homes constructed. In addition, about $1.1 million was charged for 
supervising the construction of the first 23 homes, which were 70 
percent complete at the time of our review.
    At Yosemite National Park, we found that costs for planning, 
designing, and supervising the construction of housing were about $4.8 
million as of January 1996. Of this amount, $3 million was charged to 
planning and design and $1.8 million was charged to construction 
supervision for the 34 apartments and 19 houses built at the Park.
     park service responses and office of inspector general replies
    On June 3, 1996, we provided the Park Service with a preliminary 
draft of our report. In a June 14, 1996, response, the park Service did 
not agree with the manner in which the cost information was presented 
in the preliminary report. The Park Service stated that the report 
``artificially enlarg[ed] the `housing construction costs' to a figure 
abnormally higher than a similar housing unit constructed in a suburban 
subdivision.'' The Park Service also stated that our report inflated 
the cost of housing by including specialized expenses particular to 
Federal agencies and to the Park Service, and therefore did not state 
the true cost of constructing the housing units. The Park Service 
maintained that, when properly analyzed, its per unit construction 
costs were actually comparable to those in the private sector; that it 
was, in fact, constructing ``modest types of housing''; and that the 
construction represented a ``reasonable level of NPS [Park Service] 
investment.''
    We believed that the Park Service's comments were without merit. 
Nonetheless, based on those comments, we expanded our fieldwork to 
enable us to present information on the cost of constructing housing in 
both the private sector and at other Federal agencies and to identify 
the specialized expenses associated with constructing housing on Park 
Service lands. On September 18, 1996, at the completion of this 
additional fieldwork, we issued our formal draft report to the Park 
Service, which incorporated this information.
    On October 18, 1996, the Park Service responded to the draft report 
and continued to take exception to the report's presentation of 
construction costs. Among other things, the Park Service stated that 
the report contained ``inaccuracies'' and ``non-comparable 
comparisons'' to housing constructed on private lands and to ``some 
Federal housing.'' In addition, the Park Service criticized our failure 
to use competitive bids received by the Park Service as the basis for 
establishing the reasonable cost for the construction of employee 
housing. Further, although the Park Service agreed with the 
recommendation in the draft report, specific details regarding 
implementation were lacking.
    On December 6, 1996, we issued our final report, which included the 
Park Service's comments and our reply, as well as a request that the 
Park Service reconsider its response to the recommendation. On February 
28, 1997, the Park Service provided a response to the final report that 
included information on how it would implement the recommendation.
    The following paragraphs summarize our comments on the Park 
Service's responses regarding: (1) housing construction costs incurred 
by the private sector nationally and in areas near the parks; (2) 
housing construction costs incurred by other Federal agencies; (3) 
private sector and other Federal agency comparisons; (4) specialized 
expenses particular to Federal agencies; (5) the prices of homes sold 
in areas near the parks; and (6) competing contractors' bids.
    Private Sector Construction Costs. According to information 
provided by the National Association of Homebuilders, we estimated that 
the national average cost of constructing an 1,800 square-foot, single-
family house (including infrastructure) within the United States in 
1995 was about $125,000. In addition, based on information provided to 
us by local officials and land developers near both parks, we derived 
two estimates of the costs to construct an 1,800 square-foot house: an 
estimate to construct a ``good'' quality house that would exceed 
national standard building codes and an estimate to construct an 
``excellent''quality house, which incorporated additional high quality 
material and workmanship in the construction. Using this information, 
we estimated that the private sector construction costs, including 
design, planning, infrastructure, supervision, and profit, would range 
from $115,000 to $232,000 versus the $390,000 average cost for employee 
homes built at Grand Canyon National Park and from $102,000 to $250,000 
versus the $584,000 average cost for employee homes built at Yosemite 
National Park.
    The Park Service stated that the private sector costs presented in 
our report did not include the cost of developing infrastructure near 
the two parks and thus these costs should not be included in our 
comparisons of the Park Service's costs. However, city and county 
officials and private land developers told us that infrastructure costs 
(building roads or extending water and sewer systems) were borne by the 
land developers and/or the individual home builders. Consequently, 
despite the Park Service's contention that general site improvements 
were not financed and constructed by builders in the private sector, 
the sources of our information indicated the contrary. Thus, we 
included the infrastructure expenses in our estimate of overall costs 
of constructing the employee housing units.
    Other Federal Agency Housing Construction Costs. We also contacted 
representatives of other Federal agencies to obtain information on 
their respective costs of constructing employee housing and found that 
the average cost of constructing a three-bedroom, single-family home 
within the Bureau of Indian Affairs, excluding the cost of ``off-site'' 
infrastructure and construction supervision, was $150,000. We were not 
provided information to estimate the two cost exclusions. The cost for 
the Department of Housing and Urban Development to construct a five-
bedroom, single family home, excluding ``off-site'' infrastructure, on 
the Havasupai Reservation in Prescott, Arizona, in 1992 was $144,500. 
Further, the Army Corps of Engineers built 220 multi-family housing 
units (110 duplexes) and infrastructure (such as roads, utilities, 
water and sewer facilities, sports fields, picnic shelters, and tot 
lots) in 1994 for an average of $105,000 per unit at Fort Irwin in 
Barstow, California. As the Park Service acknowledged in response to 
our draft report, the per unit cost of $105,000 supports the benefits 
of the economy of scale for the construction of large scale housing 
projects.
    Private Sector and Other Federal Agency Comparisons. In response to 
the draft report, the Park Service stated that housing constructed on 
private lands and housing constructed by other Federal agencies were 
``non-comparable comparisons'' and that our examples do not directly 
compare with housing constructed by the Park Service.
    We do not agree that either the private sector comparisons or the 
other Federal agency examples are ``noncomparable.'' In fact, the Park 
Service initially suggested the private sector comparison in response 
to the preliminary draft report. We believe that the private sector 
information, which includes estimated costs for constructing good and 
excellent quality homes, provides useful and appropriate comparisons, 
provided that certain factors particular to Federal construction are 
taken into account, as the report does. Also, the representatives from 
other Federal agencies told us that they were required to comply with 
many of the same specialized expenses. Therefore, we believe that the 
Park Service should find the other Federal agency examples relevant in 
assessing its own costs.
    Specialized Expenses Particular to Federal Agencies. In response to 
the preliminary draft report, the Park Service said that there were 
nine factors particular to Federal construction that increased costs: 
the Davis-Bacon Act wage adjustments, Buy American Act procurement 
requirements, archaeological study requirements, Small Business 
Administration Minority Program procurement requirements, Endangered 
Species Act requirements, remote location cost adjustments, unusual 
site conditions, Americans With Disabilities Act access requirements, 
and fire suppression requirements. Accordingly, we examined the bid 
abstracts and other Park Service documentation for the housing 
construction contracts in an attempt to identify the increased costs 
associated with these factors. However, the documentation did not 
identify such information. Also, when we repeatedly requested 
information on the Park Service's increased costs associated with the 
nine categories of specialized expenses, Part Service officials said 
that the information was not available. In the absence of the requested 
data, we estimated the specialized Federal expenses based on 
information obtained from other Federal agencies, private land 
developers, and reference materials. From this information, we 
developed our best estimate of the increased costs that normally would 
be associated with complying with Federal regulations and otherwise 
building on Park Service lands. Our estimates of the additional costs 
associated with these nine factors to build an 1,800 square-foot home 
were $15,444 for Grand Canyon National Park and $94,493 for Yosemite 
National Park. The major difference between the estimated amounts for 
the two parks is the costs associated with complying with Davis-Bacon 
Act wage requirements.
    In responding to our draft report, the Park Service did not 
specifically identify amounts for the specialized expenses at Grand 
Canyon National Park. The Park Service stated, however, that the 
increased cost per house at Yosemite National Park for the nine 
categories of specialized expenses previously identified plus two 
additional categories of expenses (site utilities and open space and 
recreational facilities) should be $236,298 rather than $94,493. 
Regarding the total specialized costs of about $4.5 million (which the 
Park Service computed by multiplying $236,298 by the 19 houses built at 
Yosemite National Park), the Park Service stated that these 
``extraordinary expenses attach to construction on [Park Service] lands 
because of the laws which the Congress has enacted.'' The Park Service, 
however, did not provide any documented support for its calculation of 
the $236,298 amount. Accordingly, there was no basis upon which we 
could test the validity of the Park Service's conclusion.
    Assuming, without conceding, that the cost of the specialized 
expenses associated with constructing single-family housing on Park 
Service lands at Yosemite National Park added $236,298 rather than the 
$94,493 that we estimated for each home, as the Park Service claims, we 
believe that the Park Service should have opted for alternative 
housing, such as multi-family housing or private sector housing. 
Moreover, assuming that the Park Service's estimate is accurate, even a 
cost of $348,000, which represents the average cost per house of 
$584,000 minus the Park Service's estimate of specialized expenses of 
$236,000, is high when compared with the $102,000 to $250,000 range of 
costs for building single-family homes in the private sector in the 
same area. Accordingly, the Park Service's computation for specialized 
Federal expenses does not support its contentions that it is 
constructing ``modest types of housing'' or that the housing cost 
represents a ``reasonable level of NPS [Park Service] investment.''
    Home Sales Prices. Based on discussions with realtors in the 
respective areas, we found that the average price of an 1,800 square-
foot home selling in the Flagstaff, Arizona, area (79 miles away from 
Grand Canyon National Park) was about $175,000. The electronic 
publication ``Money On Line'' listed the median price of a three-
bedroom home in Flagstaff as $130,000. The price of a 1,200 to 1,500 
square-foot home in Williams, Arizona (about 60 miles south of Grand 
Canyon), was about $125,000. These sales prices are significantly lower 
than the $390,000 average cost for Park Service housing at Grand 
Canyon.
    A realtor in Merced, California (68 miles from Yosemite National 
Park), said that the sales prices for 1,750 to 1,850 square-foot homes 
ranged from $85,000 to $195,000 in 1995. ``Money On Line'' also listed 
the median price of three-bedroom homes in Merced as $91,000. For homes 
in the areas of Catheys Valley (45 miles away) and Mariposa (30 miles 
away), realty publications indicated that sales prices, which generally 
included 3 to 5 acres of land, ranged from $80,000 to $300,000 for 
1,200 to 2,400 square-foot homes, respectively. These sales prices were 
significantly lower than the $584,000 average cost for Park Service 
housing at Yosemite National Park.
    Competitive Bids. The Park Service also stated that our report did 
not consider the competing contractors' bids as ``fair competitive 
examples of equivalent cost comparisons for the construction of 
housing'' in Yosemite and Grand Canyon National Parks. In that regard, 
the Park Service stated that the ``only proper theater of cost 
comparison'' is to have ``open competition by housing construction 
firms bidding on a uniform set of specifications'' that are applicable 
to a particular park because the ``natural incentives of such 
competition serve as independent controls that establish the reasonable 
range of costs for the construction specifications identified.'' The 
Park Service opined that we should have compared competitive bids that 
the Park Service had in its files to establish the reasonable level of 
costs experienced by the Park Service.
    We strongly disagree, in this case, that reasonable cost can be 
best illustrated by bids on a uniform set of specifications that apply 
to a particular park. Indeed, we believe that this statement suggests a 
fundamental misunderstanding of the issue by the Park Service. As the 
Park Service acknowledges, the bids provide a range of costs for the 
construction specifications identified. In other words, the bids merely 
indicate the range of proposed costs that prospective contractors offer 
in response to bid specifications for the particular type of housing 
requested by the Park Service. Specifications with ``top-of-the-line'' 
items would necessarily result in higher bids than those with items of 
lesser quality. In addition, the bids do not provide any related 
information on the alternatives to building single-family homes or on 
the reasonableness or efficiency of the design. Thus, far from being 
``the only proper theater of cost comparison,'' we believe that it 
would not be appropriate in this case to rely on bidding information to 
determine whether the cost of Park Service housing is higher than it 
should be.
                             recommendation
    Because of the high costs for employee housing and the decision to 
build single-family homes to meet housing needs, we recommended that 
the Park Service review the strategy that the parks, particularly Grand 
Canyon and Yosemite National Parks, have for meeting their employee 
housing needs to ensure that housing is designed and constructed in a 
cost-effective manner.
    In response to the draft report, the Park Service stated that it 
agreed with and had implemented our recommendation to ensure that the 
two parks were meeting their housing needs in a cost-effective manner. 
In that regard, the Park Service provided additional information on the 
costs of constructing housing at the two parks and stated in general 
terms actions that it believed evidenced implementation of the 
recommendation. However, overall, we concluded that the Park Service's 
response was simply an attempt to justify the high costs it incurred 
for housing construction at Grand Canyon and Yosemite National Parks 
rather than a specific description of actions it would take to reduce 
or contain such costs. In the absence of a Federal limit on housing 
construction costs, we concluded that the Park Service was emphasizing 
the environmental and quality aspects of planning, designing, and 
constructing housing over the cost aspect. We believed it was 
imperative that the Park Service focus its efforts instead on meeting 
its housing needs in a cost-effective manner. As such, we requested 
that the Park Service reconsider its response to the recommendation.
    In response to the final report, the Park Service agreed with our 
recommendation and identified a number of initiatives that are in 
process. Specifically, at Yosemite National Park, the Park Service said 
that it was pursuing joint public/private sector housing, completing a 
Parkwide housing needs assessment, and revising its housing policy. At 
Grand Canyon National Park, the Park Service said that it would not 
build future single-family housing, would relocate part of its staff to 
surrounding communities, and would seek to identify privately built 
housing on U.S. Forest Service lands. At the Denver Service Center, the 
Park Service stated that it would design all future housing projects 
incorporating formal value analyses and establish standardized housing 
designs and specifications for use whenever possible. The Park Service 
also expressed its intent to use, where applicable, the authority in 
the Omnibus Parks and Public Lands Management Act of 1996 by ``relying 
on the private sector to finance or supply housing on or off-site'' to 
reduce the need for Federal appropriations and to reduce the number of 
Park Service-owned housing units. We believe that completion of these 
actions will implement our audit recommendation.
                    other park service construction
    In addition to the report on the construction of employee housing 
at Grand Canyon and Yosemite National Parks, the Office of Inspector 
General issued another report in September 1992 on a Park Service 
construction project. The audit report ``Proposed Replacement of the 
Denali National Park Hotel, Alaska, National Park Service'' (No. 92-I-
1310) examined the need to replace the current hotel with a new 
structure estimated to cost $39 million, and the actions taken by the 
Park Service to consider and evaluate alternatives to this construction 
project.
    We concluded that the planned hotel construction was not adequately 
justified or required under existing conditions. Park Service policy 
states that facilities for park visitors cannot be constructed if 
adequate facilities exist or ``can feasibly be developed'' outside the 
parks by commercial interests to serve park visitors' needs. At Denali, 
we found that a sufficient number of commercial hotel accommodations 
were available outside the Park to meet the needs of Park visitors. 
Also, the Park Service's ``Concessions Management Guidelines'' (NPS-48) 
requires the Park Service to perform economic and qualitative analyses 
to support decisions to build facilities within the parks. We found, 
however, that the Park Service had not adequately performed the 
required analyses. Finally, we determined that the cost of the new 
hotel appeared to be prohibitive when compared with the cost of hotels 
constructed outside the Park. Consistent with our recommendations, the 
Park Service did not construct the hotel.
              information on park service decision-making
    The Subcommittee also requested that we provide information on 
audits related to the Park Service's decision-making process. Although 
we have not conducted any audits specifically addressing that subject, 
we have conducted numerous audits of Park Service programs and 
activities which found that the decentralized approach to park 
management, without adequate Headquarters oversight of park operations, 
had resulted in the inconsistent implementation of Servicewide policies 
and procedures. Audits also have revealed that the Park Service's 
Headquarters had not issued adequate procedures and guidance. The 
following synopses of selected Office of Inspector General reports are 
illustrative.
    Fee Collections. The Office of Inspector General issued reports on 
the collection of fees at national parks as follows:
    The audit report ``Special Use Fees, National Park Service'' (No. 
96-I-49), issued in October 1995, stated that the Park Service did not 
implement its authority under recent appropriation acts to collect and 
retain fees for special park uses in a consistent manner. Specifically, 
the Park Service's Appropriations Act of 1994 provided the Park Service 
with permanent authority to recover and retain the costs of providing 
services associated with special use permits. Because the Park Service 
had not revised its guidelines to address the changes created by the 
Acts, there were inconsistencies among the parks regarding the types of 
activities on which special use fees could be assessed, the methods 
used in establishing the fees, and the use of fee revenues.
    In September 1994, we issued the audit report ``Concessions 
Management, National Park Service'' (No. 94-I-1211), which found that 
the Park Service had not received equitable fees from concessionaires. 
The Concessions Policy Act of 1965 required that franchise fees be 
determined upon consideration of the net profit potential of the 
concession operation in relation to the concessionaire's gross receipts 
and capital investment. However, the Park Service had not issued and 
implemented policies and/or procedures for reconsidering franchise fees 
and for computing building use fees for Government-owned facilities. We 
estimated that the Park Service lost revenues of $6.8 million from 1986 
through 1993 and would lose additional revenues of $11.1 million for 
the period of 1991 through 1993 unless it completed the franchise fee 
reconsiderations and building use fee computations.
    The audit report ``Followup Review of Concession Management, 
National Park Service'' (No. 90-62), issued in April 1990, stated that 
the Park Service did not receive sufficient franchise fees from the 
larger concessionaires. The Concessions Policy Act of 1965 (Public Law 
89-249) and the Park Service's ``Concessions Management Guidelines'' 
provide guidance on franchise fee determinations. However, parks had 
not adopted fees recommended by the Park Service's Washington Office 
because regional directors, who had ultimate contract authority in 
setting fees, reduced the fees for various reasons. Nor did the parks 
perform adequate financial analyses in determining fees. As a result, 
we estimated that the Park Service did not receive as much as $83 
million in additional fees from 1984 through 1988.
    Cost Recovery. The Office of Inspector General issued reports on 
the recovery of costs at national parks as follows:
    The June 1996 survey report ``Emergency Medical and Search and 
Rescue Services, National Park Service'' (No. 96-I-806) stated that the 
Park Service was not recovering its costs for providing emergency 
medical and search and rescue services to park visitors. The Park 
Service's management guidelines ``Emergency Medical Services'' (NPS-51) 
contain guidance on establishing and maintaining an emergency medical 
services program and for charging fees for such park-provided services. 
However, the Park Service had not established uniform cost recovery 
procedures and relied on field-level managers to implement cost 
recovery procedures without providing sufficient oversight. As a 
result, a cost recovery practices among the parks were not consistent, 
and costs totaling $4.5 million for emergency services in fiscal year 
1993 were not recovered from specific beneficiaries.
    Our September 1991 audit report ``Maintenance Work Performed for 
Non-Governmental Recipients, National Park Service'' (No. 91-I-1321) 
stated that the Park Service did not adequately assess or recover costs 
for the maintenance of facilities used by concessionaires and other 
non-Governmental interests. Title V of the Independent Offices 
Appropriations Act of 1952 (the User Fee Statute) authorizes Federal 
agencies to charge fees for services or benefits provided to 
identifiable users. However, the Park Service did not have adequate 
guidelines or procedures on cost recovery or for tracking the 
maintenance costs attributable to facilities used by concessionaires 
and other non-Governmental interests. At the 10 sites visited, we 
identified Park Service-incurred maintenance costs of about $2 million 
that were not reimbursed to the Government.
    The January 1991 audit report ``Utility Rates Imposed by the 
National Park Service'' (No. 91-I-333) stated that the Park Service did 
not adequately pursue recovery of its capital investment in utility 
systems from concessionaires and inholders in the parks which were 
provided utility services. Criteria for charging utility rates are also 
contained in Title V of the Independent Offices Appropriations Act of 
1952. However, the Park Service's Special Directive 83-2, ``Rates for 
NPS-Produced Utilities,'' did not provide adequate guidance or 
establish sufficient controls to ensure the recovery of these costs. We 
estimated that utility system costs of as much as $38.7 million may 
have been recoverable for the period of 1986 through 1989 from the 
beneficiaries.
    This concludes my prepared statement. I would be happy to respond 
to any questions that the Subcommittee may have concerning my 
testimony.

    Mr. Regula. I want to thank both of you for your testimony, 
and I am sure it has generated a lot of questions. What I 
suggest we do is, following our committee policy, offer an 
opportunity to each of the subcommittee Members to ask 
questions of our witnesses in the order in which the Members 
arrived, with one exception.
    And Mr. Chairman, if you would like to lead off with 
questions. By the way, questions can be submitted by any Member 
of the subcommittee for the record to the witnesses. If you 
could try to get those to us in the next couple of days, we 
will get them to our witnesses.
    Mr. Chairman.

                       discretion in use of funds

    Mr. Livingston. Thank you very much, Mr. Chairman. I thank 
you for your indulgence. I will try to be brief and not belabor 
this, but I want to commend Mr. Hill and Ms. Lewis for their 
testimony.
    Frankly, I have to say, I am shocked. I know that the Park 
Service is always asking us for more money and saying that they 
are short of cash to run the parks. Now I think I have an idea 
why.
    But I want to ask both of you--is there any reason to 
believe that some of these examples of abuse are just isolated, 
or are you speaking generically of practices found throughout 
the Park Service?
    Mr. Hill. I think it is safe to say that the problems are 
quite widespread. We have done a number of jobs in the past 
that have looked at the parks in various ways. We are looking 
currently right now at it in terms of the maintenance backlog 
to see what that is made up of. But earlier this year, we 
issued a report that talked about the method in which the 
funding for the Park Service is given out to the parks, and we 
tracked the dollars down, and we basically found out that there 
is a lot of discretion.
    Once the funding goes out to the region and then down to 
the park level, there is a lot of discretion in terms of how 
those funds are used. And there is little accountability in the 
process in terms of ensuring that the money that is being spent 
is being done consistent with priorities for the Park Service 
as a whole, the National Park Service. Once it gets down to the 
park level, the parks are spending that money in terms of what 
the priorities may be in that particular park. But whether that 
priority is consistent with the priority in a park in another 
region or another State, that part of the process, I think, 
really needs to be fixed.
    Mr. Livingston. Ms. Lewis.
    Ms. Lewis. Thank you. With respect to the housing issue, 
the only parks that we looked at for purposes of our audit were 
Yosemite and Grand Canyon. So I would be unable to speak to 
whether or not the other parks are having that same problem.
    I will say, however, that, as I indicated, the notion of 
the Park Service inconsistently implementing policies and 
procedures among the various parks is something that we have 
had the opportunity to look at. In looking at a number of 
parks, we have seen the types of inconsistencies and inadequate 
implementation of policies that we believe result from the 
decentralized Park Service structure and inadequate supervision 
or oversight by its headquarters office.
    Mr. Livingston. Thank you.
    I note that a couple of years ago, the Park Service said 
they were so short of the money that they actually had to close 
a few parks on Memorial Day weekend. It strikes me that if they 
have got to deny the parks to the very people for whom the 
parks were created so that they can house their employees in 
$400,000 to $600,000 houses, something has gone awry.

                delaware water gap outhouse construction

    But apart from the housing, let me ask you about something 
that appeared in the paper just last month. It seems that 
planning, designing and constructing a composting toilet 
outhouse at Dingman Falls in the Delaware Water Gap--I think 
the chairman referred to it in his opening statement--has been 
reported to cost over $300,000. Now, that is for an outhouse. 
The cost of the average new 2,000-square-foot home with three 
bedrooms and two baths in this area is estimated to cost about 
$100,000. So there is a sense of misplaced priority here, 
unless you want total luxury in your most private moments.
    Wouldn't you agree that a Park Service outhouse costing 
more than three times the typical home in the area, excluding 
land costs, would make the average citizen question whether 
their taxes are being spent wisely?
    Mr. Hill. We would certainly agree with that. And I am 
going to ask Mr. Fowler to react to this, because he was at the 
Delaware Water Gap, and he did observe that particular 
structure. But we were somewhat shocked by the costs, and we 
have not done a lot of detailed work, but what we were told was 
that a good portion of those costs were in the planning and 
designing. About $100,000 went just into the planning and 
designing of that; another $80,000 for someone from the Denver 
Service Center to be on site during the construction. And it is 
disturbing to realize that the Delaware Water Gap park has 
plans to build a few more of these structures. They have not 
been approved yet, but that is what their plans are.
    I am going to let Mr. Fowler tell you because he observed 
this $300,000----
    Mr. Livingston. Mr. Fowler, if you could respond. But let 
me also preface your answer by saying that we also read that 
the Deputy Director of the Park Service has defended the cost 
of this thing by saying that the cost is typical for what the 
National Park Service is paying for outhouses. Is it typical, 
and is it what we should be paying for our outhouses in this 
country?
    Mr. Fowler. I don't know if it is typical. It is certainly 
hard to defend. I don't know how you could defend it. And I 
might add that the costs you mentioned, the $300,000 plus for 
the outhouse versus the $100,000 for a local house there, does 
not include the cost of land, obviously, because it is on 
Federal property. So you could look at it that that disparity 
is even larger than you cited there. But it is hard to defend 
in either case.
    Mr. Livingston. What are they putting into these outhouses; 
gold-plated toilet seats?
    Mr. Fowler. That particular one is pretty extravagant, in 
my judgment.
    Mr. Livingston. Well, I hate to ask if the system is broken 
because that raises all sorts of other connotations, but I 
really am curious about this.
    Mr. Hill. Mr. Chairman, I think we are all, the Congress 
and the Park Service and the American taxpayers, are all 
interested in having good, clean, safe parks that the public 
can go and enjoy, because their tax money has helped put that 
into existence.
    Mr. Livingston. Right.
    Mr. Hill. So I think we are all trying to do the same thing 
here. We are all trying to meet the same purpose. I think where 
it gets different is that perhaps--it is this matter of 
priorities that you talked about, in terms of we want to 
provide quality comfort stations and facilities for the 
taxpayers when they go visit the parks. But based upon all of 
the other needs that the park system has today, can we afford 
to provide this type of comfort station or outhouse at this 
cost? And the obvious answer is absolutely not. We just can't 
afford it in today's environment.
    Mr. Livingston. Mr. Hill, I will conclude my remarks, and 
maybe the other Members will have some comment about this as 
well, but, you know, the Defense Department was raked over the 
coals when it was determined that they had a $600 ashtray, and 
a $300,000 outhouse is a little bit worse than that, in my 
opinion. But I am told that they are earthquake-proof and that 
makes me feel a lot better, especially if I am in that outhouse 
during an earthquake.
    But I just hope that this is an abuse that is isolated. But 
if it is typical, as is indicated by the Deputy Director of the 
Park Service, then I am not only appalled, but I have to join 
with my friend the chairman here in saying that we are going to 
have to make some tremendous adjustments in the Park Service's 
budget.
    Ms. Lewis. Mr. Chairman, if I could speak on that subject, 
we were very encouraged by the Park Service's final response to 
our audit report. In reading the article about the comfort 
station, however, it harkened back, in our view, to a sense 
that we had as we were conducting the audit, which was that 
cost was really not a factor. There was a general sense that 
that was the case, as expressed to me by the auditors who 
interviewed various people. That same sense also seemed to come 
forth in the Park Service's initial response to our preliminary 
draft audit report and its response to our formal or official 
draft report. The thought that those houses at Grand Canyon and 
Yosemite National Park would be described as modest housing was 
surprising to me. The fact that there would be a statement in 
the response that the employees expected standard, comfortable 
homes with normal amenities and these were examples of such 
homes was a surprise to me.
    In addition to that, one of the arguments that the Park 
Service made was that we should have evaluated the competitive 
bids that were made for the particular specifications for the 
park housing. That also was a surprise to me, because it 
suggested, inour view, that the Park Service had a fundamental 
misunderstanding as to what was going on. If the specifications called 
for very high-quality items, top-of-the-line items, as the 
architectural firm indicated, that would result in bids that were high. 
Conversely, if the specifications called for slightly lower quality 
items, it would result in bids that were lower. So certainly it seemed 
pretty clear to us--although the Park Service termed it ``elemental'' 
that we should simply be looking to the competitive bids--that an 
evaluation of competitive bids could not determine whether the housing 
costs were as they should be.
    So, I think in response to your question, the comments 
about that comfort station were disturbing and disappointing to 
us because we believed that the Park Service's response to our 
final report and indeed its fiscal year 1998 budget submission, 
in which it indicated that it was going to incorporate some of 
the very actions that it described to us in response to our 
report, were encouraging. We thought that the Park Service was 
going in the right direction. I am still hopeful that this is 
the case.
    Mr. Livingston. Thank you.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.

                             overhead costs

    One of the objectives of this hearing is to see if there is 
a better way we can manage this. We are looking at the other 
agencies and how they do it.
    My question to you, Mr. Hill, is: As I look at this, about 
a third of the cost of the comfort station, and probably the 
housing also, was in engineering, supervision, et cetera. Now, 
it seems to me that that is an awfully high amount. As I think 
back when we built schoolhouses back home, usually 15 percent 
covered the overhead and the balance went to the construction. 
Would you have any observation on that?
    Mr. Hill. Here again, we did not look in depth at those 
costs. On the surface those costs do look excessive to us. In 
questioning the Park Service, the response that we got was that 
in this particular instance, there was a lot of design and 
planning that had to go into the outhouse to make it 
aesthetically pleasing, make it a visual--a visual thing that 
someone hiking who was going to come upon this outhouse will 
see a structure that fits in with the environment.
    Mr. Dicks. Did it win any awards?
    Mr. Hill. I don't know. But the question that we have is, 
how many different ways can you cut a round hole?
    Mr. Regula. Well, I think a third of the total cost for 
overhead is very excessive in view of what happens in the 
private sector. Ms. Lewis, do you have a comment?
    Ms. Lewis. Yes, Mr. Chairman. In reviewing the housing at 
Grand Canyon and Yosemite, we found that the planning and 
design costs also contributed to the high construction cost.
    One of the things we observed was that, for 23 homes at 
Grand Canyon, there were seven different designs that were 
used. The Park Service's response to our report indicated that 
it will no longer design homes from scratch, which I think is a 
step in the right direction, and that it will be using more 
standardized designs. I think these actions will alleviate this 
type of problem.
    So we think that the Park Service is heading in the right 
direction if it follows through with not developing each of the 
houses----
    Mr. Regula. We would hope that would happen.
    Ms. Lewis [continuing]. From scratch.
    Mr. Regula. Mr. Wamp.
    Mr. Wamp. Thank you. I am particularly glad I get to go 
early here. I feel a major gang tackle coming on, and I don't 
want to be one of the final people to pile on.
    So this really hurts. I know you are the messenger, and we 
are going to get to some people that are more responsible, and 
thank you for bringing this message to us, but it really hurts. 
It reminded me of how you feel when you hear that a good friend 
of yours has cheated on their spouse or something, because the 
person is still your friend. I mean, I expect this at the IRS 
hearings, but when the National Park Service has to come right 
back after we appropriate the money to these hearings and the 
oversight hearings--and I have read the language in our 
conference report and recognize that we identified this problem 
and funded the Park Service. But this really hurts deeply.
    I think it hurts the employees with the Park Service in my 
district who bust their tail to do a good job and are honorable 
people and are efficient. Then we have to come and talk about 
these kind of issues, which is just approaching absurdity. It 
is amazing to me.

                construction moratorium and design build

    Just quickly, we mentioned the ``M'' word in the conference 
report; moratorium. I just want to know what your ideas are 
about just halting all construction until we straighten this 
mess out? I mean, how aggressive do you think we should be? I 
know you are trying to determine what the problems are, and 
then we have to make--take the necessary action.
    I grew up in a family of architects. My father and both of 
my brothers are all three licensed architects in Tennessee. You 
can hire an architect--Mr. Dicks said, in jest, ``Did it 
receive any awards?'' But I know there are a lot of government 
projects that win architectural awards because the architects 
are trying to make a name for themselves, and the taxpayer gets 
penalized because some architect somewhere is trying to make 
the front cover of Architectural Digest. And we have new 
construction practices in this country called design build, 
where you get the architect and the contractor, the builder, 
together on the front end, so that the contractor doesn't have 
to fit whatever it is the architect does. The architect sets 
the design in place, with no consideration for cost. They are 
more worried about their career than cost.
    Design build prototype, fast track, these are practices in 
the private sector in construction and design build technology 
in this country that must be integrated into the Federal 
programs. I just wonder if you make recommendations or you saw 
any opportunities? Is the Park Service considering a design 
build approach so that before any dollars are expended, you 
come together with the overall life cycle program of what it is 
going to cost to build a facility and how long it is going to 
last?
    Mr. Hill. I don't have a good answer to that question. I 
think you are raising some very good questions that perhaps 
need to be raised again later on this morning with the Park 
Service.
    I do want to make two comments. One, I agree with you, 
there are a lot of good people working in the Park Service. 
That is not the problem. We have good people, hard-working 
employees out there, who really care about the parks, who 
really care about--protecting the resource and making sure that 
the visitors who are using the park have an enjoyable 
experience. That is not the problem.
    Secondly, the Park Service definitely has some needs out 
there. The park maintenance issue is a serious problem. One can 
question the size of the backlog, the nature of the backlog, 
the makeup of the backlog. There is a backlog. There is a need 
for continued maintenance and operation funds to go into the 
park system to support that system as a whole.

                      accountability and oversight

    I think what we are talking about here is a matter of 
prioritization, a matter of oversight from the headquarters 
level, a matter of accountability from the Park Service level.
    Headquarters has to make sure that the Park Service, as a 
whole, the system as a whole, is receiving the right support, 
the right attention and is best utilizing the funds that are 
available to meet as many of the Park Service needs as is 
possible. And they need to be more involved in that process of 
once those funds go down to the park, what are the plans for 
using those funds? If we are going to build an outhouse, what 
kind of an outhouse are we going to build; how many do we need; 
what can we afford to build; where are we going to place that 
outhouse? They need to be more involved in that, and they need 
to be holding the park superintendents more accountable for 
their actions.
    When the money is given to the park with the expectation 
that we are going to be providing housing units for the 
employees in the Grand Canyon, then there should be really good 
reasons to deviate from those original plans. You can't be 
allowed--have the park superintendents using their own 
discretion to make those kinds of changes without having some 
type of accountability for those decisions.
    Ms. Lewis. I think that Mr. Hill has hit the nail on the 
head with respect to issues regarding accountability and 
oversight.
    With respect to the question of the moratorium, I think 
that the work of the government has to go on. I also think the 
key is--and I am hoping that this is a wake-up call to the Park 
Service--better accountability and greater oversight. I also 
think with congressional oversight of this nature, the Park 
Service hopefully will go in the right direction. The Park 
Service has indicated on paper, certainly, that it has plans in 
process, and that it is evaluating various options that, if it 
follows through and does it diligently and pursues it well, 
will help ensure that it is heading in the right direction. The 
question is whether or not that will happen. I think that with 
this degree of oversight, this is a distinct possibility.
    Mr. Regula. What you both have summarized very well is the 
objective of this hearing.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.

                             housing issues

    Welcome to both of you. I have been interested to hear the 
testimony today. In preparation for this hearing, I had a 
chance to go back and look at some of the questions that came 
up in February when Secretary Babbitt was here and in April 
when we had testimony from Mr. Galvin on just this subject: 
Park housing costs and construction costs of employee housing. 
It was raised and discussed extensively at that time by me and, 
I believe, others.
    I am struck by your testimony, Mr. Hill, that you issued 
reports in 1993 and 1994 essentially stating exactly, with some 
variations, what is being stated here today, and the same 
conclusions.
    We have heard about accountability, responsibility, who is 
in charge and justification. It is my humble opinion that the 
Secretary of the Interior has been there since the beginning of 
this administration, and he has really exercised no 
responsibility or authority over this problem that has been out 
there for years. And so we are finding ourselves, today, with 
nothing really changed from 1993 when Secretary Babbitt really 
assumed major responsibility in the broadest sense for this 
kind of a problem.
    I have some concerns, obviously, about those in the 
National Park Service leadership. However, I think it gets 
right back to the Secretary of Interior really performing very 
disappointingly in terms of handling the taxpayers' money and 
making sure, with knowledge aforethought, that this problem 
exists and not doing a darn thing about it.
    Having said that, I am wondering whether the park 
maintenance problem and this lack of housing has had a negative 
impact on employee morale. Have you seen that in your 
examinations, either of you?
    Mr. Fowler. Yes, to be sure. Based on work we have done 
over the years, we have spent a lot of time in the parks. There 
is a lot of very poor quality housing in parks. That needs to 
be addressed.
    I think what our work has shown is, however, with that as a 
given, it is a matter of degree. We question the size of the 
housing inventory maintained by the Park Service. We don't know 
that they need everything that they say they need.
    Mr. Nethercutt. Let me ask you quickly, without 
interrupting the other two, there was supposed to have been 
done a park-by-park review, was there not, on housing problems?
    Mr. Fowler. We have recommended that, and the Congress has 
passed a law last October----
    Mr. Nethercutt. So----
    Mr. Fowler [continuing]. Requiring that.
    Mr. Nethercutt. So since 1986--so since 1996. I am sorry.
    Mr. Fowler. 1996.
    Mr. Nethercutt. Has it previously been recommended that 
there be a park-by-park review to assess the need?
    Mr. Fowler. There has been.
    Mr. Nethercutt. Have you seen any changes moving toward 
completion of that review, other than the assessment of 50 
parks, if I understand correctly?
    Mr. Fowler. They have done some parks, and they are going 
to be issuing a contract shortly, maybe they have just done so, 
to get that done. But that is going to play out through 2002.
    Mr. Nethercutt. Right. So 9 years after the recommendation, 
we are going to finally know what the needs are. In the 
meantime, we are spending--I assume enhancing the negative, the 
deficit, in terms of park maintenance, and we are spending more 
money on it, at least as this committee goes through the 
process.
    Mr. Fowler. It has been a long time.
    Mr. Nethercutt. Do either of you have another response?
    Ms. Lewis. No. I think that the GAO has done more work in 
that particular area, so I don't have anything to add.
    Mr. Nethercutt. All right. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Dicks, and then following him, Mr. Kolbe.
    Mr. Dicks. Well, thank you, Mr. Chairman. I want to commend 
you for persistence in staying with this. I would point out to 
my colleagues that this effort started back in 1989----
    Mr. Regula. That is right.
    Mr. Dicks [continuing]. When there was a different 
administration. I think this is clearly a bipartisan problem.
    Mr. Regula. If the gentleman would yield.
    Mr. Dicks. Yes.
    Mr. Regula. I mentioned that in the opening statement.
    Mr. Dicks. I appreciate that, but there was some blame 
being placed on one Secretary of the Interior. I think we have 
had several since 1989 in both parties, and I don't think that 
is the problem. I think the problem is with the Park Service. 
And it just seems like it is an unwillingness to come to grips 
with this problem.

                  private sector housing partnerships

    I am on military construction, and we have something there 
called public/private partnerships that I think might be a 
potential answer here, where you get the private sector to 
develop the housing and then you provide them rent. Has that 
been looked at? Did you have a chance to look at any of those 
other options?
    By just going out and questioning the judgment of the 
people who made those decisions to build single-family 
projects, you are never going to get the problem solved. I 
mean, have we looked at other ways to do multi-family housing 
so that we are taking care of the people who truly need the 
housing, such as the seasonal workers and the people probably 
at the lower end of the scale? The military is very good at 
trying to take care of those people. Apparently, here it looks 
as if we are trying to take care of the top people and not get 
the job done for the people who are the seasonal or temporary 
workers.
    Ms. Lewis. In its response to our final report, the Park 
Service indicated that one of the things that it is evaluating 
is something of that nature--that is, partnerships with the 
private sector. I assume that in the context of doing so, the 
Park Service will evaluate the various options that might be 
available through those types of partnerships with the private 
sector. The Park Service has also indicated that it is looking 
at using privately built homes to address some of the housing 
needs.
    So, I think that----
    Mr. Dicks. Right.
    Ms. Lewis [continuing]. The options you are talking about 
are what the Park Service has indicated it will be looking 
into.

                             housing policy

    Mr. Dicks. But you have also raised the issue that there 
may be a question here about the overall policy of who should 
get housing and who shouldn't. In other words, the BLM and the 
Forest Service do not have nearly as much housing. They rely 
more on the private sector. And the Park Service apparently has 
a policy where it provides more housing.
    Mr. Hill. Right.
    Mr. Dicks. Part of your report said that this Park Service 
policy may not be justified. Is that correct?
    Mr. Fowler. Yes, that is a correct assessment. The Park 
Service views, if I could summarize what they have told us in 
the past, have been that because they are more intensively 
involved with visitor services at parks, they believe there is 
a need to provide more of their employees with in-park housing.
    Mr. Dicks. But that is a policy call?
    Mr. Fowler. Correct.
    Mr. Dicks. And the Forest Service provides more 
recreational opportunities than the Park Service does?
    Mr. Hill. Yes.
    Mr. Dicks. So, why would you have a different policy for 
the Forest Service than you would for the Park Service? The BLM 
and the Park Service are both within the Department of 
Interior, and yet they also apparently have very dramatically 
different policies in terms of providing housing to workers.
    Mr. Hill. I think there are two parts to the policy that 
need to be considered. One is that the policy currently in 
place was developed at a time when a lot of these parks were in 
remote, isolated locations. There was the need to house people 
who worked in these parks. They had no other way of getting to 
and from the parks.
    I think, in many instances, that circumstance has changed 
over time. There has been more growth, more development, more 
roads, more access to these parks. Perhaps there needs to be a 
reexamination of that basic policy in light of today's current 
conditions.
    But the other point I want to make is the Park Service is 
somewhat different from the Forest Service and BLM in that they 
are--the Park Service is really keyed toward allowing visitors 
to enjoy the resources that are there. I think in a park you 
will find that there are more facilities, souvenir shops, and 
restaurants. There are lodges that put people up, to a greater 
degree than you would find in the national forests or even the 
BLM lands. I am not saying that it is----
    Mr. Dicks. But isn't a lot of that done by contractors? 
Isn't that done by concessionaires?
    Mr. Hill. A lot of that is done by contractors, but it 
raises the problem of when you have that volume of people 
coming in and spending nights, weekends, weeks at the park, you 
do need some employees there to support the visitors in terms 
of law enforcement rangers, medical people, people you need to 
have on site to deal with problems that the visitors have--to 
make sure the resources are protected, the visitors are 
protected and everyone is safe.
    Mr. Dicks. Do you get a sense of urgency on the part of the 
Park Service about wanting to solve this? What bothered me in 
your testimony was the unevenness of certain parks doing a good 
housing analysis, largely when they use contractors. There is 
an unevenness here, isn't there, in terms of the analysis that 
goes into a housing plan?
    Mr. Hill. Yes, I think that is what concerns us the most, 
the fact that there are widely different practices that are out 
there, and some parks seem to be doing a better job than other 
parks. And that is where I think you need a little more 
oversight on the part of the Congress.
    Mr. Dicks. 2002, there was a number quoted there.
    Mr. Hill. Right.
    Mr. Dicks. They are saying they can't get the analysis done 
until 2002?
    Mr. Hill. Well, it is interesting. We recommended that that 
analysis be done in our 1993 report, and at that time they 
promised they were going to do it, and they were going to have 
the results of those available in 1997, and now we are in 1997, 
and they are talking about contracting out for that. And now 
they are saying 2002.
    Mr. Dicks. That doesn't sound to me like somebody who is 
seriously concerned about trying to resolve the problem.
    Thank you.
    Mr. Regula. Mr. Kolbe.
    Mr. Kolbe. Thank you, Mr. Chairman. Thank you very much for 
holding this hearing. I think it is much needed. I want to say, 
as others have said before me, that I think that the vast 
majority, the overwhelming number, of people that work in the 
Park Service are good people who work hard and are very 
dedicated in what they do.
    I speak to that with some personal bias, I guess, since my 
sister and brother-in-law both are in the Park Service here in 
the Washington area. And I know that it can be disheartening 
when this kind of thing happens. I know therecan be significant 
morale problems. So, as Mr. Wamp suggested, it is really disheartening 
when you find an agency that is everybody's favorite agency that has 
really let you down this way and really not done as well as it should 
have in using the dollars that the public gives it very willingly, and 
it hasn't used the funds in the way that I think it should.

                          cost considerations

    Let me begin. Ms. Lewis, you made the statement that what 
you saw was an attitude that money simply was not a concern, 
was not really that much of a consideration when it came to 
making these decisions about construction projects. Did you 
find this attitude at the level of the park superintendent, at 
the regional level, at the central level or all three?
    Ms. Lewis. I am going to call on Steve Moberly who is here 
with me today. He was the senior auditor on the employee 
housing audit and had a lot of interaction with individuals 
from the Park Service. I think he would be able to answer your 
question.
    Mr. Regula. Your name for the reporter, please.
    Mr. Moberly. My name is Steven Moberly. I work for the 
Department of the Interior, Inspector General's office. In 
answering your question, I found that during our review at the 
two parks we visited and at the Denver Service Center, that 
cost was the factor given the least consideration.
    Mr. Kolbe. Both at the park and the regional levels?
    Mr. Moberly. Right, at the park and regional levels and at 
the Denver Service Center.
    Mr. Kolbe. Okay.
    Mr. Moberly. The Denver Service Center awarded contracts to 
design the houses. Based on Park Service requests, the 
contracted architectural and engineering firm changed the plans 
numerous times. And each time those changes were effected, the 
costs increased. For example, I saw evidence that $25,000 was 
expended to conduct a meeting to discuss minor construction 
changes at Grand Canyon. A lack of cost consciousness was key 
to this.
    Mr. Kolbe. Let me follow up on that if I might. You might 
be the one to answer these questions, so if you would stay 
right there. Fifteen months ago I was at the Grand Canyon and 
went and visited the housing that was under construction, I 
remember at the time thinking, ``Wow, that is pretty 
spectacular housing, but there is not an awful lot of it 
here.'' When you see the absolutely substandard housing that 
some of the employees are living in, trailers that you wouldn't 
put your dog into, it really is pathetic. And here we are 
building these spectacular houses.
    I remember at the time feeling uneasy about this. I think I 
was remiss. I chide myself for not raising more questions at 
the time and saying, ``Wait, are we doing the right thing 
here?'' Because these were really large, large single-family 
houses that they were building there.

                            cost comparisons

    Taking the numbers that you have there, it works out on the 
1,258-square-foot house to be $268 a square foot. How does this 
compare--leave out BLM, because I am not sure you can make a 
good comparison, but you have enough in the Forest Service you 
can make some kind of comparison. How does this compare with 
what you found to be the per-square-foot cost of building at 
the Forest Service level?
    Mr. Moberly. We did not examine the cost of construction at 
the Forest Service.
    Mr. Kolbe. Well, I know you were examining it here at the 
Grand Canyon, but I thought maybe you might have made some kind 
of comparisons to see if there was any kind of relationship 
between them.
    Mr. Moberly. I believe we disclosed the costs of 
construction nationwide in our report.
    Mr. Kolbe. Nationwide in the Park Service?
    Mr. Moberly. No, nationwide in the private sector.
    Mr. Kolbe. In the private sector?
    Mr. Moberly. In the private sector, the cost of new 
construction excluding the cost of land, profit, marketing and 
capital costs, is less than $100 a square foot on the average.
    Mr. Kolbe. Did the GAO do anything to make some kind of 
comparison? Because obviously there is something different 
about building out in Grand Canyon than there is in building in 
Flagstaff, where you have contractors right on the spot there. 
There is obviously some difference in cost.
    Mr. Fowler. We did not do it on a square-footage basis 
across the agencies. As some indication of what you are getting 
at, what we did do was a comparison for the three--National 
Park Service, Forest Service and BLM--on the amount of repair/
rehab costs that would be required to get the houses up to what 
the agencies consider to be in a good condition.
    Mr. Kolbe. Right.
    Mr. Fowler. For the Park Service, it was $116,000 per unit 
versus $36,000 for the Forest Service.
    Mr. Kolbe. Okay. That is what I was looking for. That is 
not new construction? That is rehab?
    Mr. Fowler. Yes.
    Mr. Kolbe. Did you get any indication of the reason for 
that difference?
    Mr. Fowler. The Park Service had a hard time explaining 
that reason.
    Mr. Kolbe. That is quite a difference.
    Mr. Fowler. Yes. The best answer they provided us with was 
what they thought would be the reasons. The primary one was the 
housing mix that the Park Service had. They had a higher 
percentage of single-family units and apartment buildings, 
multiplex units, more so than the other agencies. And because 
of that----
    Mr. Kolbe. So their units were larger?
    Mr. Fowler. Yes.
    Mr. Kolbe. Versus the Forest Service, which might be 
rehabbing smaller units?
    Mr. Fowler. Cabins, dormitories.
    Mr. Kolbe. Cabins, dormitories?
    Mr. Fowler. Yes.
    Mr. Kolbe. I am still not entirely satisfied. I know my 
time is just about up. Let me quickly ask you a couple more 
questions.
    Both of you in your reports indicate that at a meeting of 
the architectural and engineering firm with Yosemite Park 
officials, the comment was made by the firm that if some of the 
top-of-the-line items that the Park Service insisted on--doors, 
windows, et cetera--could be lowered a notch in quality, then 
the units' costs would go down significantly. At that meeting, 
is thereanything in the notes that suggests that the Park 
Service followed up with ``Yes, but'', or ``Gee, maybe we will take 
that into consideration''?
    Mr. Fowler. I am not aware of that.
    Mr. Kolbe. And the last question----
    Mr. Dicks. I think there still may be an answer there.
    Ms. Lewis. The answer is no. We didn't find anything.
    Mr. Kolbe. You didn't find anything either?
    Ms. Lewis. We didn't find anything.

                          park service changes

    Mr. Kolbe. And I guess the last question to Ms. Lewis here, 
where you said in your statement that you were encouraged that 
the Park Service seems to be really taking steps. Yet in your 
report you say, that the initial response of the Park Service 
was an attempt to justify the high costs it incurred for 
housing construction at Grand Canyon and Yosemite National 
Parks, rather than a specific description of the actions it 
would take. So you asked them to go back and redo that?
    Ms. Lewis. Yes.
    Mr. Kolbe. And I guess you are much more encouraged by the 
redo. Is there any evidence that they are really following 
through--that they haven't just done a report, that they are 
really following through with the changes that they said they 
would make?
    Ms. Lewis. Well, we don't know that at this point, and we 
won't know that----
    Mr. Kolbe. It is too early?
    Ms. Lewis. We won't know until we go back in and take a 
look at that.
    Mr. Kolbe. When would that be?
    Ms. Lewis. We don't have a follow-up audit scheduled, 
although in our fiscal year 1998 audit plan we do have an audit 
that will be looking at employee housing again and looking at 
some of the decisions. As we conduct that audit we should be 
able to take a look and see what, if anything, is being done in 
terms of progress.
    The other thing I will say is not only did the Park Service 
tell us about its plans to address the housing construction 
problems but in its budget justification to Congress, it 
indicated that some of the very same actions that it is telling 
us it is going to do, it has indicated to Congress that it is 
going to do as well.
    Mr. Kolbe. Thank you, Mr. Chairman.
    Ms. Lewis. So, that is why I am saying that I am 
encouraged. There was one other point that I wanted to make if 
I could.
    Mr. Kolbe. Sure.
    Ms. Lewis. You spoke about constructing homes in Grand 
Canyon being very different from constructing homes downtown in 
an urban area. I just wanted to point out that one of the 
things that we did in looking at the costs of construction, and 
it is detailed in the audit report, is that we looked at what 
we called ``specialized Federal expenses,'' which were the 
expenses that would be added to construction because you are 
dealing with a Federal agency that has to comply with certain 
laws, and you are dealing with the Park Service that is 
constructing in remote areas with difficult terrain. We 
incorporated that analysis into our audit work, and it is 
detailed in the audit report. We still came out with the 
conclusion that the Park Service's costs were significantly 
higher than the comparisons in the private sector.
    Mr. Kolbe. Thank you, Mr. Chairman. I would think that one 
of the things this committee might want to do is insist that we 
have a follow-up from both GAO and the Inspector General to 
this, to the audit, so we can look at that in our next budget 
cycle.
    Mr. Regula. I think that is an excellent idea.
    Mr. Kolbe. Thank you, Mr. Chairman.
    Mr. Regula. Let me advise the committee Members, we have 
checked, and there probably won't be any votes until about 1:00 
or certainly close to 1:00. What I would like to do is finish 
the hearing, if at all possible, close to 1:00 or a little bit 
before, and if you can indulge your time to do that, I think it 
would work out well. I am reluctant to recess because we all 
have time constraints. So that is what we plan to do.
    Mr. Skeen.
    Mr. Skeen. Thank you, Mr. Chairman. And thank you folks for 
being here today.

                          question of legality

    During all this investigation that you have done, did it 
ever occur to you that there was ever anything illegal being 
done in connection with this building and things of this kind? 
It just seems to me that there are outlandish costs involved 
compared to other coexistent costs for other agencies. It is 
just unbelievable that we would have this much invested in 
outhouses and housing that is three and four and five times 
what it would cost in the private sector or at any other 
agency.
    Mr. Hill. We saw no evidence of that, no.
    Ms. Lewis. During the course of our audit, nothing came to 
our attention of that nature either.
    Mr. Skeen. If it did arise that you had a legal question, 
would you have reported that in your report?
    Ms. Lewis. If there was an issue that came up regarding the 
propriety of actions of a criminal or civil nature, we would 
have referred that issue to our investigations unit for further 
follow-up. That issue would have gone from our audit side, 
which is not intended to focus on those types of issues, to our 
investigations unit.
    Mr. Skeen. But if it arose, if that particular subject 
arose in your investigations, though, you would let them know?
    Ms. Lewis. I am sorry, we would let whom know?
    Mr. Skeen. You would let whomever you are responsible to 
Know?
    Ms. Lewis. If that arose during the course of the audit----
    Mr. Skeen. Yes.
    Ms. Lewis [continuing]. That matter would have been 
referred to our investigations unit for further review.
    Mr. Dicks. Will the gentleman yield just briefly?
    Mr. Skeen. Yes.
    Mr. Dicks. Is that within the Inspector General's Office?
    Ms. Lewis. Yes, it is. We have an investigations unit and 
an audit unit. It would have been referred to the other side of 
our office for investigative review to determine whether or not 
there was some impropriety, whether of a criminal nature or to 
be followed up on a civil matter.
    Mr. Skeen. All of these expenditures were handled through 
the Denver office, is that correct, in this case?
    Ms. Lewis. The Denver office is responsible for the 
planning and design and supervision of the construction 
aspects.
    Mr. Skeen. Do they okay the contracts as well, or who does 
that?
    Mr. Moberly. They only okay the design and planning 
contracts.
    Mr. Skeen. Who okays the contracts?
    Mr. Moberly. The contracts are awarded either out of the 
Denver Service Center or out of the----
    Mr. Skeen. That is what I am asking. Somebody is 
responsible?
    Mr. Moberly. The Denver Service Center is where the 
contracts were awarded in these two instances.
    Mr. Skeen. Well, I think somebody ought to take a good look 
at what is going on in Denver. There is something deadly wrong 
about this whole situation, and I think it borders on scandal.
    I appreciate the work that you folks do because I know that 
is a tough call, and I think you have done a good job, but this 
thing just boggles your mind. This has been going on for a long 
time.
    The Park Service is a very revered group of people in our 
State and all the other States. The employee housing has been 
substandard in most of the parks throughout the nation. I know 
it has been a tough job to come back and take care of that 
housing problem. The kind of cost figures we are seeing around 
here now just don't make any sense at all.
    Thank you. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Mr. Taylor.
    Mr. Taylor. I noticed in the review you state that today 
the agency estimates its housing backlog to be about $300 
million. That is about, what, 3 houses or 30 or something like 
that? [Laughter]

                            projecting costs

    The question, I guess, is, do the agencies project their 
needs and costs? Do you say to the agency, ``How many houses 
are you going to have,'' and see if we are going to be in a 
$200- or $300-per-square-footage range? And the reason I say 
that is I chair the D.C. Appropriations subcommittee, and this 
is something we would be doing in D.C.; only we would probably 
charge about $500 because we have a lot more to take care of.
    I have worked in construction, and these things don't 
happen because of the tooth fairy. I know we tried to absolve 
the Secretary, who has been on his watch for 5 years. But at 
some point in time you know it is happening. For instance, you 
have got the design, which starts to project the problem; the 
contract bid would project the problem; the construction 
itself. Do we wait until this is fully finished and then 
occupied and say, ``We have got a $300,000 toilet''?
    Don't we have these sort of checks along the way to say, 
``Whoa, I don't want a $300,000 toilet''? And can we do 
something about projecting the total--that $300 million cost; 
in other words, what is that going to provide us? Do we ever 
ask the Service that?
    Mr. Hill. I think the difficulty that we have with any of 
the estimates that they have been providing is that I don't 
think they are good estimates. I don't think they really have a 
good feel for just what their needs are. And since 1993 we have 
continually been going over the same point. What they really 
need to do is they need to look at their current housing 
situation and decide just how many houses do they need; what 
are the conditions of their current houses; and what are the 
availability of housing outside the park in communities and 
then make an assessment. In looking at the condition of their 
housing, they will be in a position to know dollarwise what 
their needs are, and, based on the money that is available, 
where the highest priorities are.
    Mr. Taylor. Well, when you say it is not an appropriate 
estimate, do you mean that they underbid or they 
underestimated? In other words, we say it is going to cost $100 
a square foot, and yet when it is completed, then it is going 
to be $300 or $250 or whatever?
    Mr. Hill. I don't think they are at that phase. I think 
what we are referring to is the fact that they really need to, 
on a park-by-park basis, look at their housing situation to see 
what they have, what the condition is.
    Mr. Taylor. Certainly. But do you have evidence of this 
problem always stems from cost overruns, or is it starting out 
at $250 a square foot?
    Mr. Hill. I don't have any evidence of that.
    Ms. Lewis. I don't know that I can answer that question 
directly, but I think you raise an important point, and I will 
give an example of what we experienced. It suggests to me that 
there is a need for that kind of planning to be able to assess 
what the costs are going to be and whether it is, in fact, a 
cost-effective means of addressing the problem.
    One of the issues that we ran into when we did our audit 
was that initially we came back and said, ``Here are the costs 
of the single-family homes that are being constructed.'' And 
when we presented the preliminary draft report to the Park 
Service, one of the things that the Park Service told us was 
that there were ``specialized Federal expenses'' that were 
incurred by the Park Service because it is a Federal agency, 
and it has to abide by the Americans With Disabilities Act, the 
Endangered Species Act, and other various laws and regulations.
    Mr. Taylor. As far as I know, all Americans have to abide 
by that the same way. We don't build anything otherwise.
    Ms. Lewis. The Park Service also said that there were 
specialized expenses because it built in remote areas, rough 
terrain, and so forth, and some of those expenses might not be 
experienced in the private sector. We asked the Park Service 
for a breakdown of what those costs were, and the Park Service 
told us those figures were not available.

               cost comparability with the private sector

    We then did an assessment of what we thought the costs 
would be by talking to realtors and developers and people in 
the private sector and other Federal agencies and developed 
some numbers. After we came up with our numbers, the Park 
Service came back with its own numbers, some of which were 
consistent with ours, others of which were not.
    The point that I am making is that initially the Park 
Service said the numbers were unavailable. Then it gave us 
numbers without any underlying support todetermine how it got 
those numbers. So it wasn't clear to us that the Park Service had done 
that kind of costing or cost projection to be able to say that, ``Yes, 
this is what we are incurring for these homes, and, in fact, these are 
additional costs that we are incurring because we are the Park 
Service.''
    Mr. Taylor. Mr. Chairman, I will close by saying a possible 
solution, and perhaps we can look into it, might be that we 
take away from the Denver Service Center that enormous cost 
judgment and let our parks develop private sector estimates, 
because you know most of the parks, and there are not a lot of 
parks that are that isolated. I mean, we have some, certainly, 
but in the Smokies we can get the same costs as the private 
sector because we have got people all around, so there is not 
that much of a difference. Thank you.
    Mr. Regula. Mr. Skaggs.
    Mr. Skaggs. Thanks, Mr. Chairman. Let me first say thanks 
to you for holding this hearing. I think we need to be spending 
more time generally on oversight in the Appropriations 
Committee than we typically have time for. So I appreciate this 
somewhat precedent-setting event.
    A little bit more on what Mr. Taylor was pursuing. I, too, 
have been trying to get a handle on whether we have any 
comparability between the numbers that are being tossed around 
about both Grand Canyon and Yosemite and all of our everyday 
experience with the cost of housing. Do you have any factor 
that you can suggest to us by which to discount these numbers 
of $400,000 roughly at Grand Canyon and almost $600,000 at 
Yosemite, to take account of the unique circumstances that 
pertain in these instances and get those numbers to an apples-
to-apples level with other housing in the area, either of our 
witnesses?
    Ms. Lewis. That is precisely what we attempted to do in the 
audit report. That is to say that we did not simply take the 
housing costs in the private sector without taking into account 
the particular circumstances of the Park Service and what it 
would encounter in building in those particular areas.
    In fact, when we presented our preliminary draft report, as 
I indicated previously, the Park Service suggested to us that 
there were these nine categories of ``specialized Federal 
expenses.''
    Mr. Skaggs. I don't have much time, so let me interrupt, 
and I apologize.
    Ms. Lewis. Yes.
    Mr. Skaggs. Are you telling me that the number that we had, 
whatever it was, $380,000--$390,000 at Grand Canyon, already 
incorporates some adjustment; that it was really higher than 
that? Or is that, in fact, the unit cost?
    Ms. Lewis. That is the unit cost.
    Mr. Skaggs. Okay.
    Ms. Lewis. The average unit cost.
    Mr. Skaggs. All right.
    Ms. Lewis. Okay.
    Mr. Skaggs. How does that compare again with available off-
site housing in that area?
    Ms. Lewis. The $390,000 is the average unit cost. We found 
that the private housing construction in that area ranged from 
$115,000 to $232,000, which was at least $158,000 less than the 
average cost. Now, if one were----
    Mr. Skaggs. Just hold on.
    Ms. Lewis. Yes.
    Mr. Skaggs. But those numbers are not to meet the same 
standards and requirements as the construction in the park.
    Ms. Lewis. We----
    Mr. Skaggs. How would you inflate those numbers to give us 
a comparable number to the $390,000 number?
    Ms. Lewis. The range of numbers represents the costs to 
build good to excellent quality homes in the private sector. 
Now, if you are talking about----
    Mr. Skaggs. But how do you adjust those numbers to take 
account of the peculiar circumstances that exist for in-park 
construction?
    Ms. Lewis. When we did our analysis of specialized expenses 
for Grand Canyon, we concluded that one should add $15,444 to 
account for those specialized expenses.
    Mr. Skaggs. Okay.
    Ms. Lewis. So if you were to take the $390,000 average that 
you have, and you subtracted the----
    Mr. Skaggs. I understand now. Again, I don't have much 
time. So add $15,000 to the range that you gave to us for the 
private sector, and that would be the legitimate comparison?
    Ms. Lewis. That is correct.
    Mr. Skaggs. Okay. Thank you.

                             accountability

    I tried to pay attention, and I still don't understand who 
we can hold accountable for this problem. Can GAO give us at 
least the official, if not a name, or the officials that make 
these calls?
    Mr. Hill. I think there has to be accountability at various 
levels within the Department of Interior and the National Park 
Service. There is no doubt that each of the 370 national parks 
are a unique unit, and they are set up to do construction based 
on the----
    Mr. Skaggs. Okay. Again, I don't have much time.
    Mr. Hill. Okay.
    Mr. Skaggs. Are there three or four people that you would 
hold responsible for these problem?
    Mr. Hill. I think accountability flows from the top down. I 
think you have to start at the top with the Secretary and the 
Director of the National Park Service, and that responsibility 
has to be delegated out to the regional level and right down to 
the park level to hold them accountable.
    And I would like to give you a quick analogy of this. I 
have three sons, and my oldest is 17. If I told my 17-year-old 
son to go out and buy a sneaker, he would go out and buy 
probably a $150 pair of sneakers, and he would convince me he 
needs that sneaker to run faster and jump higher. When I tell 
him to go out and buy a sneaker, I have limits in terms of what 
he is allowed to spend. Now, granted he is a teenager, and he 
will probably bust the budget a little bit, but at least he has 
got to be accountable for what he is going to come into the 
house with.
    I think that is what we are talking about here. Each of 
these structures, each of these houses that are being built, 
maybe they are in a unique park, and they need to consider 
unique circumstances, but do you need a $350,000 outhouse?
    Mr. Skaggs. Of course not.
    Again, would you apportion responsibility in some fashion 
for us? Since the Denver Service Center seems to be the common 
denominator running through all of this--you know, we do this, 
we ask juries to do this in trials all the time; arethey 50 
percent responsible for the problem, or maybe 10 percent?
    Mr. Hill. I couldn't put a percentage on it. I think you 
need to look at the organization as a whole and say that the 
entire National Park Service and the Department of Interior 
have responsibility and accountability for this problem.
    Mr. Skaggs. I appreciate that this is difficult, but if we 
don't come away from this experience with a sense that someone 
or ones are in control and are going to be held responsible for 
making decisions, then we have wasted your time and ours. I 
mean, I ran into this a few years ago with an enormous problem 
in construction at the Department of Energy, and it was a 
constant exercise of whoever was in the witness chair pointing 
to the people that had preceded or followed them, but it didn't 
happen--you know, I wasn't responsible.
    Is anybody taking responsibility for this?
    Mr. Hill. Let me just say, I think there is a wonderful 
tool in process right now that really could increase 
accountability, and that is the Results Act, the Government 
Performance and Results Act.
    The Department, like all the other departments, is required 
to come up with their--with a performance plan. They are 
supposed to lay out their missions and have performance 
indicators and----
    Mr. Skaggs. Terrific. Is anybody responsible for what 
happened that we are talking about this morning?
    Mr. Hill. I can't point the finger at any one person. I 
would have to say it is the Park Service.
    Mr. Skaggs. It is the system?
    Mr. Hill. It is the Park Service.
    Mr. Skaggs. It is the system?
    Well, I suspect I am out of time. Mr. Wamp, I think, 
started out making a similar observation to my feeling about 
this. You know, especially for just about everybody around this 
table who has gone to bat for the Park Service, it is such a 
disheartening breach of trust that is involved in all of this, 
and you hate to see that happen to an organization that we have 
all sort of viewed as, if you will, the Boy Scouts of the 
Federal Government, from the uniform on. And it does such a 
disservice to the vast majority of Park Service employees who 
are trying to give the taxpayer value for the dollar to see 
something like this happen. It just is so undermining of the 
basic relationship between us and this part of government, and 
the reason I wanted to be so insistent in trying to identify 
where to place the responsibility is that I don't want a broad 
brush, ``it is the system'' verdict. That seems to me to do a 
great disservice to a lot of people that are then caught up in 
that broad brushstroke.
    Thank you, Mr. Chairman.
    Mr. Regula. I might say, Mr. Skaggs, I think as a result of 
this hearing that we will have some idea that we, the 
subcommittee Members, can assess the weakness in the structure, 
let's put it that way. But your point is well taken.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Let me say--it sounds like we have a process problem here. 
We agree the need for construction is there, so it is not a 
question of need. It is the process. And Mr. Skaggs was trying 
to determine where to put the blame. Is it the fault of the 
Department of Interior, the Park Service or is it maybe just 
poor Federal Government Policy? That being said, let me ask you 
two questions.

                      davis-bacon compliance costs

    The first regards the Davis-Bacon Act. I know here in 
Washington, D.C., Mr. Taylor is trying to make provisions for 
his schools. The application of Davis-Bacon in a big city where 
you have large contractors is one thing, but how does it affect 
things in northern Arizona? Housing construction is not as 
sophisticated as building the Reagan Building downtown, but I 
wonder if Davis-Bacon compliance adds significantly more to the 
cost in a Park Service situation.
    And my other question is--and I come from the private 
sector, so I am familiar with this--is the planning and design 
phase. Is the basic system of the Federal Government such that 
there is no motivation to hold down costs? In the private 
sector, you either use design-build or you use value 
engineering, which means you design it and then at some stage 
you wait for the contractors to come back and tell you if you 
change this type of hardware or that type of door, you will 
save money.
    Is it an overall Federal policy that we are just not well 
prepared unless we change it at an entire level like Davis-
Bacon, or is it planning and design that could be changed 
within the Park Service or the Interior Department to really 
help bring this problem under control?
    Ms. Lewis. On the Davis-Bacon issue, that is, again, one of 
the ``specialized Federal expenses'' that we took into account. 
For the record, I am looking at pages 13 and 14 of our audit 
report. In the Grand Canyon, we didn't add any extra costs for 
Davis-Bacon compliance because the local wage rates there 
generally exceeded the Davis-Bacon wages.
    In Yosemite, however, we added a significant amount to 
compensate for the Davis-Bacon wages that would have to be paid 
in the Federal sector. Indeed, we increased the wages to 200 
percent based on the Park Service's statement that Davis-Bacon 
wage rates were twice the local rates. We included that in our 
analysis.
    Mr. Miller. The wage rates at Yosemite were 200 percent 
higher than the local wage rates because of Federal 
requirements, 200 percent?
    Ms. Lewis. I am saying that we took the Park Service's 
representation that that was the case. We did not evaluate that 
issue. The Park Service gave us that number, and in doing the 
comparisons, we took that number at face value and adjusted the 
labor cost to 200 percent of local wages to compensate for 
Davis-Bacon wages. That is included in our analysis as set 
forth on page 14 of the audit report.
    Mr. Miller. Does Davis-Bacon compliance also restrict the 
type of contractors involved? That is, are there local 
contractors who don't want to get involved because of all the 
rules and regulations? Is that a problem?
    Mr. Moberly. No, it is not.
    Mr. Miller. It is not. 200 percent, I am still----
    Mr. Moberly. Well, what we did was we took the Park 
Service's contention that we had to use a 200 percent factor 
for all labor associated with the construction of the houses at 
Yosemite. We applied that 200 percent factor to the labor rate, 
which added $64,559 to the cost of each house. We did include 
that in our analysis and in our comparisons.
    Mr. Regula. If you would yield, you didn't have back-up on 
that, though?
    Mr. Moberly. No.
    Mr. Regula. That was just a figure?
    Mr. Moberly. What we did is we took the total labor burden 
that was associated with the houses and applied that rate.
    Mr. Miller. This is in your report?
    Mr. Moberly. Yes, it is.
    Mr. Miller. What about the planning and design? Is it a 
systemic problem that we can't use things like value 
engineering or design build? You know, the incentive is a cost-
plus type of system in that the more you spend, the more the 
engineers make, the more the designers make. Is that just 
natural with Federal Government work?
    Ms. Lewis. Well, actually, the value analysis concept is 
one of the concepts that the Park Service has indicated that it 
is going to start incorporating with respect to the design and 
planning aspects of the construction. So I believe it is the 
case that it can use that type of a process, a value analysis 
process, to look at the propriety of particular project 
assumptions and design criteria and at whether or not it is 
operating on a cost-effective basis. The Park Service has 
indicated that it is planning to use this approach with respect 
to the Denver Service Center projects.
    Mr. Miller. Last question. Who has been inside some of 
these houses that were just built?
    Mr. Moberly. I have.
    Mr. Miller. You would not describe them necessarily as 
mansions?
    Mr. Moberly. No.
    Mr. Miller. Concerning square footage, they are not out of 
line, are they? It is just that they are high in cost. It is 
not that they are overly elaborate; they are functional?
    Mr. Moberly. No. Our audit report, for the record, on pages 
7, 8, and 9, identified each unit and the size of the unit in 
terms of square footage. The units at the Grand Canyon ran from 
1,258 square feet to 1,764 square feet, and the units at 
Yosemite National Park ran from 1,267 square feet to 2,030 
square feet. We did not find in walking through those 
structures that they were elaborate or gold-plated.
    Mr. Miller. Very functional?
    Mr. Moberly. They were very functional. Yes.
    Mr. Miller. Thank you.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Moran.

                         denver service center

    Mr. Moran. Okay. Let me first ask for your analysis of the 
explanation for the difference in staffing at the Denver 
Service Center. This question is consistent with Mr. Skaggs' 
inquiry, I am sure, and other prior questions.
    You have got 507 people at the National Park Service, that 
is, at the Denver Service Center; 26 for BLM and 15 for the 
Fish and Wildlife Service. But there is no correlation, in 
terms of the number of units constructed. The Fish and Wildlife 
Service has 590 and the National Park Service has 374. The only 
thing where there is some correlation is the annual budget.
    Why do you have such an enormous gap of 507 versus 26 and 
15? Is there some obvious explanation there? Did you audit 
that?
    Mr. Fowler. I don't know, Mr. Moran. I am not familiar with 
those figures. What they suggest to me is probably the scope of 
the construction programs in terms of the number of buildings, 
but I am not sure of that.
    Mr. Moran. Okay. You have got the number of units for the 
National Park Service, 374; Fish and Wildlife Service has 590, 
Forest Service as 700. But yet in the Denver Service Center, 
the National Park Service has 507 staff people; the Fish and 
Wildlife Service has 15. I don't show any for the Forest 
Service.
    What are you doing with--what is the Park Service doing 
with 507 staff?
    Mr. Regula. I think, Mr. Moran, our next witnesses, and 
also the Park Service probably would be better equipped to 
answer your question.
    Mr. Moran. All right.
    Mr. Regula. I think it is a very legitimate question.
    Mr. Moran. All right. Then, okay. I will wait for the next 
group. That is fair enough.

               park service superintendent accountability

    The accountability issue is the obvious one: Who is 
responsible? It appears that the park superintendent is the 
last point at which you sign off with full knowledge of what 
you are signing for. Would that be a fair assumption?
    Mr. Fowler. Yes.
    Mr. Moran. When you build--for a housing construction 
program?
    Mr. Hill. That is correct.
    Mr. Moran. Okay. So that is probably the point of 
accountability, unless somebody up the ladder asked 
extraordinary questions that aren't normally asked? I mean, 
from your--given your overview, that seems to be the 
assumption? That is the last point at which a knowledgeable 
official is making a sign-off?
    Mr. Hill. The park superintendent is certainly signing off 
on any given action or activity. And I recognize that the Park 
Service is a highly decentralized organization, and I am not 
questioning that it should not be. But in any type of a 
decentralized setup, you still need strong oversight and 
accountability mechanisms to make sure that the intended 
actions are being carried out effectively and efficiently.
    So I think there is response--I am not trying to duck the 
question. I just think there is a responsibility and 
accountability from the top right down to the Park 
superintendent.
    Mr. Moran. Well, I understand that. But realistically, 
anybody above the park superintendent can proclaim ignorance. 
The superintendent is the last person at the highest level who 
would be ignorant of what he is actually signing off on. So 
maybe those are the folks we need to be concerned about--is 
that an unfair way to phrase it? So maybe those are the folks 
we need to be asking directly.
    Most of this is in the West, and I am kind of an easterner 
here; not kind of, I am obviously an easterner. So I don't want 
to get too much into this. It looks like my folks from the West 
and Midwest have it well in hand. So I will wait for further 
opportunities here, Mr. Chairman.
    Mr. Regula. Well, I want to thank all of you for being 
here. I think your testimony has been excellent. You are 
familiar, I am quite sure, with the language that we have 
included with the fiscal year 1998 bill in which we have 
instructed the Park Service to accomplish certain things, and 
we say that some of what they do is unacceptable.
    The reason I point to this is that we would anticipate 
calling you back during the hearing cycle for the fiscal year 
1999 budget to get an assessment of what is being done to 
follow the directives that we have in fiscal year 1998. It is 
not yet signed, but we anticipate that with a little goodwill, 
we may get a signed bill. Thank you again for your time.

[Pages 46 - 184--The official Committee record contains additional material here.]


                                       Wednesday, October 29, 1997.

             NATIONAL PARK SERVICE HOUSING AND CONSTRUCTION

                               WITNESSES

PAUL HENNE, ACTING ASSISTANT DIRECTOR FOR ADMINISTRATION, U.S. FISH AND 
    WILDLIFE SERVICE
LYLE LAVERTY, DIRECTOR OF RECREATION, HERITAGE AND WILDERNESS RESOURCES 
    MANAGEMENT, U.S. FOREST SERVICE
MAT MILLENBACH, DEPUTY DIRECTOR, BUREAU OF LAND MANAGEMENT

    Mr. Regula. We have Mr. Henne, Acting Assistant Director 
for Administration, U.S. Fish and Wildlife Service; Mr. 
Laverty, Director of Recreation, Heritage and Wilderness 
Resource Management for the U.S. Forest Service; and Mr. 
Millenbach, Deputy Director of the Bureau of Land Management.
    I might say to committee Members, I think we will try to 
skip questions. I would like each of these gentlemen to say how 
they do it, and then we will go to the Park Service, because I 
am trying to get this hearing completed in good time. We will 
start off with you, Mr. Henne.
    Mr. Henne. Yes, sir. Thank you.

            Opening Remarks--U.S. Fish and Wildlife Service

    Mr. Regula. Explain how you do it. You have heard all this 
testimony so far. What is the procedure for the Fish and 
Wildlife Service?
    Mr. Henne. Okay.
    Mr. Regula. Your statements will be made a part of the 
record.
    Mr. Henne. Thank you, sir. What I would like to do is first 
give you a little bit of background to give you an idea of what 
we are dealing with in the Fish and Wildlife Service.
    Currently, we manage in excess of 92 million acres. We have 
511 national wildlife refuges and 62 hatcheries. Our facility 
assets are valued at more than $5.4 billion. We have 77 visitor 
centers; 71 at our refuges and 6 at our hatcheries.
    In the employee housing area, we have 773 housing units of 
which 563 are single-family homes, and the balance are made up 
of apartments and mobile homes. Roughly 90 percent of our 
single-family homes were acquired incidental to the land 
acquisitions. The average age of our homes is 43 years, which 
leads to our backlog in maintenance of about $12.2 million.
    We have not built many homes in the last 10 years. We have 
only built 19 new ones. When building homes, we first consider 
modular-type construction.
    In our central engineering center we do, in fact, have 22 
FTEs in our Denver engineering center, but the 15 that has been 
referenced here are engineers/architects. We have 159 FTEs 
nationally. The balance of 137 are located in our regional 
offices, which average size is about 19 per region.
    As far as the construction aspects of our program, at our 
central engineering center we contract out 95 percent of the 
construction and environmental cleanup work to architectural 
and engineering firms. In our regional offices, roughly 25 
percent is contracted out.
    At our facilities, we have standardized different aspects, 
such as water control structures, storage buildings and 
maintenance shops. In our visitor facilities we standardize as 
much as possible the interior features. Exteriorwise, it is 
based on the lay of the land.
    As far as partnerships are concerned, we have sought them 
out with Federal agencies and State and local communities. For 
example, we constructed a visitors' center at Cape Romain 
National Wildlife Refuge in South Carolina, funded jointly with 
the Forest Service. A private citizens group has raised over a 
million dollars towards a $3,000,000 privately-funded visitor 
center in ``Ding'' Darling National Wildlife Refuge in Florida; 
and the National Fish and Wildlife Foundation has leveraged 
more than $2 million of private bequests to fund the J.R. Heinz 
National Wildlife Refuge in Pennsylvania. Those are just a 
couple of examples.
    The other things we have done is we currently have an 
interagency agreement with the Park Service, BLM, BIA and BOR, 
Forest Service, Indian Health Service to further partnerships 
in sharing information and construction activities.

                u.s. fish and wildlife service overhead

    Mr. Regula. Do you have any idea what your overhead costs 
are as a percent of construction?
    Mr. Henne. Roughly right now they are running somewhere 
around 30 percent. That includes A&E. That includes oversight. 
That includes contracting support.
    Mr. Regula. Thank you.
    Mr. Laverty.

                  Opening Remarks--U.S. Forest Service

    Mr. Laverty. Mr. Chairman, thank you for the opportunity to 
share with you some ideas about what the Forest Service does. 
Our program serves about 800 million visitors per year that 
come and use the national forests for a variety of experiences. 
Our construction program is broken down into basically two 
components: The recreation/construction program and then our 
administrative or facilities program.
    We currently have a process that perhaps is quite 
different, the fact that we do not have a centralized design 
center. We do the design through contracting out that design 
work for primarily our large recreational facilities; 
construction of visitor centers and design goes through 
contract. We have used extensively, as Mr. Miller and Mr. Wamp 
have talked about, build and design, and that has served us 
very well. We find that it allows us to leverage the skills 
that we have internally within agency in terms of using our own 
professional design folks as well as leveraging that along with 
the private sector.
    We have got a significant backlog, as you have heard, both 
in our recreational facilities and our other administrative 
facilities, which would include the housing. Recreational 
facilities backlog is in excess of about $800 million, and our 
administrative facilities backlog is probably in excess of $500 
million, almost $600 million. The housing backlog costs in that 
area would be in the neighborhood of about $150 million. We 
estimate that it would probably take us about $17 million just 
to bring up the existing housing facilities to meet current 
standards.
    The majority of our housing is for seasonal employees. In 
this last year, in fact, in August, we had about 3,000 of our 
seasonal employees out of about 18,000 who were housed in 
quarters provided by the agency.
    On the other side, of about 30,000 permanent employees, we 
only had about 1,600 or 1,700 employees housed in agency-
provided facilities; again, about 4,300 different facilities 
that range anywhere from bunkhouses to single-family units. 
Those are primarily in remote locations. Most of our employees 
do, in fact, live in private sector homes adjacent to 
communities.
    That is one of the things I think Mr. Hill talked about, 
that most of our facilities and our residences were constructed 
probably 30 or 40 years ago, and since that time communities 
have, in fact, changed significantly, and our folks are now 
commuting. In fact, I encourage our folks to do that.
    I would just maybe share one last thing with you in terms 
of someone talked about partnerships, and we have aggressively 
moved with partnerships as a strategic tool to help us deal 
with the backlog, both in recreational construction and our 
visitor centers. And since 1994, with our visitor centers, we 
have been leveraging private sector funds, where 50 percent of 
the construction costs do, in fact, come to the visitor centers 
from the private sector, and the other side comes from Federal 
funding.
    We are moving aggressively in our recreation backlog to 
engage the private sector in the construction and design and 
operation of those facilities. We know that it will never 
happen on our side to remove the $800 million backlog, so we 
have received a good response from the private sector.
    Rather than going through a long discussion about our 
process, I do have a package here that I will leave with you 
that talks about a Federal investment process, both for 
recreation as well as other administrating facilities. With 
that, I would be happy to entertain any questions.
    [The information follows:]
             U.S. DEPARTMENT OF AGRICULTURE FOREST SERVICE
 Lyle Laverty, Director--Recreation, Wilderness, and Heritage Resources
        Construction of Recreation and Administrative Facilities
                     construction process overview
    Recreation and administrative building needs are idenified by 
individual forests and are displayed in the proposed capital investment 
schedules in their Forest Plans. Recreation and administrative facility 
needs are evaluated according to regional criteria and the highest 
priority projects go into the regional capital investment programs. 
Other plans such as regional interpretive plans help to further refine 
the list of facilities, such as visitor centers, needed to interpret 
the resources of the region. Environmental Analyses (EA) are prepared 
on high priority projects to further refine the scope of the project 
and estimate costs.
    Reduced recreation budgets in the 1980's and 90's have resulted in 
deferred maintenance for developed recreation sites. This deferral has 
generated a maintenance and repair backlog in excess of $80 million. 
The construction and maintenance backlog for Fire, Administration, and 
Other (FA&O) facilities has also grown, in recent years, to a sum of 
$599 million.
    The Forest Service is committed to providing the public with 
facilities that meet their needs and enhance their enjoyment of the 
National Forests, and to providing adequate housing for employees at 
remote locations where private sector housing is not available.

    Mr. Regula. I think what we will do, we will have each 
Member get maybe one question in, and then we will go to the 
Park Service.
    Mr. Millenbach.

               Opening Remarks--Bureau of Land Management

    Mr. Millenbach. Thank you, Mr. Chairman. I don't have a 
long prepared testimony, but I do have some notes that I would 
like to read from to give you an idea of how we run our 
construction program, and then I would like to talk a little 
bit about our housing program and our visitor center program.
    BLM manages 264 million acres in 28 States, including 
Alaska, and that is about 13 percent of the total land surface 
of the United States. We have about 73 million visitor use days 
per year in the BLM.
    For fiscal year 1998, our construction budget is $3 
million. We also share in a $5 million appropriation for the 
Department of the Interior wildlife fire account. That is money 
that is appropriated to the BLM, but then it is shared among 
other agencies, such as the Fish and Wildlife Service, who also 
are participants in that account.
    We have a facilities maintenance program that is about a 
$35 million a year program, and then we have an emergency 
repair program.
    BLM employs about 78 civil engineers, and we have 21 other 
specialized engineers, such as structural engineers, 
architects, landscape architects, mechanical and electrical 
engineers. That is a total of 99 engineers. Seventy-five of 
them are located out in our field offices, State offices or 
district offices and the rest are located in Denver. We are 
colocated with the Park Service and the Fish and Wildlife 
Service in Denver. Most of our civil engineers are located out 
in the field. The people that we have in Denver have one-of-a-
kind specialized engineering skills.
    The design center in Denver provides technical support and 
some architectural and engineering design, and they are the 
national lead on things such as dam safety, seismic safety, 
bridge safety, water power, value engineering and energy 
conservation.
    Our decisions to do A&E and other engineering work are 
based on overall workload, local availability, cost, our in-
house expertise, and our other commitments of resources, 
whether we do that internally or externally. It is done pretty 
much on a case-by-case basis. But I did ask our staff for a 
breakdown to give you an idea of how we break it out both 
internally and externally.
    About 25 percent of our work is contracted externally or 
goes to local engineering firms, and these generally are the 
large projects that are beyond our in-house capability. 
Administrative buildings and visitor centers are two examples 
of those.
    We also do about 25 percent of our architectural and 
engineering work for smaller projects in our State or field 
offices. These would be things like campgrounds, day use areas, 
road repairs and that kind of thing. The other 50 percent of 
our A&E work is done in Denver. These are smaller visitor 
centers, office renovations, building expansions, warehouses 
and so forth.
    Once the design is completed, then the contract inspections 
are done in-State. We might have a few large projects like, for 
example, the Yaquina Head Visitor Center that was just 
completed last year, or our Fire Center Administration building 
in Boise, that was done by the A&E firm which did the contract 
for the A&E in the first place. We, as part of that contract, 
get them to do the contract inspections.
    Almost all of our actual construction and reconstruction 
work is contracted locally. They are done through a sealed bids 
process, and we have not had a lot of problems with contract 
modifications. Our contract specs are very tightly written and 
are generally considered to be pretty good, so we have not had 
a big problem recently with contract modifications.
    The Bureau of Reclamation does some work for us on bridges. 
They do contract inspections on that work. And we also use a 
lot of standard design for a lot of our more routine projects--
things like fences, stock water dams, smaller bridges, 
reservoirs, restrooms, and fire barracks. We have standard 
designs for all of those.

                   bureau of land management housing

    To give you a rundown on our housing program, I don't think 
that we compare very closely with the Park Service. We only 
have about 300 units of employee housing. Two-thirds of these 
are fire barracks for seasonal fire fighters, and then the 
remaining third, about 100 units, are in remote locations such 
as Hanksville, Utah, Battle Mountain, Nevada or Glenallen, 
Alaska.
    We employ about 1,000 seasonal fire fighters a year; 500 of 
those will be housed in various units that are available to 
them. Between 1996 and 1999, we are planning some construction 
to build 16 new fire barracks and renovate 8 of our barracks 
that will house about 300 fire fighters.
    Most of our quarters are old trailers or modular buildings 
or barracks that have been surplused. We haven't built any new, 
from-the-ground-up housing in the last 10 years.
    We have bought 14 new modular buildings in the last 10 
years. They average about 1,200 square feet and they cost us an 
average of about $50,000 a unit. We collect rent from our 
housing units, and we get about $250,000 rent from the 
employees that live there, and that is turned around and put 
back into maintenance of the houses themselves.

               bureau of land management visitor centers

    At our visitor centers we have had, I think, a very 
successful visitor center construction program over the last 10 
years. We put out a policy a couple of years ago that directs 
the field offices to seek 50 percent construction participation 
from non-Federal sources, and then 75 percent operations and 
maintenance participation also from non-Federal sources.
    For example, we have a new project that we are working on 
in central New Mexico, the El Camino Real project, where we are 
participating with the State of New Mexico. This meets the 
criteria, where the State of New Mexico is contributing a 
significant amount to the project and is also picking up the 
bulk of the operations and maintenance responsibilities.
    Finally, we have 120 visitor contact stations and sites and 
centers. We have public rooms that are associated with our 
administrative offices. We have trailers that we put out in the 
field during hunting season to assist the State's fish and game 
or off-highway use areas. We have visitor centers, 42 of those 
bureau-wide. The average size is between 1,500 to 3,000 square 
feet, and they generally cost less than $1 million. We do have 
a few that are more expensive than that.
    So that pretty much wraps up my overview of our program, 
and we will be glad to answer any questions you might have.
    Mr. Nethercutt [presiding]. Gentlemen, we have a vote on, 
so the Chairman has gone to vote. We will continue to go in the 
order of the people in which they arrived. Mr. Wamp.

                        life cycle cost analysis

    Mr. Wamp. Very briefly, the only possible defense, and I 
have heard no defense, legitimate defense here this morning 
yet. Maybe we will hear some decent defense. But in one of 
these articles, they said we are designing some of these 
facilities to last more than 50 years, and I am just wondering 
about a life cycle cost analysis of investment.
    For instance, the Capitol over here is--actually, it has 
been in this form for 142 years, so the life cycle cost, even 
if it was enormous, the expense of building the Capitol back 
then, the life cycle cost is pretty darn good for that 
building. If it was a metal building, it wouldn't last very 
long. So I am just wondering in your three experiences, how 
much do you factor in life cycle cost in the early investment 
that we make on behalf of the taxpayers in construction?
    Mr. Millenbach. We run about 50 years usually, Congressman.
    Mr. Laverty. The same.
    Mr. Henne. The same.
    Mr. Wamp. Thank you, Mr. Chairman.

                    housing and maintenance backlog

    Mr. Nethercutt. My brief question, since I am next, is, 
have all of you in your agencies been able to do a location-by-
location assessment of your maintenance and housing needs, and 
if so, how long did it take you to complete that?
    Mr. Millenbach. We are working on that this year. We have 
had some questions about our backlog of maintenance needs as 
well, and those have been good questions, and we have been 
somewhat uncomfortable with the numbers we have been getting 
from our field offices.
    So this past year we have asked them to go out and refine 
that number. I can't give you a number today, but we will have 
that pretty soon and be able to furnish the committee with that 
information.
    Mr. Nethercutt. Did you want to respond?
    Mr. Henne. Yes, sir. Recently we started a site-by-site 
visit for housing specifically. We have, however, found that 
our inventory has a 90 to 95 percent accuracy level, so we have 
a very good feel that our $12.2 million of that for housing 
alone is accurate. The entire system backlog in excess of $600 
million is still being worked on.
    Mr. Laverty. Also, we have a good inventory of backlog, and 
we have good inventory currently meeting the needs. I can't 
tell you how long it took us to develop that, but we do in fact 
have that.
    Mr. Nethercutt. Mr. Dicks.

                            problem solving

    Mr. Dicks. If you had a problem like the Park Service has 
and it was called to your attention in 1989, do you think in 
your personal and professional opinion you could have gotten it 
straightened out by 1997?
    Mr. Millenbach. Well, working for the BLM, you know that we 
have a lot of problems. So I am going to let Mr. Stanton 
respond to that.
    Mr. Dicks. Well, I mean if you had this problem and someone 
called it to your attention in 1989, do you think you could in 
your professional opinion have gotten it straightened out in 9 
years or 8 years?
    Mr. Millenbach. Well,----
    Mr. Dicks. Or is it such a big mess that nobody can 
straighten it out?
    Mr. Millenbach. I would hope so, but--well.
    Mr. Dicks. You would hope that you could?
    Mr. Millenbach. I would hope so, but that is not that easy 
a question to answer.
    Mr. Dicks. That is why I asked it. Do you think you could 
have gotten it done?
    Mr. Henne. Yes, sir, I hope we would have.
    Mr. Dicks. The Forest Service I know is going to say you 
could have.
    Mr. Laverty. Well, let me tell you a little bit--maybe 
rephrase the question just a little bit.
    Mr. Dicks. Go right ahead.
    Mr. Laverty. We have recognized some time ago that with our 
backlog, that we had to take a different strategy. We have been 
aggressive in terms of developing a strategy that engages the 
private sector in the delivery of these kinds of services, and 
I think we have a good model that works well in terms of 
providing quality services and facilities to the visitors. It 
is not where we want to be, but I think we are working on that, 
but I think we do in fact have a process in place.
    Mr. Dicks. And you think the Park Service ought to take a 
look at this, right?
    Mr. Laverty. It is available.
    Mr. Dicks. Thank you.
    Mr. Nethercutt. Mr. Skaggs.
    Mr. Skaggs. Thank you, Mr. Chairman.

                 architectural and engineering services

    Two out of the 3 of you, that is, the 2 Interior agencies, 
also work this same set of issues through the Denver Service 
Center; is that correct?
    Mr. Millenbach. We have a Denver Service Center and we run 
our larger projects through there for A&E, yes, sir.
    Mr. Skaggs. Well then, are the engineering, architectural 
design people specific to your agency, or is that a pooled 
resource at the Denver Service Center?
    Mr. Millenbach. They are specific to our agency. We pay all 
of our own employees, but they are all located in the same 
facility.
    Mr. Skaggs. You can't shed any light for us, then, on the 
problem at the Denver Service Center, if there is a problem, 
relative to the design construction aspect of this for the Park 
Service?
    Mr. Nethercutt. Mr. Skaggs, can I just interrupt and say 
that when Mr. Skaggs finishes, we will be in recess for a very 
short time. Mr. Moran and I will go vote and come back. The 
Chairman may be back by then.
    Mr. Henne. The only thing that we have that may be 
different is, we are highly decentralized, because we do house 
approximately 19 engineers or architect types in each of our 
regional offices. That is our total of 159, of which 22 are 
located at our central Denver office.
    We do also have a threshold of a $5 million project will go 
to the Denver center. Anything under $5 million will go to the 
regional offices, and many times that deals with maintenance, 
road rehab, building rehab, much smaller projects. It doesn't 
require the unique----
    Mr. Skaggs. Any insight from BLM on this particular piece 
of the puzzle?
    Mr. Millenbach. Well, we do pretty much the same thing. 
These 75 civil engineers that are out in our State and district 
offices, they can do all kinds of things water improvement 
design; fence design campgrounds road improvements and that 
kind of thing.
    And then what we have centralized is more of our unique 
resources. Say we are building a new administrative center or 
visitor center, we might have the electrical engineer design 
the electrical system for that, for that facility. So that is 
where we have more of our one-of-a-kind people, people with 
highly specialized skills.
    Mr. Skaggs. I need to go vote. We will be in recess for a 
little bit.
    [Recess.]
    Mr. Regula. Any questions, Mr. Miller?
    Mr. Miller.  No questions.
    Mr. Regula. We are going to submit questions for the 
record, and we thank you very much for coming.
    We are going to delay a few minutes until our Members can 
get back. They would like to be here.
    [Recess.]
                       BUREAU OF LAND MANAGEMENT
         Questions From House Appropriations Oversight Hearing
                           general statistics
    Question 1. Please tell us for the record the total acreage for 
which you are responsible and the total number of units managed by your 
agency?
    Answer: The BLM manages 264 million acres in 28 states, which makes 
up 13 percent of the total land surface of the United States. In 
addition, we manage 300 million acres of subsurface estate.
    The BLM has 12 state offices, 63 district/field offices and 7 
centers. Four of the centers are located in Denver, one, the National 
Training Center is located in Phoenix, AZ, and two are located in Boise 
Idaho (the National Fire Center and the National Law Enforcement 
Office).
    Question 2. What is your annual visitation?
    Answer: The public lands administered by BLM receive approximately 
60 million visits or 73 million visitor days. (One visitor day equals 
12 hours of recrectional activity).
    Question 3. What is your administrative cost for the construction 
program and how many in-house staff do you have working on the program? 
Of the in-house personnel what is the professional mix of planners, 
architects, engineers, etc.?
    Answer: The BLM requests about $3 million annually in the 
construction appropriation. The Department's Wildland Fire Account 
funds an additional $5 million for construction related to wildland 
fire management; of that, BLM receives roughly $3 million annually. In 
addition, BLM receives about $35 million for facilities maintenance. 
These funds are directed towards new construction, reconstruction, 
routine and corrective maintenance, project design and program 
management.
    The BLM has 99 engineers, of which 78 are civil engineers, 4 are 
landscape architects, 2 are architects, and 15 are structural, 
mechanical, or electrical engineers. These engineers provide technical 
support and quality oversight for construction, maintenance, and 
resource project work.
    Question 4. How many of your people are stationed at a centralized 
location, like the Denver Service Center, and how many are deployed 
elsewhere? If you use a centralized location, how do you decide what 
in-house work gets done there versus being done by staff at other 
locations?
    Answer: The BLM has 20 engineers stationed in the Denver design 
center. This facility is co-located with the National Park Service and 
the U.S. Fish and Wildlife Service. The remaining 79 engineers, mostly 
civil engineers, are located in state, district, or field offices.
    The decision to use the design center is based on local in-house 
capability, local contract availability, overall workload at the 
center, and the time frames necessary to complete the work.
    Question 5. What portion of the work do you do in house and what 
portion do you do under contract? How do you decide?
    Answer: Approximately 25 percent of BLM's design work for 
construction or reconstruction is contracted locally. These are 
generally the larger buildings such as visitors centers or 
administrative buildings. About 24 percent of the design work is 
accomplished in-house locally based on available technical skills. This 
work constitutes smaller projects such as campground, day use areas, 
road repairs, etc. The remaining 50 percent is accomplished at least 
partially through the Denver design center. These projects involve work 
such as small visitor centers; retrofitting heating, air conditioning 
or ventilation; building expansions or renovations, and warehouses. The 
decision on where the design work is accomplished is provided above in 
answer 4.
    Question 6. To what extent is the contract work done for you 
inferior to, the same, or superior to the work done in-house?
    Answer: Because technical qualifications are part of the criteria 
for determining where the design work will be accomplished, and because 
BLM requires good quality design specifications, there is no 
substantial difference in the quality or design or construction between 
in-house and contract work.
    Question 7. To what extent do you rely on standardized design and 
construction? Should you be going to more standardization? Please 
explain.
    Answer: The BLM has several areas where standard design is used, 
such as fences, small dams, small bridges, reservoirs, restrooms, and 
fire barracks. One of the Denver design center's responsibilities is to 
provide standard drawings and designs to support field needs. The 
standard designs are adaptable to local conditions. As BLM develops 
standard designs, industry often provides a competitive alternative.
                         employee housing units
    Question 8. How many employee housing units do you currently have?
    Answer: The BLM has approximately 300 units which house BLM 
employees. Two-thirds of these are fire barracks for seasonal fire 
fighters.
    Question 9. How much have you spent on new housing construction and 
housing reconstruction over the past 10 years? How many units did that 
buy?
    Answer: Over the last 10 years BLM has purchased 14 new modular 
buildings. These buildings average 1,200 square feet and cost 
approximately $50,000 each. In addition, BLM has constructed nine new 
and renovated eight fire barracks at a cost of $3,680,000 over this 
same time period. The fire barracks will house approximately 220 
seasonal fire fighters.
    Question 10. Would you discuss what types of housing units you rely 
upon--single family homes, multifamily homes, barracks, individually 
designed properties versus Modular homes?
    Answer: Most of BLM's existing older housing facilities are older 
trailer units, modular housing or barracks that we have acquired. New 
housing for permanent employees is all modular. New fire facilities are 
generally standard design barracks units.
    Question 11. How do you decide whether to rely on the local 
communities for housing versus building your own housing?
    Answer: The BLM policy for housing permanent employees is to use 
housing available in the surrounding community. If, as in Alaska, there 
are no private sector options, BLM has provided those options. Because 
our quarters are modest, BLM employees generally prefer non-federal 
housing.
    The BLM fire program must rely on federal barracks for seasonal 
employees due to the required response time. These renovated and new 
facilities are generally considered reasonable alternatives to renting.
    Question 12. What do you consider a reasonable distance to travel 
for your employees who live in private sector housing? Please explain.
    Answer: The BLM has generally located its district/field offices in 
close proximity to communities to take advantage of local services. 
Traveling 20 or 30 miles to work is not unusual for some employees. 
Travel distances from BLM offices to public lands is often longer than 
the travel distance from an employee's private residence to the office.
    Question 13. Many of your land holdings are in very isolated areas. 
How do your people find housing in these areas?
    Answer: The BLM manages many remote locations in the West. In most 
of these areas the offices are located near communities. If not, BLM 
often has parcels of land which have existing facilities which provide 
housing. In these areas, where federal quarters exists, it is generally 
an employee's option whether to use the federal housing or find other 
arrangements.
                            visitor centers
    Question 14. How many visitor centers do each of you have?
    Answer: The BLM has direct involvement in 42 visitor centers, of 
which slightly less than half are on public lands.
    Question 15. What is the average cost for a visitor center? Please 
explain.
    Answer: The BLM's cost for visitor centers varies depending on size 
and location. These centers range from 200 to 23,000 square feet. 
Consequently the cost varies widely, from a $200,000 to $10,000,000. 
The average visitor center on BLM administered public lands is 
approximately 1,500 square feet and costs less than $1,000,000 to plan, 
design, and construct.
    Question 16. To what extent do you use partnerships with other 
Federal agencies or with State and local communities to leverage 
funding for visitor center? Please provide a couple of examples.
    Answer: The BLM policy for constructing new visitor centers is to 
seek 50 percent non-federal contribution from a partner for 
construction and 75 percent for operations and maintenance costs. The 
El Camino Real International Heritage Center is a good example of 
implementing this policy. The State of New Mexico is funding $6.3 
million and BLM is funding $2.7 million of the construction and design. 
The State is funding all of the maintenance costs and BLM is only 
funding 25 percent of the operations cost. This partnership includes 
State and community government, Mexico, and Spain.
    Another example of a partnership is the Santa Rosa Mountains 
National Scenic Area's visitor Center which provides the visiting 
public with information, interpretation and environmental education on 
the resources and recreation opportunities of the Santa Rosa Mountains, 
information on the San Bernardino National Forest, the Palms to Pines 
Scenic Byway, and other activities and opportunities throughout the 
Coachella Valley. The area would serve as the gateway for information 
for the growing hiking, mountain biking, and equestrian users in the 
area. The visitor center was constructed during 1994. The building is 
approximately 1,000 square feet. The cost for construction of the 
visitor center was borne by numerous partners. For example, the city of 
Palm Desert donated approximately $1 million of land for the center, 
Westinghouse provided the landscape design, and Alexander Haagen, III 
provided the design for the visitor center. Congressionally 
appropriated money provided the actual construction for the center at 
approximately $300,000. The visitor center could not have been 
constructed or managed without the many partners. Specific partners 
included all 9 communities with the Coachella Valley, Riverside County, 
Westinghouse, the Coachella Valley Mountain Conservancy, Alexander 
Haagen, III, and the Bighorn Institute.
    Another partnership in California is the California Desert 
Information Center: The center was BLM's first visitor center and was 
designed to serve the recreational visitor to the California Desert. 
The center is located in Barstow and is managed in partnership with the 
National Park Service and the Southwest Natural and Cultural History 
Association. Another Visitor Center is the Jawbone Station which was 
constructed in partnership with the State Of California's Off-Highway 
Vehicle Grant program. The Station provides information on recreational 
opportunities to the traveling public on Highway 14 near Ridgecrest.
                     U.S. FISH AND WILDLIFE SERVICE
       Responses to Questions for BLM, FWS and the Forest Service
                           general statistics
    Question 1: Please tell us for the record the total acreage for 
which you are responsible and the total number of units managed by your 
agency.
    Answer: The U.S. Fish and Wildlife Service (FWS) is responsible for 
92.5 million acres comprising 576 field units, 511 wildlife refuges and 
65 fish hatcheries, 9 fish health centers and 6 fish technology 
centers.
    Question 2: What is your annual visitation?
    Answer: The FWS receives 30 million visitors, primarily to National 
Wildlife Refuges and National Fish Hatcheries.
    Question 3: What is your annual administrative cost for the 
construction program and how many in-house staff do you have working on 
the program? Of the in-house personnel what is the professional mix of 
planners, architects, engineers, etc.?
    Answer: Within the Construction program, the National Engineering 
Services (NES) provides engineering, technical and administrative 
support services to regional, and field station activities. Since FY 
1993, NES has averaged approximately $4.4 million per year.
    There are currently 22-FTEs working for the NES Division of 
Engineering, Denver and 137 FTEs at seven Regional Offices, for a total 
of 159 FTEs, including 86 engineers and 21 architects and planners.
    Question 4: How many of your people are stationed at a centralized 
location, like the Denver Service Center, and how many are deployed 
elsewhere? If you use a centralized location, how do you decide what in 
house work gets done there versus being done by staff at other 
locations?
    Answer: The Denver office has 22 FTEs and is responsible for: the 
larger, more complex construction projects; the Service's Dam Safety 
construction projects; National Priority List hazardous waste cleanup 
projects; and oversight and programmatic support of Servicewide 
construction programs. All other construction projects are accomplished 
in the regional offices.
    Question 5: What portion of the work do you do in house and what 
portion do you do under contract? How do you decide?
    Answer: Due to fluctuating workload, approximately 95% of the 
centralized Denver construction and environmental cleanup work is done 
by A/E contractor, mostly under Indefinite Quantity Contracts. The 
regions contract out approximately 25% of A/E contractors and do 75% 
in-house. The decisions on whether to perform work in-house or by 
contract are based on the complexity and size of the projects, staff 
availability, and by the need for logistics and grouping projects with 
other work.
    Question 6: To what extent is the contract work done for you 
inferior to, the same, or superior to the work done in-house?
    Answer: For the most part, A/Es have provided high quality work. 
The A/E contractors provide specialized architectural, electrical, 
mechanical, and geotechnical expertise. Under FAR regulations, the 
Service hires world-class A/E firms. An example of this is the 
successful planning, design, and construction of the National 
Conservation Training Center, West Virginia.
    Question 7: To what extent do you rely on standardized design and 
construction? Should you be doing more standardization? Please explain.
    Answer: The FWS standardizes design and construction whenever 
possible. Examples include simple facilities such as: water control 
structures, storage buildings, maintenance sheds, pole barns, and free-
standing public restrooms.
    Engineering design and construction follows standards issued by OMB 
Circular A-18, and the Uniform Federal Accessibility Standards. All 
quarters designed by Service engineers for employees adhere to the 
provisions of 41 CFR 114-151. All new building designs comply with 
current codes recommended by the Interagency Committee on Seismic 
Safety in Construction (ICSSC) in accordance with Executive Order 
12699, ASeismic Safety of Federal and Federally Assisted or Regulated 
New Building Construction or applicable local codes, whichever is more 
stringent. All new Service buildings must be designed to comply with 
Federal energy laws and regulations (e.g., 10 CFR 435) and buildings or 
building systems must be designed so as to result in the lowest total 
life-cycle cost (with 10 CFR 436) and certified for energy efficiency.
                         employee housing units
    Question 8: How many employee housing units do you currently have?
    Answer: The Service currently has 773 housing units.
    Question 9: How much have you each spent on new housing 
construction and housing reconstruction over the past 10 years? How 
many units did that buy?
    Answer: The Service has constructed approximately 19 new houses 
over the last 10 years. In addition, the Service has acquired 18 mobile 
homes, most as surplus from the Bureau of Reclamation or from the 
Federal Emergency Management Agency. Of the 19 new quarters, 6 are in 
Alaska. Construction costs range from approximately $140,000 to 
$180,000 per house depending upon geographic location (Alaska housing 
costs are approximately 75-100 percent greater than the lower 48 
states).
    The Service has reconstructed approximately 9 houses over the last 
10 years, 5 in Alaska, and 4 as a result of hurricane damage (Hanalai 
NWR, HI as a result of Hurricane Inniki and Culebra, PR as a result of 
Hurricane Hugo). Reconstruction costs are currently unavailable.
    Question 10: Would you each take a moment to discuss what types of 
housing units do you rely upon--single family homes, multi-family 
homes, barracks, individually designed properties vs. modular homes?
    Answer: The Service has 563 single-family homes and 210 apartments, 
mobile homes and bunkhouses/dormitories.
    Question 11: How do you decide whether to rely on the local 
communities for housing versus building your own housing?
    Answer: Due to the lack of accessibility and the remoteness of 
several Service field entities, personnel must live on-station. Because 
we are dealing with biological life, field stations such as fish 
hatcheries must have personnel on-station to deal with emergencies. For 
example, when a valve needs to be unplugged, there may not be enough 
time for an employee to drive a number of miles to the hatchery before 
a major fish kill occurs. This need is especially critical for 
endangered species production. In addition, quarters are needed to 
enable personnel to stay on-station to provide greater protection of 
facilities and fish and wildlife after-hours.
    Question 12: What do you consider a reasonable distance to travel 
for your employees who live in private sector housing? Please explain.
    Answer: A one-way commuting distance of up to 30 miles is 
considered satisfactory for non-critical personnel.
    Question 13: Many of your land holdings are in very isolated areas. 
How do your people find housing in these areas?
    Answer: Housing is first sought in the private sector (rent or 
purchase) by our non-critical staff. When adequate housing is not 
available, the Service considers construction of employee housing.
                            visitor centers
    Question 14: How many visitor centers do each of you have?
    Answer: The FWS has 71 visitor centers in the 511 unit National 
Wildlife Refuge system and 6 visitor centers in the 65 National Fish 
Hatchery system.
    Question 15: What is the average cost for a visitors center? Please 
explain.
    Answer: The cost of visitor centers ranges from approximately 
$100,000 for smaller visitor facilities up to $10 million for the 
larger centers at some of the most heavily visited refuges, such as 
Minnesota Valley NWR, Patuxent NWCR, Wichita Mountains NWR and Walnut 
Creek NWR. The majority of the Service's visitor center facilities cost 
less than $500,000.
    Question 16: To what extent do you use partnerships with other 
Federal agencies or with State and local communities to leverage 
funding for visitor centers? Please each provide a couple of examples.
    Answer: The Service uses partnerships to a great extent to leverage 
funding. The Service has entered into agreements with partners to build 
visitor centers at refuges such as: ``Ding'' Darling NWR, FL, where a 
private citizen group has raised over $1 million towards a $3 million 
visitor center; and the J.R. Heinz NWR, PA, where the National Fish and 
Wildlife Foundation has leveraged more than $2 million of private 
bequests for visitor facilities. Another visitor center was constructed 
with donated labor. In some instances, the Service enters into joint 
ventures with other Federal and State agencies to fund visitor centers. 
For example, the Sewee Visitor Center at the Cape Romain NWR, South 
Carolina, was funded jointly with the U.S. Forest Service. However, 
partnership arrangements may not be practical for some large facilities 
due to local construction codes, Davis-Bacon requirements, and FAR 
regulations.
                          U.S. FOREST SERVICE
 Questions From the Interior and Related Agencies Subcommittee, House 
                        Appropriations Committee
                           general statistics
    Question 1. Please provide for the record the total acreage for 
which you are responsible and the total number of units managed by your 
agency.
    Answer. The Forest Service manages a vast system of public lands 
covering 191.6 million acres in 155 National Forests and 20 National 
Grasslands. These lands, with their natural features and wildness, have 
become increasingly popular with people from all over the world.
    Question 2. What is your annual visitation?
    Answer. Last year, 859.3 million visits were hosted by the Forest 
Service, making it the largest provider of outdoor recreation 
opportunities in the Nation.
    Question 3. What is your annual administrative cost for the 
construction program and how many in house staff do you have working on 
the program? Of the in-house personnel, what is the professional mix of 
planners, architects, engineers, etc.?
    Answer. There are two components to the Forest Service construction 
program, recreation construction and (FA&O) construction. The following 
are final appropriated funds for FY97 and the Conference Report 
appropriation FY98:

Recreation FY97..............................................$48,000,000
Recreation FY98...............................................31,800,000
FA&O FY97..................................................... 9,974,000
FA&O FY98.....................................................16,096,000

    The administrative costs associated with construction usually run 
around 6-8% for survey and design and another 10-12% for contract 
administration.
    Engineers, architects, and landscape architects are the principal 
design professions in the Forest Service. A variety of other 
professionals such as interpretive and resource specialists also get 
involved in construction projects such as recreation facilities and 
visitor center design and development. The following is an accounting 
of the number of the principal design professions in the Forest 
Service:
    Civil engineers--740 (less than 10% work in FA&O and Rec constr.).
    Construction control inspector--20.
    Mechanical engineers--23.
    Architects--24.
    Landscape architects--240 (less than 50% work in FA&O and Rec 
constr.).
    Question 4. How many of your people are stationed at a centralized 
location, like the Denver Service Center, and how many are deployed 
elsewhere? If you use a centralized location, how do you decide what in 
house work gets done there versus being done by staff at other 
locations?
    Answer. The Forest Service does not have a centralized design 
center. Most of the agency design professionals are assigned to the 
Forest and Regional offices.
    Question 5. What portion of the work do you do in-house and what 
portion do you do under contract? How do you decide?
    Answer. The complexity of project design or number of projects 
relative to available personnel influence whether the design work will 
be contracted or done in-house. About 80% of Forest Service design work 
involves smaller, less complex projects that are usually designed by 
Forest Service professionals. Components of projects, like electrical 
design, may be contracted out while the rest of the structural design 
is completed in-house.
    Contracting decisions are made based on individual project workload 
analysis. The complexity of a construction project will determine 
whether it will be designed by Forest Service professionals or by an 
architectural and engineering (A&E) contractor. Complex projects, such 
as visitor centers and offices, are designed by A&E contractors under 
design contracts that are negotiated to get the best mix of skills and 
costs.
    Most building construction is small scale on the National Forests 
and is performed by local or regional contractors. When large complex 
projects are constructed, the agency will often have to look nationally 
to find the skills needed to perform the unique work. These prime 
contractors will usually subcontract the less complex parts of these 
big projects to local contractors.
    Question 6. To what extent is the contract work done for you 
inferior to, the same, or superior to the work done in house?
    Answer. The work done by contractors is very comparable to the work 
done in-house, although sometimes more expensive. Contracts can 
leverage the time of Forest Service professionals. They can use their 
expertise to administer the design contracts for several projects in 
the same time it would take to design one.
    Question 7. To what extent do you rely on standardized design and 
construction? Should you be doing more standardization? Please explain.
    Answer. Each region of the Forest Service maintains standard 
designs for most small structures such as houses, duplexes, bunkhouses, 
restrooms and such. If a standard design cannot be used or modified to 
fit a particular site or need, a custom design will be developed. 
Complex structures such as offices and visitor centers are usually 
custom designed. Standardized design works well for the Forest Service 
where we are often constructing less complex structures in rustic 
settings.
                         employee housing units
    Question 8. How many employee housing units do you currently have?
    Answer. The Forest Service currently has a variety of housing units 
consisting primarily of houses, cabins, apartments, mobile homes, 
travel trailers, and bunkhouses.

        Number of employee housing units the Forest Service owns

Houses........................................................     2,063
Apartments....................................................       141
Cabins........................................................       292
Mobile homes..................................................       613
Travel trailers...............................................       134
Bunkhouses....................................................     1,062

    Question 9. How much have you spent on new housing construction and 
housing reconstruction over the past 10 years? How many units did you 
buy?
    Answer. Over the past decade, our annual construction/
reconstruction budget for employee housing has ranged from $250,000 to 
$2.8 million, and our annual maintenance program has ranged from $5.7 
million to $6.9 million:

------------------------------------------------------------------------
                                      Construction/  Maintenance        
            Fiscal year              reconstruction     budget     Units
------------------------------------------------------------------------
1992...............................      $923,000     $5,655,976      10
1993...............................       250,000      6,599,668       0
1994...............................     2,369,000      6,771,912      23
1995...............................       747,000      6,685,395      17
1996...............................     1,610,000      6,284,468       5
1997...............................       470,000      6,944,753       0
1998...............................     1,496,000    ...........      15
------------------------------------------------------------------------

    Question 10. Would you take a moment to discuss what types of 
housing units you rely upon--single family homes, multifamily homes, 
barracks, individually designed properties vs. modular homes?
    Answer. Most of the employee housing the Forest Service provides is 
for seasonal employees in the form of bunkhouses, modular units, and 
trailers. In August of this year there were 3,291 out of 18,426 
seasonal employees utilizing agency quarters.
    The permanent workforce in the Forest Service is predominantly 
housed in units provided by the private sector. There were 1,678 out of 
30,315 permanent employees living in Forest Service quarters in August 
of this year. Permanent employees are housed in single family houses, 
duplexes and fourplexes, modular units, and trailers.

        Number of employee housing units the Forest Service owns

Houses..................................................           2,063
Apartments..............................................             141
Cabins..................................................             292
Mobile homes............................................             613
Travel trailers.........................................             134
Bunkhouses..............................................           1,062

               Range of monthly rents for employee housing

3-bedroom house.........................................       $278-$547
Apartment...............................................         183-395
Mobile home.............................................         160-416
Bunkhouse...............................................          72-140

    Question 11. How do you decide whether to rely on the local 
communities for housing versus building your own housing?
    Answer. At most Forest Service locations, employee housing is 
provided by the private sector where employees live in the local 
communities. Due to the small size of some communities and/or the 
remoteness of some administrative sites, housing is not always 
available through the private sector, so the Forest Service provides 
employee housing to make up for these deficiencies. The types of 
housing are quite varied, it ranges from single family homes and 
duplexes for permanent employees to bunkhouses, modular units, and 
trailers for seasonal employees.
    Question 12. What do you consider a reasonable distance to travel 
for your employees who live in private sector housing? Please explain.
    Answer. People working in remote offices have field oriented jobs, 
and often have another hour to drive to the work site after they have 
arrived at their offices. OMB circular A-11 states that quarters should 
not be provided within a 2-hour commute of private housing. The agency 
interprets this to be a 2-hour round trip to the employee's duty 
station. The agency currently owns housing located in less than a 2-
hour round trip commuting area, in most cases these houses were built 
over 30 years ago. The majority of housing built in the last 10 years 
has been for seasonal employees at remote locations.
    Question 13. Many of your land holdings are in very isolated areas. 
How do your people find housing in these areas?
    Answer. The land holdings are isolated, but our field offices are 
usually located in communities near the National Forest. Most permanent 
employees are assigned to a duty station within a community. Seasonal 
employees such as firefighters, tree markers, and recreation 
technicians are in field oriented jobs and are often housed in remote 
locations on the Forest where they are close to their work.
                            visitor centers
    Question 14. How many visitor centers do you have?
    Answer. A variety of recreation facilities have been built over the 
years to assist people in learning about natural resources and to 
enhance their enjoyment of the National Forests. There are visitor 
centers, interpretive sites, information stations, campgrounds, picnic 
areas, boating facilities, scenic overlooks, and many more experience 
enhancing structures.

        Inventory of major national forest recreation facilities

Visitor centers..............  54 (includes 4 under construction).      
Campgrounds..................  4,284.                                   
Boating sites................  1,169.                                   
Picnic sites.................  1,420.                                   
                                                                        

    Question 15. What is the average cost for a visitor's center? 
Please explain.
    Answer. The Forest Service has recently completed and is currently 
completing some major visitor centers. The average cost to complete a 
visitor center is about $5 million.
    The following are some examples of our newer facilities:

------------------------------------------------------------------------
                                                                 Cost in
             Location                 Visitor center      Open  millions
------------------------------------------------------------------------
Ketchikan NF.....................  SEAVIC..............   1995        $5
Caribbean NF.....................  El Portal...........   1996    \1\ 19
Mt. St. Helens...................  Johnston Ridge......   1997         9
Columbia Gorge...................  Discovery Center....   1997         5
Lewis & Clark NF.................  Historic Trail         1998         6
                                    Center.                             
Chequamegon NF...................  Northern Great Lakes   1998         4
------------------------------------------------------------------------
\1\ El Portal is a multi-purpose facility including rain forest         
  research, National Forest administration, and visitor center          
  facilities.                                                           

    Question 16. To what extent do you use partnerships with other 
Federal agencies or with State and local communities to leverage 
funding for visitor centers? Please provide a couple of examples.
    Answer. Our current direction, based on FY 1994 appropriations 
language, is to only consider facilities that are reasonable in scope, 
and on a Federal/non-Federal (50/50) cost-share basis. The Lewis & 
Clark and Columbia Gorge Centers are examples of sites where the Forest 
Service is partnering with others to provide visitor services.
                                       Wednesday, October 29, 1997.

             NATIONAL PARK SERVICE HOUSING AND CONSTRUCTION

                               WITNESSES

ROBERT STANTON, DIRECTOR, NATIONAL PARK SERVICE
DENNIS GALVIN, DEPUTY DIRECTOR, NATIONAL PARK SERVICE
CHARLES CLAPPER, ASSISTANT DIRECTOR--DENVER SERVICE CENTER, NATIONAL 
    PARK SERVICE
    Mr. Regula. Okay. We will reconvene the hearing, and I will 
say to all 3 of the witnesses, your full statements will be 
made a part of the record. You have heard all of the testimony 
this morning, and I would hope that in your summaries that you 
will at least address what we have heard in the testimony thus 
far.
    Mr. Stanton, we will start with you.

                 Opening Remarks--National Park Service

    Mr. Stanton. Thank you, Mr. Chairman and other members of 
the committee. Thank you for the opportunity to appear before 
you to discuss the National Park Service's housing and 
construction programs.
    Let me just offer at the outset that as I begin my tenure 
as the director of the National Park Service, I am the one who 
is accountable, indeed responsible, for the programs of the 
National Park Service, including our housing and construction. 
To that end, I have immediately set into place a number of 
measures hopefully that will address the improvements for--
improve the efficiency and the effectiveness of the manner in 
which we conduct our housing and construction program.
    As an example, I will immediately begin to personally 
review all construction projects prior to the issuance of bid 
announcements to ensure that all projects are sound and cost-
effective while at the same time meeting a reasonable standard 
for park development.
    I have called a special meeting of the Servicewide 
Development Advisory Board to review all construction projects 
through the year 2000. This advisory board will assure that 
these projects are cost-effective and that they meet the most 
critical needs of the National Park Service.
    Mr. Regula. Is that regardless of size?
    Mr. Stanton. That is regardless of size. Any construction 
project will be reviewed by this committee.
    I have further directed that a nationwide contract be 
awarded to determine, among other things, the extent to which 
housing is needed because of the unavailability of other 
housing alternatives.
    The contract will address a three-pronged approach. One, it 
will determine, on the basis of the criteria that the Park 
Service has established, as to the most critical mission-needed 
housing that should be available in the park; for instance, to 
meet emergency situations governing the protection of human 
life and certainly the protection of property.
    It will also explore, through a market analysis, housing 
that would be available under certain conditions in the private 
sector to meet these needs.
    Thirdly, it would assess the condition of the critical 
housing that ultimately determines what should be retained for 
the availability of employees in the parks. All of the results 
of this 3-pronged approach will evolve into a housing 
management plan at the park level.
    There is a question as to how I might go about assuring 
that the follow-through on the housing plan is in fact adhered 
to. I am considering a redelegation of authority that will 
enforce the commitment on the part of the superintendent, the 
regional director, and yours truly's office to assure that the 
housing management plan, once developed, will in fact be acted 
upon.
    Mr. Regula. What is your target date for the completion?
    Mr. Stanton. I have made a commitment to the leadership of 
the National Park Service and to you, Mr. Chairman, and members 
of the committee, that we will, in fact, conduct a thorough 
examination, assessment, if you will, of our housing needs for 
all of our parks within less than 12 months. We have 121 parks 
that have 5 or more housing units. Obviously, that will be a 
priority. We will issue a contract or contracts to conduct this 
thorough analysis, and this will again serve as the basis of 
our knowing what housing needs are most critical in the various 
parks.
    I might add that I have placed a moratorium on our requests 
for any additional appropriations to carry out permanent 
housing improvements in our parks until we have satisfied that 
question of what really are our most critical needs for 
permanent housing in our national parks.

             independent review of nps construction program

    Also, Mr. Chairman and members of the committee, we have 
reviewed the most recently developed language that is included 
in the fiscal year 1998 appropriation that sets forth a number 
of requirements. One is that we award a contract to an 
independent organization to take a very critical look at the 
manner in which the National Park Service carries out its 
planning and design and construction activities, and will focus 
specifically on the role and responsibilities that have been 
delegated to the Denver Service Center.
    We are now in the process of developing a statement of work 
and we will offer that statement of work to you, Mr. Chairman, 
and to the members of the committee, for your review and 
counsel to us whether or not it fulfills the letter and the 
spirit of the directive set forth in the fiscal year 1998 
appropriation.

             management review of nps construction program

    In addition to that, I will convene a number of members of 
my own office to assist me in looking at how organizationally 
we are administering our program with respect to those 
authorities and responsibilities vested in the regional 
directors, vested in the parks, and certainly to assure that we 
provide policy oversight at the national level. That will be a 
companion, if you will, to the evaluation of the Denver Service 
Center and other organizational components relative to the 
overall planning and design and construction program.
    I should underscore the fact that the service-wide planning 
and development committee which I referenced earlier, as a part 
of its study of the projects included in the program through 
the year 2000, will conduct a value analysis at the front end, 
as well as when the projects are ultimately contracted and our 
processes have been completed, to make sure that if there are 
economies that can be realized in terms of the schedule and an 
alternative way of constructing a particular facility, the 
types of materials that are used and what have you, that we 
will make those adjustments in due course. So at the end of the 
process and at the end of the contract, we will not only have a 
facility that meets the high standards in terms of the visual 
quality, the functionality, but also it will be a cost-
effective product at the end of the process.
    Also, with respect to new contracting methods, this was 
brought up in the earlier comments raised by members of the 
committee, that we are looking at the design-build approach; we 
are also looking at the negotiated contracts with prospective 
bidders to determine, again, what economies can be realized. 
Mr. Galvin, our deputy director, and Mr. Charlie Clapper, 
manager of the service center, who accompany me perhaps will 
speak more definitively about that particular process.

                      nps construction supervision

    Lastly, with respect to construction supervision which has 
been a subject of discussion here, too, in view of the fact 
that many of the major construction projects are in the purview 
of the Denver Service Center as a part of our organizational 
way of doing business, many of the projects are, in fact, 
supervised by engineers, landscape architects, architects, duty 
stationed out of Denver. We are looking at different ways in 
which to carry out construction supervision that is 
geographically far removed from Denver. To do that with 
permanently stationed supervisors, or with contract 
supervisors, we are going to look at various alternatives to 
again assure that our projects are not only designed in the 
most cost-effective way, but once the contract is awarded that 
we supervise it in the best manner possible in terms of cost-
effectiveness.
    Mr. Chairman, this concludes my basic remarks, other than 
to emphasize that while we are a highly decentralized 
organization, with the 376 units of the national park system, 
and my having the assistance of 7 regional directors and 5 
associates to assist me as director of the National Park 
Service who is responsible for these programs, I want to be 
comfortable, I want you to be comfortable, I want the American 
people to be comfortable that the National Park Service will 
continue to strive to be the most effective, efficient and 
respected agency in the government. We realize that 
respectability is not given, it is earned, and we are going to 
earn that respect.
    Thank you, Mr. Chairman.
    [The information follows:]
 Testimony of Robert G. Stanton, Director of the National Park Service
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to appear before you to discuss the National Park Service's 
housing and construction programs. As I begin my tenure as the Director 
of the National Park Service, I want you to know that I am committed to 
working with you and the Congress to ensure that park facilities are 
both of high quality and are cost-effective. I am pleased to have this 
opportunity to inform you of the initial steps that have been taken to 
launch a thorough review of our construction program:
    Effective immediately, I will personally review all construction 
projects prior to issuance of bid announcements to ensure that projects 
are sound and cost-effective, while at the same time meeting a 
reasonable standard for park development.
    I have called a special meeting of the Servicewide Development 
Advisory Board to review all construction projects through the year 
2000.
    I have directed that a nationwide contract be awarded to determine, 
among other things, the extent to which park housing is needed because 
of the unavailability of other housing alternatives.
    The National Park Service has recently completed pilot housing 
studies in four locations. These have provided valuable information on 
the condition and need of park housing, and the availability and 
affordability of housing in the private sector. I am exploring the 
feasibility of accelerating the schedule of park employee housing 
assessments.
    I have reviewed the language in the committee report to accompany 
the FY 1998 Interior appropriations bill mandating the independent 
review of the construction planning, contracting and oversight 
functions of the Denver Service Center. We are now developing a scope 
of services statement for the right mix of architectural, engineering 
and management review services.
    It is the mission of the National Park Service to conserve and 
protect nationally significant resources and to provide for the 
enjoyment of them by the public in a way that leaves them unimpaired 
for the enjoyment of future generations. One aspect of accomplishing 
our mission is to provide high-quality, cost-effective public 
facilities that fit the surrounding environment and function in 
sustainable ways. In addition to being functional, our facilities are 
designed to be harmonious with park resources, to be unobtrusive, and 
to blend with the surrounding environment. Our facilities must also be 
energy efficient, and as accessible as possible to all segments of our 
population.
    Our challenge today is to maintain our commitment to quality, while 
balancing it with the best value we can obtain through the expenditure 
of limited funds. To meet this challenge, I believe the National Park 
Service must do business differently. In order to achieve the proper 
balance between quality and cost, the National Park Service has 
initiated the following actions:
                            priority setting
    In an effort to provide the best value to the public, and at the 
request of Congress in 1994, we implemented a new priority-setting 
system to determine which projects benefit the entire park system as 
opposed to which projects benefit only specific areas. The primary 
changes in the new priority-setting system are a focus on ``benefits to 
the National Park System as a whole'' and ``value obtained per dollar'' 
as the major factors in project selection and program formulation 
decisions.
    The comparison of projects in our new priority setting system is 
conducted by a professional team with diverse expertise in park 
management and related technical specialties. Due to the length of the 
construction cycle, this new system has just begun to make a difference 
in priority setting. We hope to use it to our full advantage beginning 
with the FY 1999 budget request. We will continue to refine this 
process to develop an objective, verifiable list of construction 
priorities that will support our annual budget request.
     value analysis--integral part of facility development process
    To ensure that quality park facilities are designed and constructed 
at the most reasonable cost for maximum public benefit, the National 
Park Service has incorporated the principles of value analysis into the 
facility development process.
    Value analysis is a continuous effort where the value for the cost 
is evaluated at every decision point. This process provides a 
structured approach to verify that functional needs are met and that 
all viable alternatives are considered. Use of this process is just 
beginning to influence our costs due to the lead time required to 
formulate the construction program. In addition, we plan to implement 
capital asset planning to ensure that all major construction projects 
meet verifiable cost, schedule and performance goals consistent with 
the Federal Acquisition and Streamlining Act of 1994, our strategic 
plan, and the Office of Management and Budget's Capital Programming 
Guide.
                        new contracting methods
    In an effort to award construction projects to the most qualified 
bidders at competitive prices, the Denver Service Center has initiated 
a pilot contracting program in FY 1998 to incorporate the best business 
practices from the private sector.
                  supervision of construction projects
    Another FY 1998 Denver Service Center emphasis is to look at 
different ways of inspecting and supervising construction projects. The 
intent of this initiative is to employ the best construction management 
practices that ensure the protection of park resources.
    denver service center role in planning, design and construction
    The reorganization of the National Park Service in 1994/1995 
resulted in the Denver Service Center being downsized and restructured 
into an organization that allows for greater cost control of projects. 
We strongly believe that our new organization, our assertive 
commitments to better contracting and business practices, and our work 
with private industry to further streamline our design and construction 
procedures will result in the proper balance between cost and quality 
that we are all looking to achieve.
    The National Park System contains facilities that have priceless 
value, such as the Washington Monument, the Jefferson National 
Expansion Memorial Arch and the Statue of Liberty. It also includes 
designs that, over time, have become classic--Skyline Drive, Old 
Faithful Inn, and the Quarry Visitor Center at Dinosaur National 
Monument. Collectively, these places illustrate a history of commitment 
to quality. This commitment needs always to be weighed against the 
value obtained through the expenditure of limited funds. I will work 
with you to maintain the proper balance of these considerations.
    That completes my written remarks Mr. Chairman. I would be happy to 
answer any questions that you might have.

    Mr. Regula. Thank you. And I think you understand that 
these incidents that we have been dealing with this morning do 
undermine the credibility.
    Mr. Stanton. It does, Mr. Chairman, and we are concerned 
with that, and we realize that we are going to do what has to 
be done to assure, not only the U.S. Congress or the 
administration but the American people, that we are going to do 
what is best for the resources and we are going to do what is 
best in terms of maximizing the use of the appropriated 
resources, as well as private resources.
    Mr. Regula. I hope you will take a look at your structure. 
It is an historic thing and maybe it doesn't work under today's 
conditions. We are into partnerships and private sector 
facilities and so on.
    Our next witness will be Mr. Galvin, the deputy director.
    Mr. Galvin. I have no opening statement, Mr. Chairman. I am 
happy to respond to your questions, sir.
    Mr. Regula. All right. Mr. Clapper?
    Mr. Clapper. I will repeat what Mr. Galvin said. I have a 
feeling that there are a lot of questions about the Denver 
Service Center, and I am prepared to answer them to the best of 
my ability.
    Mr. Regula. Mr. Dicks?

                         Accountability Issues

    Mr. Dicks. Well, Mr. Stanton, I like the tone of what you 
said. Now, as you and I both know, the real test here is going 
to be--will you guys follow through on this? I mean, what is 
really troublesome here to me is that this was pointed out by 
this committee in 1989, and I got to tell you, over the last 
several years the Park Service has, in my judgment, had an 
arrogance about it--we are just going to ride these things out 
and we are going to do it our way, we are going to manage these 
parks the way we want to manage them, the hell with Congress 
and the American people.
    I think that is outrageous, and I think this is a classic 
example of that attitude. I have seen it in my State and my 
district, and I have seen it right here in the District of 
Columbia. I will just tell you this: I am going to watch this 
very carefully to see whether you guys keep your word, and I 
urge you to get it done. You sound like you are going to do it, 
but I guarantee you, we are not going to let up. I am going to 
back the Chairman every step of the way, and if you don't get 
it done, we are going to get some other people to get it done.
    Mr. Stanton. Mr. Dicks, that is fair, and again, I want to 
commit to you and to the Chairman and to other members of the 
committee that we have an obligation, indeed a responsibility, 
to improve the manner in which we are carrying out certain of 
our functions, and that is a commitment, and we appreciate the 
oversight and the attention that this committee and others have 
given to this. It is a critical concern.
    Mr. Dicks. Mr. Galvin, you and I have talked about this 
many, many times. I was just looking back at the record, and we 
have had discussion after discussion, year after year.
    Now, tell me, how did this happen? How did this failure 
occur, in your judgment, and I would like to hear from the 
Denver Service Center too. How did this happen?
    Mr. Galvin. Well, Mr. Dicks, let me return to a question 
asked by Mr. Skaggs, by way of answering your question. I would 
say if there is anybody at this table that cannot deny 
accountability for this, it is me. I have been before this 
subcommittee for years. If you look at my jobs over the last 15 
years, I certainly have been in positions of responsibility or 
positions that have had an influence on design and 
construction, so I am not going to deny accountability.
    Now, how could this happen? First, I want to say we have 
listened to the subcommittee's prior admissions or statements 
that there are problems with the National Park Service 
construction program. Most recently, in the 1994 report 
language, this subcommittee questioned our priority systems 
referred to in earlier testimony; questioned use of value 
analysis and construction.
    Under the leadership of the Department, not the National 
Park Service, a review of the construction program was prepared 
and was submitted to this committee in February of 1995. It 
included, among other things, a complete change in the way we 
set priorities to emphasize cost-benefit. Second, it included 
regular value analysis through the design process, and through 
the priority-setting process. So changes have been made to the 
system.
    Now, how could this happen? There are several answers to 
that. One is, the projects on which the publicity has been 
shown were both 1994 projects. They both came before the 
subcommittee in 1994, and the contracts were awarded either 
ending in the case of Yosemite housing in 1994 and the 
Raymondskill Falls job was in 1994. So these procedures were 
not in place at that time.
    Second, because of the lead time associated with 
construction, it takes a while for the new priority systems to 
get ready for the budget. They will begin filtering into the 
budgets in 1999, but we have multiyear jobs like the utility 
systems at Independence that will require requests before this 
committee, that had not had the benefit of value analysis. We 
are going back and putting all of those projects through value 
analysis.
    Now, if you would like to talk about the specific projects, 
I can do so.

                         Project specific cost

    Mr. Dicks. We have very limited time here, but I would like 
to hear about the specific projects. Either we put in 
specifications that drove those costs up, or somebody took 
advantage of us. Now, it has got to be one or the other. Or was 
it that we were going for awards, that we wanted to win 
architectural awards and various competitions, so we are 
willing to spend whatever it took to win awards. I mean, there 
has to be a reason for this.
    Mr. Galvin. I don't think the perspective that these were 
trying to win architectural awards was accurate, although we 
have won them.
    Mr. Dicks. More than any other agency in government, I am 
told.
    Mr. Galvin. That's right, that's right. In fact, we are 
going to get one tomorrow. But it is not these kinds of 
facilities that generally get you architectural awards.

                   Delaware water gap comfort station

    With respect to Raymondskill Falls, I think a couple of 
facts are noteworthy. It went out to bid twice. In the first 
set of bids, we got only two bids. The low bid was $427,000 in 
July of 1994. We rejected those bids. The government estimate 
was just under $300,000. The second set of bids was received in 
early 1995. There were 6 bids received ranging from $335,000 to 
$484,000. So we awarded based on the fact that we had 6 bids, 
and generally speaking, that is telling you what the price is.
    What we are responsible for here is the specifications, for 
what we spec, and in the press, particularly the slate roof, 
the paint and the seed have been an issue. In going back and 
reconstructing the estimates for that, it is our judgment, if 
you took all of those out, you would reduce the costs of the 
project by about 10 percent.
    Now, my judgment is that this facility probably should not 
have been built if what we are looking for here is a low-cost 
solution. Right now, there are 48 chemical toilets in Delaware 
Water Gap. They cost $36,000 a year to pump out. If we want to 
continue that, that will be the cheapest solution, and that is 
certainly what we are going to look at in the future at 
Delaware Water Gap.
    Mr. Regula. Mr. Dicks, if you will yield, the overhead 
costs and total costs of over $300,000 on this project is 
totally out of proportion to what it should be, and this will 
of course be something that we have to address with the Denver 
Service Center, but you can't escape that excessive amount.
    Mr. Galvin. Generally speaking, we find overhead cost 
averages on projects runs between 25 and 35 percent. Projects 
smaller than this tend to be higher. Large projects, like 
F.D.R. Memorial, for instance, tend to be lower, but they 
center on about 25 to 30 percent.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Miller.
    Mr. Miller.  To continue along those lines, the outhouse is 
reminiscent of the $700 toilet seat problem, so we can 
understand where the problem is coming from. But I would like 
to get a little better explanation, if we went back to revisit 
that issue, should it not have been built at all? I mean, how 
did it get out of hand?
    Mr. Galvin. I think I just answered that question, and I 
reviewed the plans, the specs, the bidding history. I think 
given the nature of the site, the most economical solution 
would simply have been not to build any facility up there but 
to stick with the chemical toilet.
    Now, there was more than a toilet built on this job. There 
is a 25-car parking area, there was demolition of some previous 
structures, there was construction of some trail fences, and so 
it wasn't strictly the composting toilet. The reason for the 
composting toilet was that the site wouldn't perk. You could 
not have a sewage--there is no water and sewer at this site, so 
you couldn't have a septic system or a drain field here. It is 
solid rock.
    Mr. Miller.  So your answer is that we couldn't avoid the 
costs?
    Mr. Galvin. We certainly could have avoided some of these 
costs. The question is, how much do you want to pay for this 
kind of facility? It is my judgment that you would have paid 
over $100,000 for almost any facility because of the site, the 
location, the lack of utility, et cetera. So if $330,000 is too 
much and we could have gotten it down to $150,000, that 
probably still would have been too much.

                      Davis-Bacon Compliance Costs

    Mr. Miller.  In previous panels I asked the question 
about--in fact the gentleman reported about the cost of 
government regulations, for example, Davis-Bacon. In Yosemite, 
I guess the Park Service estimated $65,000 more per house 
because, of Davis-Bacon, compliance, and that was the biggest 
issue in their report as far as the total cost overrun. How 
much of a problem is it? Is that a real number? They said it 
came from the Park Service. Are you familiar with that number? 
A $65,000 or a 200 percent increase is just unbelievable.
    Mr. Clapper. Those figures were developed by folks in the 
Denver Service Center, and they are our best estimate of what 
it really cost as far as Davis-Bacon compliance on any given 
contract.
    Mr. Miller. Unbelievable, that it would be 200 percent 
more. Is it just that the wage rates are different, or is it 
that Federal Government requirements discourage a lot of 
contractors from participating because of all the other 
regulations and the paperwork I have heard of, documentation? 
So a lot of people that can build single family homes, it is 
not the same, you know, as huge contractors that build 
commercial projects, but we can't take advantage of them 
necessarily, the local contractors in the Yosemite area; is 
that right? Is that a problem?
    Mr. Clapper. In the sense of taking advantage of local 
contractors, I mean the local contractors as well as 
contractors from----
    Mr. Miller. But because of the Federal regulations, they 
don't bid as much; is that correct or not?
    Mr. Clapper. That is, in general, true. There are a number 
of contractors that do not want to get involved in government 
contracts because they know the number of rules and 
regulations, the amount of paperwork involved. We also use, as 
another way of attracting competent contractors, the small 
business program. So we do use 8(a) small business firms to 
accomplish a lot of this.
    Mr. Miller. A lot of other Federal agencies don't have the 
same problem. The Forest Service, because of their remote 
locations, has some added costs. My understanding is that they 
don't have the----
    Mr. Clapper. I really can't speak to the problems that the 
Forest Service does or doesn't have in that arena.
    Mr. Galvin. Nor can I, but one difference is that we have, 
and it was alluded to in earlier testimony, much more 
infrastructure: 16,000 permanent buildings, 300 major water and 
sewer systems. I mean, the infrastructure in national parks 
tends to be more intense than in forest areas or BLM.

                   Delaware water gap comfort station

    Mr. Miller. Back to the original question on the outhouse, 
if you had to go back and revisit the issue, would you have 
recommended not building one at all?
    Mr. Galvin. Based on my review, if economy was the end 
result sought, yes, I would recommend that it not be built.
    Mr. Miller. It should be a factor, economy, right? I mean, 
it is not the only factor.
    Mr. Galvin. There are other factors, as well. Do you want 
permanent facilities in national parks, and what is the trade-
off? I mean, there are quality decisions and others that have 
to be balanced with the cost.
    Mr. Stanton. And as Mr. Galvin mentioned, we are answering 
that question more directly with respect to our new process, if 
you will, that calls for value assessment of every project, and 
that hard question has to be answered satisfactorily to the 
ultimate decisionmakers as to whether or not that project is 
going to proceed, and then what is the logical alternative. Do 
we want to serve the function, but perhaps do a different 
approach to it?
    Mr. Miller. Okay. Well, I hope the changes you are 
advocating help accomplish the goals that we all want to 
accomplish.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Skaggs?
    Mr. Skaggs. Thank you, Mr. Chairman. Good afternoon, Iguess 
it is at this point. Mr. Stanton, I suspect you regret more than I do 
that the occasion for your first appearance before the subcommittee in 
your new capacity is this one, but----
    Mr. Stanton. An opportunity, sir.
    Mr. Skaggs. Congratulations on your new post. We are glad 
to see you there.
    Mr. Stanton. Thank you kindly. Thank you very much.

                          grand canyon housing

    Mr. Skaggs. Let me take the risk of focusing on the Grand 
Canyon housing example and whether we can really parse that out 
in a way that helps us all understand both the legitimate and, 
if you will, the illegitimate aspects of this problem, because 
it seems to me the outhouse is a one-of-a-kind thing and we 
don't learn a heck of a lot from that, and the Yosemite number 
is skewed because of this Davis-Bacon thing which may or may 
not be a real number. I find it impossible to believe, as well.
    But looking at the IG's report on page 14, we have a total 
figure of $15,444 that is attributable, based on Park Service 
numbers, as I understand it, attributable to the unique aspects 
of this as housing units being constructed in this site with 
Federal requirements. Do you have any disagreement with the 
accuracy of that $15,444 attributable to this being a house 
being built where it was?
    Mr. Galvin. Those figures on page 14 are what the IG agreed 
to in the letters from the Park Service and the appendix. Other 
costs were suggested and rejected by the IG.
    Mr. Skaggs. So you disagree with that number. What number 
would you put there?
    Mr. Galvin. In the appendix, with respect to page 56, we 
suggested differences of $236,000 for Yosemite houses----
    Mr. Skaggs. And $90,493 for--no, wait a second. Those are 
all Yosemite, the revised table for Yosemite. Again, I am 
trying to focus just on Grand Canyon.
    Mr. Galvin. Okay. Grand Canyon, it is not quite tabulated 
the same way.
    Mr. Skaggs. I see something on the bottom of page 58, the 
top of page 59.
    Mr. Galvin. Yes. That is not actually the differences; this 
is just the comments on the way the IG aggregated costs.
    The letter from the park on page 52 is the comment with 
respect--from the park, it is a comment with respect to the 
cost comparisons. Let me just kind of generally characterize 
what we think are the differences. We have already talked about 
the Davis-Bacon wage rates, a cost that is difficult to 
quantify due to its remoteness.
    I lived at Grand Canyon. I lived at Grand Canyon for 4 
years. It is 58 miles to Williams and it is 100 miles to 
Flagstaff. There is not much housing in Williams. The nearest 
practical place to build--to get housing in the private sector 
really would be Flagstaff, which is 100 miles away. Grand 
Canyon also is solid rock, so any excavation is going to cost 
you extra money.
    We find those factors inflate our unit costs for all 
construction, not just housing construction, in parks like 
Grand Canyon.
    Mr. Skaggs. Well, let me interrupt, if I may. Again, our 
time is limited.
    Would you supply for the record what you believe to be a 
legitimate, reasonable additional cost attributable to, on a 
per-house basis, attributable to these homes built at Grand 
Canyon?
    Mr. Galvin. Yes.
    Mr. Stanton. Certainly.
    [The information follows:]

 GRAND CANYON NATIONAL PARK HOUSING--COMPARISON OF COSTS ATTRIBUTABLE TO
                           SPECIAL CONDITIONS                           
------------------------------------------------------------------------
                                                  Expenses     Expenses 
                                                 estimated    estimated 
                                                 by Office      by the  
  Description of specialized Federal expenses      of the      National 
                                                 Inspector       Park   
                                                General \1\  Service \2\
------------------------------------------------------------------------
Davis-Bacon wages.............................            0  ...........
Buy American Act..............................            0            0
Archeological Studies.........................            0            0
Endangered Species Act........................            0            0
Remote location...............................     9,198.00    26,000.00
Unusual site conditions.......................            0    15,600.00
Requirements of Small Business Administration                           
 Minority Program.............................            0            0
Americans with Disabilities Act \3\...........     2,646.00    11,000.00
Fire suppression \3\..........................     3,600.00            0
Energy package................................            0     7,000.00
Contracts with utility companies..............            0    13,500.00
                                               -------------------------
    Total.....................................    15,444.00    73,100.00
------------------------------------------------------------------------
\1\ Per unit costs from Table 4, December 11, 1996 Final Inspector      
  General Report, ``Cost of Construction of Employee Housing at Grand   
  Canyon and Yosemite National Parks.''                                 
\2\ Per unit costs from Denver Service Center, Paper, 10/9/97.          
\3\ DSC estimate combined for costs attributed to Americans with        
  Disabilities Act and Fire Suppression.                                

    Mr. Skaggs. Because our outrage at this derives from 
comparing $390,000 or whatever it is, $388,000 average cost 
there with what we are told is the average cost of a house 
available nearby or on the commercial market.
    Now, if our outrage is misplaced, I would like to know 
about it and understand why it is. If it isn't, then we need to 
come to terms with that, but we are still kind of dancing 
around the reason that we are here today.
    Mr. Stanton. Sure.
    Mr. Galvin. There is clearly a difference. There is a 
disagreement among people of goodwill about how much difference 
there is. It costs you more to build in Grand Canyon or 
Yosemite than it does in Williams or----
    Mr. Skaggs. Based upon the real factors that need to be 
built in for this, what could we have built these houses for at 
Grand Canyon if we had done a better job of it?
    Mr. Galvin. I think the principal cost-savings there 
probably would have resulted from building more multi-unit 
housing and not exclusively single-family housing.
    Mr. Skaggs. Again, you are going to oranges and I want to 
stay with apples. We built these houses, we built them for an 
average of $390,000 each. All of us think that that is too high 
for a single-family residence under these circumstances. We may 
be wrong. What do you think it should have cost to build these 
same houses if we had been doing things better?
    Mr. Clapper. We could do the same thing, as Mr. Galvin 
suggested, for the Raymondskill comfort station. We could go 
back and look at the roofing materials that were used, the 
exterior finishes, the interior finishes, the amount of site 
work, the amount of--there were fences constructed around, 
decks constructed around the houses in Grand Canyon. We could 
go back and look at those. But you still get to the same bottom 
line, that you can take a certain percentage, 10 to 15 
percentage points off of the cost, but you still may or may not 
get down to what is an acceptable cost figure, but you can go--
you can do that.
    Mr. Skaggs. And why was that not done?
    Mr. Galvin. Well, I--we--Mr. Wamp, I believe, talked about 
life cycle costing earlier, and Yosemite, the IG study was on 
the last 2 contracts at Yosemite. There were actually 5 
contracts starting in 1989 to build a variety of housing at 
Yosemite.
    Mr. Skaggs. Again, I really--I am really dense on this. Can 
we just stay with Grand Canyon where we don't have the huge 
Davis-Bacon discrepancy to worry about?
    Mr. Galvin. There are trade-offs between first cost and 
life cycle. As an example, if you are building for 50 years, 
concrete tile roof is more cost-effective than asphalt shingle 
roof, because you are probably going to replace those asphalt 
shingles 2 or 3 times. Calculations like that are done in terms 
of selecting siding, in terms of selecting roofing, in terms of 
energy efficiency, to see if over the life of the facility, 
whatever it is, they make sense over a 50-year period.
    Mr. Skaggs. Okay. Then, I mean, given the effort to factor 
all of this in and staying away from the question of whether 
you should have been building multi-family or cluster rather 
than single-family, if we are going to build single-family, is 
it your testimony that this was the most cost-effective way of 
spending taxpayers' money to build single-family?
    Mr. Galvin. No, I don't believe so. I don't think we can 
say that, because we need to look, as people said earlier, we 
need to look at standard designs that probably would save us at 
least design cost. I am not sure what it does on the ground 
when you bid the job, but clearly, you know, we need to make 
improvements in the program. We have made improvements. 
Director Stanton has directed further improvements on what is 
in the pipeline right now, and we intend to improve.

                    review of construction contracts

    Mr. Skaggs. Can I make one other observation, Mr. Chairman?
    Mr. Stanton, I appreciate your willingness to put yourself 
on the line. I just raise a question, and I am not sure of the 
answer to it. I am not sure it is a good use of your time to 
personally review every construction contract that the Park 
Service lets, as you have said in your testimony.
    Mr. Stanton. I appreciate that very much, Mr. Skaggs, but 
it hopefully will sharpen my familiarity with the manner in 
which the projects have been analyzed prior to reaching that 
point. We award, through the Denver Service Center, 
approximately 50 contracts per year, so depending on the 
complexity of the project, there may not be a heavy workload. I 
would not anticipate the continuation of that commitment with 
my personally reviewing the contracts before they are awarded.
    However, I need to reexamine the way in which that 
authority has been delegated to the region and to the parks, 
and certainly the contracts awarded by Denver Service Center, 
so that when I make the commitment that only yours truly is 
accountable, that I am comfortable in terms of how the 
organization functions and how it is in fact administering the 
responsibility before we stop delegating.
    Mr. Skaggs. We are having so much fun doing this, you may 
want to give it up.
    Mr. Regula. There may be a better way of doing this in 
light of today's conditions, and I will have questions on the 
Denver Center. But first, Mr. Wamp.

                             privatization

    Mr. Wamp. Thank you, Mr. Chairman. I hate to speak this 
way. Those who know me know that I try to maintain a civility 
surplus, but I have to say that the attitude that, ``I did 
nothing wrong, but I will never do it again'' has already 
happened once this year in this administration, and I think 
that is a problem, if the attitude is a defensive posture here.
    The other agencies have told us they use the same 50-year 
process for life cycle cost analysis, and it has been empirical 
today that they don't have these same costs. I recognize that 
there is a difference in construction inregions, in rock and 
excavation and all of that, but I think that it is fundamental that you 
recognize that you got to do a better job when we have a conference 
report that we adopted that said, basically, ``Clean up your act, or we 
are going to have a problem funding you in the future.'' Please don't 
take the position that, ``But we can defend every single line.'' I 
think some of this is indefensible, some of it is explainable, and you 
need to separate the two.
    My question is--another Member, Mr. Dicks, is also on the 
Military Construction Subcommittee--what about this issue of 
privatization? I really was surprised to find out, as I joined 
the Military Construction Subcommittee, that DOD, of all 
agencies, was allowing private contractors to build military 
housing on military installations and lease back those 
facilities to the Department of Defense on a 20-year basis. 
That is a very creative way of holding your costs down and 
making sure that free market principles drive government 
costing of infrastructure, particularly with housing.
    I know some of this is specialized housing and so you have 
to maintain control, but we have to involve the private sector. 
That really strikes at the heart of your service center. When 
you have all of those employees, that is an awful lot of 
overhead. I have yet to see a government agency that can 
actually staff itself and do a more efficient job than the free 
market if the private sector is allowed to thrive.
    So just answer that. If the Department of Defense can 
privatize some of its housing on a test basis successfully, why 
can't the Department of the Interior?
    Mr. Stanton. I appreciate the question, sir. Congress has, 
in fact, given us that authority. However, there is a 
prerequisite, prerequisite to the use of that authority.
    The first prerequisite is to make a determination as to 
what our housing requirements are, and once we have satisfied 
that, then we can exercise the authority given to us to enter 
into a partnership with the private sector for profit, or for a 
nonprofit organization to establish their capital to develop 
housing. But they need to develop housing based against an 
agency need that is critical to the mission, and that is the 
first order of business, but that authority is granted. I 
appreciate that.
    Mr. Regula. If you will yield, in 1993 the response from 
the Park Service was, ``We are exploring private housing.'' In 
1995, the response was, ``The thrust of our efforts will be to 
explore opportunities for involving private sector funds.'' So 
this idea has been around, but your point is that nothing is 
happening.
    Mr. Galvin. One of the problems in terms of getting a 
private--and we have explored opportunities at Rocky Mountain, 
at Big Bend, at Yosemite many years ago--of getting a private 
developer to build us housing has been the cash flow isn't 
there. Our rents are so low that it doesn't justify a developer 
in making the investment to build a house.
    Mr. Regula. Are your rents low because they are tied to the 
salary of the employees?
    Mr. Galvin. They are not exactly tied to the salary, but 
they are based on housing surveys done in metropolitan areas 
and then they are reduced by a number of factors. It is not 
done by the Park Service, it is done on a department-wide 
basis. The military, and I am quite familiar with that, they 
live on the Presidio, can subsidize their own employees, and 
that is the way the developers swing the numbers.

                           davis-bacon issues

    Mr. Wamp. One other quick observation, Mr. Chairman, and 
too, like Mr. Skaggs, I think it is instructive for us to keep 
a difference between--maintain a difference between the Davis-
Bacon issue and the cost of construction issue, but I am 
puzzled about Davis-Bacon. I now have heard, just in my short 3 
years, Housing and Urban Development complain about the cost 
that Davis-Bacon imposes on their ability to do their job 
efficiently. I have heard the Department of Defense, the 
Department of Interior and the Department of Energy do it, yet 
this administration which oversees all of those agencies 
continues to defend the existence of Davis-Bacon.
    So while we are talking about dollars and cents and economy 
and efficiency and reinventing government and all of those neat 
things that we try to do here, let us recognize that some of 
the things that this administration supports are actually part 
of the problem, like Davis-Bacon, which needs an overhaul for a 
variety of reasons, and I think we have been thwarted in our 
attempts to even clean up Davis-Bacon laws at just about every 
juncture. I yield back.

                    park-by-park housing assessment

    Mr. Nethercutt. I wish you the best of luck in your new 
effort, and I sense a different commitment than we may have 
heard from Park Service here in the past, even though I think 
we have heard a lot of the same things over and over again.
    I missed your opening statement, sir, and I am sorry. I am 
informed that you are committing to a park-by-park review of 
housing needs within 12 months; is that correct?
    Mr. Stanton. That is correct. We have, I believe, 121 parks 
that have 5 or more housing units, and that will obviously be 
our initial concentration.
    Mr. Nethercutt. Do you think it will take 12 months to do 
that?
    Mr. Stanton. I am hopeful that we can beat that, sir, but 
in terms of commitment, less than a year.

                      contracting out for services

    Mr. Nethercutt. Well, that is great. I will probably be 
here in a year, I hope, and so I will be able to ask you the 
questions in follow up.
    Mr. Galvin was here in April, and at that time we had a 
chance to talk about this issue of construction costs and 
contracting out and housing and so forth. We have heard from 
other land management agencies that they attempt to locate 
employees in the community, and if they are going to build 
something or provide services to an employee they try to do so 
out of the private sector, to save some money.
    I am wondering, whoever wants to answer it, to what extent 
is the Park Service in compliance with OMB circular A-76 that 
addresses commercial activities? Does anybody care to take a 
shot at that?
    Mr. Galvin. We were very active in A-76 some years ago. In 
fact, the Denver Service Center went to bid on several 
activities. This was now in the 1980s. The administration has 
not placed much emphasis on A-76 until recently. We are 
beginning to get back into the process. It is a process that 
principally impacts on maintenance in the parks, and we are 
discussing actively with the department and with OMB selecting 
some activities to go to bid on.
    Mr. Nethercutt. That sounds reminiscent of the testimony 
that we heard in April. I happen to think that with the backlog 
that you have in maintenance, that you ought to look at 
everything you can to save some money and employ every 
opportunity to save money so that you can meet your maintenance 
needs, so I am asking if you would be willing to put into the 
record your most recent filing of Circular A-76 commercial 
activities inventory for the Park Service.
    Mr. Stanton. Yes. We have a relatively recent one.
    [The information follows:]

         NATIONAL PARK SERVICE--INVENTORY OF COMMERCIAL ACTIVITIES--OMB CIRCULAR NO. A-76, DECEMBER 1996        
----------------------------------------------------------------------------------------------------------------
                                                                                                          Post- 
                                                                           FTE    Annual $   Year cost     MEO  
  Functional code--location/organization     FTE       Reason code*      savings   savings  compared or   review
                                                                                             conversion    date 
----------------------------------------------------------------------------------------------------------------
S--Installation services:                                                                                       
    S709--Custodial Services:                                                                                   
        Independence NHP, Phila., PA.....    19.6  E \1\                 .......  ........    1986/1987     1999
        Geo. Wash. Mem. Pkwy, McLean, VA.       7  A                     .......  ........  ...........  .......
        Colonial NHP, Yorktown, VA.......       4  E                     .......  ........         1996     1999
        Blue Ridge Pkwy, NC/VA...........     4.7  A                     .......  ........  ...........  .......
        Nat'l Capital Parks-Central,            7  A                     .......  ........  ...........  .......
         Wash., DC.                                                                                             
        Nat'l Capital Parks-East, DC/MD..       4  E                     .......  ........         1992  .......
        Sequoia Kings Canyon NP, CA......    9.63  A                     .......  ........  ...........  .......
        Lake Mead NRA, NV/AZ.............       1  A                     .......  ........  ...........  .......
        Natchez Trace Pkwy, MS/AL/TN.....       0  ....................      3.5    17,400         1996  .......
        Shenandoah NP, Luray, VA.........     2.9  E                           1    20,000         1996  .......
        Gateway NRA, NY/NJ...............     6.9  A                     .......  ........  ...........  .......
        Yellowstone, WY/MT/ID............     6.1  A                     .......  ........  ...........  .......
        Yosemite, CA.....................   12.25  D/E \1\               .......  ........    1984/1986     1999
        Mt. Rainier NP, Ashford, WA......       5  E                     .......  ........         1994  .......
        Golden Gate, San Fran., CA.......       4  E \3\                 .......  ........         1996  .......
        Presidio, San Fran., CA..........       1  E \3\                 .......  ........         1996  .......
        Great Smoky Mtns. NP, TN/NC......      36  D \1\                 .......  ........  ...........     1999
    S717--Motor Vehicle Maint.:                                                                                 
        Independence NHP, Phila., PA.....       1  A                     .......  ........  ...........  .......
        Olympic NP, Port Angeles, WA.....       5  E                     .......  ........         1984  .......
        Grand Canyon NP, AZ..............       8  A                     .......  ........  ...........  .......
        Great Smoky Mtns., NP, TN/NC.....      35  D \1\                 .......  ........  ...........     1999
        Geo. Wash. Mem. Pkwy, McLean, VA.       6  A                     .......  ........  ...........  .......
        Colonial NHP, Yorktown, VA.......       2  E                           1    18,285         1996     1999
        Rock Creek Park, Wash., DC.......       1  A                     .......  ........  ...........  .......
        Blue Ridge Pkwy, NC/VA...........     7.8  A                     .......  ........  ...........  .......
        Nat'l Capital Parks-Central,           15  D \1\                 .......  ........  ...........     1999
         Wash., DC.                                                                                             
        Nat'l Capital Parks-East, DC/MD..       6  A                     .......  ........  ...........  .......
        Sequoia Kings Canyon NP, CA......    6.08  A                     .......  ........  ...........  .......
        Natchez Trace Pkwy MS/AL/TN......       2  A                     .......  ........  ...........  .......
        Lake Mead NRA NV/AZ..............       3  A                     .......  ........  ...........  .......
        Shenandoah NP Luray, VA..........     4.9  E                           1     5,000    1990/1996  .......
        Gateway NRA NY/NJ................     7.6  A                     .......  ........  ...........  .......
        Yellowstone WY/MT/ID.............    18.5  D/E \1\ \3\           .......  ........   1984/86/96     1999
        Yosemite CA......................   11.23  D/E \1\               .......  ........    1984/1986     1999
        Golden Gate San Fran., CA........       3  A                     .......  ........  ...........  .......
        Presidio San Fran., CA...........       1  E                     .......  ........         1996  .......
        Great Smoky Mtns. NP TN/NC.......       4  A                     .......  ........  ...........  .......
        Grand Canyon NP AZ...............       5  A                     .......  ........  ...........  .......
        Olympic NP Port Angeles, WA......       4  E                     .......  ........         1984  .......
    S718--Fire Prev. & Protection:                                                                              
        Presidio San Fran., CA...........      36  F                     .......  ........  ...........  .......
    S726--Heating Plants Sys.:                                                                                  
        Independence NHP Phila., PA......    11.6  D \1\                 .......  ........  ...........     1999
        Geo. Wash. Mem. Pkwy McLean, VA..       2  A                     .......  ........  ...........  .......
        Colonial NHP Yorktown, VA........       4  A                     .......  ........  ...........  .......
        Rock Creek Park, Wash., DC.......       1  A                     .......  ........  ...........  .......
        Nat'l Capital Parks-Central             1  E                           2    29,000         1996     1999
         Wash., DC.                                                                                             
        Nat'l Capital Parks-East DC/MD...       1  E                     .......  ........         1988  .......
        Sequoia/Kings Canyon NP, CA......       1  A                     .......  ........  ...........  .......
        Shenandoah NP Luray, VA..........     2.0  A                     .......  ........  ...........  .......
        Gateway NRA NY/NJ................     6.3  A                     .......  ........  ...........  .......
        Mt. Rainier NP, Ashford, WA......       2  A                     .......  ........  ...........  .......
        Yosemite CA......................       4  A                     .......  ........  ...........  .......
        Yellowstone WY/MT/ID.............     2.6  E \3\                 .......  ........   1984/86/96  .......
        Presidio San Fran., CA...........       3  E\3\                  .......  ........         1996  .......
        Great Smoky Mtns. NP TN/NC.......       3  A                     .......  ........  ...........  .......
        Grand Canyon NP AZ...............       2  A                     .......  ........  ...........  .......
    S727--Water Plants and Systems:                                                                             
        Yellowstone WY/MT/ID.............    12.4  D/E \1\               .......  ........    1984/1986     1999
        Blue Ridge Pkwy, NC/VA...........     7.4  A                     .......  ........  ...........  .......
        Nat'l Capital Parks-East DC/MD...       1  A                     .......  ........  ...........  .......
        Sequoia Kings Canyon NP, CA......    5.55  A                     .......  ........  ...........  .......
        Lake Mead NRA NV/AZ..............       9  A                     .......  ........  ...........  .......
        Shenandoah NP Luray, VA..........     2.6  A                     .......  ........  ...........  .......
        Mt. Rainer NP Ashford, WA........     3.5  A                     .......  ........  ...........  .......
        Yosemite CA......................    17.5  D\1\                  .......  ........  ...........     1999
        Presidio San Fran., CA...........       4  E                     .......  ........         1996  .......
        Great Smoky Mtns. NP TN/NC.......       3  A                     .......  ........  ...........  .......
        Olympic NP Port Angeles, WA......       5  E                     .......  ........         1984  .......
    S728--Sewage and Waste Plants:                                                                              
        Sequoia Kings Canyon NP, CA......    5.56  A                     .......  ........  ...........  .......
        Blue Ridge Pkwy, NC/VA...........     2.6  A                     .......  ........  ...........  .......
        Natchez Trace Pkwy MI/AL/TN......       0  ....................        1    10,300         1996  .......
        Shenandoah NP Luray, VA..........     7.2  A                     .......  ........  ...........  .......
        Gateway NRA NY/NJ................    12.5  D\1\                  .......  ........  ...........     1999
        Mt. Rainier NP Ashford, WA.......     3.5  A                     .......  ........  ...........  .......
        Yellowstone WY/MT/ID.............     9.3  A                     .......  ........  ...........  .......
        Yosemite CA......................    27.7  D\1\                  .......  ........  ...........     1999
        Golden Gate San Fran., CA........       1  A                     .......  ........  ...........  .......
        Olympic NP Port Angeles, WA......       6  E                     .......  ........         1984  .......
        Great Smoky Mtns. NP TN/NC.......       3  A                     .......  ........  ...........  .......
        Grand Canyon NP AZ...............      12  D\1\                  .......  ........  ...........     1999
    S730--Other Utilities:                                                                                      
        Independence NHP Phila., PA......       2  A                     .......  ........  ...........  .......
        Blue Ridge Pkway, NC/VA..........     1.5  A                     .......  ........  ...........  .......
        Nat'l Capital Parks-Central             0  ....................      4.5  ........         1996  .......
         Wash., DC.                                                                                             
        Nat'l Capital Parks-East Wash.,       1.5  A                     .......  ........  ...........  .......
         DC.                                                                                                    
        Sequoia Kings Canyon NP, CA......    2.44  A                     .......  ........  ...........  .......
        Lake Mead NRA NV/AZ..............       1  A                     .......  ........  ...........  .......
        Natchez Trace Pkwy MS/AL/TN......     1.6  A                     .......  ........  ...........  .......
        Shenandoah NP Luray, VA..........     2.2  A                     .......  ........  ...........  .......
        Mt. Rainier NP Ashford, WA.......       9  A                     .......  ........  ...........  .......
        Yellowstone WY/MT/ID.............    24.4  D/E \1\               .......  ........    1984/1986     1999
        Yosemite, CA.....................   12.46  D/E \1\                   4.1    35,000   1984/86/96     1999
        Golden Gate San Fran., CA........       2  E \3\                 .......  ........         1996  .......
        Presidio San Fran., CA...........       6  E \3\                 .......  ........         1996  .......
        Olympic NP Port Angeles, Wash....       3  A                     .......  ........  ...........  .......
        Great Smoky Mtns. NP Tenn./N.C...       2  E                     .......  ........         1975  .......
    S732--Warehousing and Distribution:                                                                         
        Independence NHP Phila., PA......       4  A                     .......  ........  ...........  .......
        Rock Creek Park, Wash., DC.......       1  A                     .......  ........  ...........  .......
        Shenandoah NP Luray, VA..........     1.5  A                     .......  ........  ...........  .......
        Gateway NRA NY/NJ................     3.0  A                     .......  ........  ...........  .......
        Yellowstone WY/MT/ID.............     4.0  A                     .......  ........  ...........  .......
        Yosemite CA......................     3.9  A                     .......  ........  ...........  .......
T--Other non-manufacturing operations:                                                                          
    T804--Architect-Engineering:                                                                                
        NPS Denver, CO...................     325  A                     .......  ........     MEO 1986     1995
    T806--Printing & Reprod.:                                                                                   
        NPS Denver, CO...................       6  E                     .......  ........         1984  .......
    T808*--Mapping & Charting:                                                                                  
Z--Maintenance, repair, alteration and                                                                          
 minor construction of real property:                                                                           
    Z991--Family Housing Buildings:                                                                             
        Independence NHP Phila., PA......     0.5  A                     .......  ........  ...........  .......
        Colonial NHP Yorktown, VA........       2  A                     .......  ........  ...........  .......
        Blue Ridge Pkwy, NC/VA...........     2.6  E                     .......  ........         1985     1999
        Sequoia Kings Canyon NP CA.......    4.34  A                     .......  ........  ...........  .......
        Lake Mead NRA NV/AZ..............       3  A                     .......  ........  ...........  .......
        Natchez Trace Pkwy MS/AL/TN......     1.5  A                     .......  ........  ...........  .......
        Shenandoah NP Luray, VA..........     1.8  A                     .......  ........  ...........  .......
        Gateway NRA NY/NJ................     6.5  A                     .......  ........  ...........  .......
        Mt Rainer NP Ashford, WA.........     3.5  E                           1    60,000         1996  .......
        Yellowstone WY/MT/ID.............    25.0  D/E \1\\3\            .......  ........   1984/86/96     1999
        Yosemite CA......................   16.84  D\1\                  .......  ........  ...........     1999
        Golden Gate San Fran., CA........       4  E \3\                 .......  ........         1996  .......
        Presidio San Fran., CA...........      15  D/E \1\\3\F           .......  ........         1996     1999
        Grand Canyon NP AZ...............       5  A                     .......  ........  ...........  .......
        Olympic NP Port Angeles, WA......       2  A                     .......  ........  ...........  .......
        Great Smoky Mtns. NP TN/NC.......       2  E                     .......  ........    1984/1986  .......
    Z992--Other Than Family Housing:                                                                            
        Independence NHP Phila., PA......     2.5  A                     .......  ........  ...........  .......
        Geo. Wash. Mem. Pkwy, McLean, VA.       8  A                     .......  ........  ...........  .......
        Colonial NHP Yorktown, VA........       6  A                     .......  ........  ...........  .......
        Rock Creek Park Wash., DC........       2  A                     .......  ........  ...........  .......
        Blue Ridge Pkwy NC/VA............     7.5  E                     .......  ........         1985     1999
        Nat'l Capital Parks-Central Wash,       6  A                     .......  ........  ...........  .......
         DC.                                                                                                    
        Nat'l Capital Parks-East DC/MD...      26  D \1\                 .......  ........  ...........     1999
        Sequoia Kings Canyon NP, CA......   14.66  D \1\                 .......  ........  ...........     1999
        Lake Mead NRA NV/AZ..............      22  D\1\                  .......  ........  ...........     1999
        Natchez Trace Pkwy MS/AL/TN......     7.8  A                     .......  ........  ...........  .......
        Shenandoah NP Luray, VA..........     4.3  A                     .......  ........  ...........  .......
        Gateway NRA NY/NJ................    18.3  D\1\                  .......  ........  ...........     1999
        Mt Rainer NP Ashford, WA.........       6  A                     .......  ........  ...........  .......
        Yellowstone WY/MT/ID.............    25.6  D/E \1\ \3\           .......  ........   1984/86/96     1999
        Yosemite CA......................   13.61  D\1\                  .......  ........  ...........     1999
        Golden Gate San Fran., CA........      21  D/E\1\ \3\            .......  ........    1984/1996     1999
        Presidio San Fran., CA...........      10  D/E\1\ \3\F           .......  ........         1996     1999
        Great Smoky Mtns. NP TN/NC.......       6  E                     .......  ........    1984/1986  .......
        Olympic NP Port Angeles, WA......       8  A                     .......  ........  ...........  .......
        Grand Canyon NP AZ...............      15  D/E \1\               .......  ........         1984     1999
    Z993--Grounds & Surfaced Areas:                                                                             
        Independence NHP Phila., PA......    16.7  D\1\                  .......  ........  ...........     1999
        Geo. Wash. Mem. Pkwy McLean, VA..      37  E                          15   247,812    1984/1996     1999
        Colonial NHP Yorktown, VA........      14  D \1\                 .......  ........  ...........     1999
        Rock Creek Park, Wash., DC.......      40  D \1\/E                     2   $36,570         1996     1999
        Blue Ridge Pkwy NC/VA............    71.8  D \1\E                    3.4  ........         1994     1999
        Nat'l Capital Parks-Central            96  D \1\                 .......  ........  ...........     1999
         Wash., DC.                                                                                             
        Nat'l Capital Parks-East.........      72  D \1\                 .......  ........  ...........     1999
        Yosemite CA......................   82.54  D/E \1\               .......  ........    1984/1986     1999
        Sequoia Kings Canyon NP, CA......    23.1  D \1\/E               .......  ........         1984     1999
        Lake Mead NRA NV/AZ..............      20  D \1\/E               .......  ........         1984     1999
        Natchez Trace Pkwy MS/AL/TN......    54.6  D \1\/E               .......  ........         1986     1999
        Shenandoah NP Luray, VA..........    22.6  D \1\/E                   0.1     2,000         1996     1999
        Gateway NRA NY/NJ................    45.4  D \1\/E               .......  ........         1984     1999
        Mt. Rainier NP Ashford, WA.......      13  E                     .......  ........         1996     1999
        Yellowstone WY/MT/ID.............    15.1  D/E \1\ \3\           .......  ........   1984/86/96     1999
        Golden Gate San Fran., CA........      54  D/E \1\ \3\           .......  ........         1996     1999
        Presidio San Fran., CA...........      24  D/E\1\ \3\/F          .......  ........         1996     1999
        Grand Canyon NP AZ...............      36  D/E \1\               .......  ........         1984     1999
        Great Smoky Mtns. NP TN/NC.......      57  D \1\                 .......  ........  ...........     1999
        Olympic NP Port Angeles, WA......      22  E \1\                 .......  ........         1984     1999
    Z999--Other Maint.:                                                                                         
        Independence NHP Phila., PA......    17.1  D \1\                 .......  ........  ...........     1999
        Blue Ridge Pkwy NC/VA............     6.1  D \1\                 .......  ........  ...........     1999
        Lake Mead NRA NV/AZ..............      19  D \1\                 .......  ........  ...........     1999
        Nat'l Capital Parks-Central           107  D \1\/E                     6  ........         1996     1999
         Wash., DC.                                                                                             
        Nat'l Capital Parks-East DC/MD...    14.5  D \1\                 .......  ........  ...........     1999
        Sequoia Kings Canyon NP, CA......    9.56  D \1\/E               .......  30,000 \         1995     1999
                                                                                        2\                      
        Natchez Trace Pkwy MS/AL/TN......       3  A                           1  ........         1996  .......
        Shenandoah NP Luray, VA..........    11.8  D \1\                 .......  ........  ...........     1999
        Gateway NRA NY/NJ................    16.8  D \1\                 .......  ........  ...........  .......
        Yellowstone WY/MT/ID.............    72.9  D/E \1\ \3\           .......  ........   1984/86/96     1999
        Mt. Rainier NP Ashford, WA.......     9.5  A                     .......  ........  ...........  .......
        Yosemite CA......................   31.38  D/E \1\               .......  ........    1984/1986     1999
        Golden Gate San Fran., CA........       9  E \3\                 .......  ........         1996  .......
        Presidio San Fran., CA...........      31  D/E \1\ \3\/F         .......  ........         1996     1999
        Olympic NP Port Angeles, WA......       5  A                     .......  ........  ...........  .......
        Great Smoky Mtns, NP TN/NC.......      19  D \1\                 .......  ........  ...........     1999
        Colonial NHP Yorktown, VA........       8  E                     .......  ........         1984     1999
----------------------------------------------------------------------------------------------------------------
* The Denver Service Center (DSC) was identified as needing to respond also to commercial activities 807 and    
  808. Activity 807 is combined at DSC with 806. Activity 808 is not performed by DSC.                          
\1\ GPRA review currently underway.                                                                             
\2\ Previously contracted garbage converted from contract to in-house, resulting in $30,000 annual savings.     
\3\ Significant portions of these where cost-effective, contracted out in FY 96 by NPS at indicated locations.  
*A-76 Reason Codes--Code and Explanation:                                                                       
A--Indicates that the function is performed by Federal employees and is specifically exempt by the agency from  
  the cost comparison requirements of the Circular and this Supplement.                                         
B--Indicates that the activity is performed by Federal employees and is subject to the cost comparison or direct
  conversion requirements of the Circular and this Supplement.                                                  
C--Indicates that the activity is performed by Federal employees, but is has been specifically made exempt from 
  the provisions of the Circular and this Supplement by Congress, Executive Order or OMB.                       
D--Indicates that the function is currently performed by in-house Federal employees and is in the process of    
  being cost compared or converted directly to contract or interservice support agreement performance.          
E--Indicates that the function is performed in-house as a result of a cost comparison.                          
F--Indicates the function is currently being performed by Federal employees, but a review is pending force      
  restructuring decisions (base closure, realignment, consolidation, etc.).                                     
G--Indicates that the function is prohibited from conversion to contract because of legislation.                
H--Waiver issued.                                                                                               

    Mr. Nethercutt. If you were here earlier, and I believe you 
were, you may have heard me comment about the Secretary's 
engagement in this process. We have gone on for 5 years here in 
this administration. Mr. Stanton, if you were to meet with the 
Secretary of Interior and he said, ``I want this taken care of, 
and would you kindly pay attention to it and do it,'' I assume 
you would respond?
    Mr. Stanton. Yes, I would.
    Mr. Nethercutt. Positively, that is.
    Mr. Stanton. Very positively. I enjoy employment sir, yes.
    Mr. Nethercutt. Have you had a chance to talk to the 
Secretary about this, or had you before your----
    Mr. Stanton. Yes, in a broader sense. Shortly before being 
appointed I advised the leadership of the National Park Service 
again, specifically the 7 regional directors and the 5 
associates, that I wanted to have a meeting to focus solely on 
budget formulation, budget execution, with the overriding theme 
of accountability. Coincidentally, that meeting is this coming 
Friday, in which we will be discussing certainly the results of 
today's hearing, oversight hearing, as well as the concern that 
the Secretary has about maximizing the use of our resources to 
deliver a quality product, a quality service to the American 
public.
    Obviously, I will be entering into a more definitive 
contract with Secretary Babbitt with respect to my delivering 
on the assessment of the housing, delivering on our refinement 
of our plan and design. So he is committed to this, and I am 
committed to him and certainly to this committee and to 
Congress.

                        accountability standards

    Mr. Nethercutt. Well, I feel comfortable with you there and 
your commitment. I think you are perhaps the driving force in 
this whole objective of good accountability, so I congratulate 
you on that and your department. I think sometimes you have to 
push upwards and get somebody up above to take responsibility 
for what is happening down at another level.
    One final question: Would you look at, in your discussions 
in solving this problem in the weeks ahead, to setting up 
separate accountability standards and maybe exploring who is 
responsible for what? In other words, you get down to the 
$300,000 outhouse and you look at these major construction 
costs, it doesn't seem to me--and from what I have heard today, 
there is a lack of real accountability. In other words, it is 
your responsibility, whoever that is, and if you are out of 
compliance, then we are going to replace you or do something 
else.
    Mr. Stanton. I appreciate that, sir. In the report that we 
filed with Congress in 1995 in response to some of the 
questions, we did display, if you will, the flow of 
accountability in terms of the various organizational 
components. I think what is missing, quite candidly, is the 
oversight. It is one thing to assign, but to see whether or not 
that is followed through with is different. So my commitment is 
that there has to be follow-through, there has to be oversight 
to make sure that what we have committed ourselves to in terms 
of accountability is in fact taking place on the ground.
    Mr. Nethercutt. I think this committee will certainly hold 
you to and everybody else to that standard, and I congratulate 
you for it and wish you well.
    Mr. Regula. To raise your comfort level, Mr. Nethercutt, we 
will have follow-up hearings long before the year is up.
    Mr. Stanton. I was fearful of that.
    Mr. Regula. We will want progress reports here.
    Mr. Moran?

                 standardization of design requirements

    Mr. Moran. Mr. Chairman, first I want to make a suggestion 
to you. It seems to me that we may want to inquire of OMB why 
there is not more standardization in some of these areas that 
seem to beg for it.
    For example, the BLM, the Forest Service, the Fish and 
Wildlife Service--they do seem to have similar needs, similar 
housing needs. And yet the judgment call on the part of the 
Fish and Wildlife Service, the Forest Service or whatever, is 
quite different from the Park Service. They estimate, for 
example, that apparently if you have to drive a half-hour to 
get from home to your place of work, that is reasonable. The 
Park Service seems to disagree. There doesn't seem to be any 
standardization, but there does seem to be a difference in 
attitude.
    For a lot of the specific projects we are talking about 
here, again, it is a difference in attitude for areas that seem 
to have similar needs. For example, on this outhouse project, 
over $100,000 was for the cost of construction documents, two-
thirds of which was because they decided to do it in metric. 
Nobody could respond in metric, we wasted $70,000, and then 
they started all over again.
    Well, that is the kind of management decision for which, 
you know, there ought to be some standardization. One agency is 
trying to get points by promoting metric at the expense of the 
taxpayer, really. Other agencies exercise different judgment.
    Now, I know that this conflicts with the attitude of this 
Denver Service Center, and apparently you are not particularly 
defensive of it, Mr. Skaggs, so I can pursue this. They have a 
person, a supervisor on site, it looks as though there may even 
have been a deputy supervisor on site looking over the 
shoulders of these people constructing an outhouse. You have 
29-inch-thick foundation walls for an outhouse. That doesn't 
seem to be standardization. But this guy, Solen, says that--
well, here he is quoted in the case of comfort stations--``a 
standardized design might make them cheaper, but that is not 
the way the Park Service designers think.'' Mr. Solen, the 
recreation area's chief architect, says it has some merit for 
the military or McDonald's, but each national park has unique 
needs.
    Well, it seems to me that the need addressed by outhouses 
is not particularly unique. And so it seems to me we could have 
a certain amount of standardization. And it brings to mind the 
fact that the park that you have been responsible for before 
ascending to be the director of the National Park Service may 
be the most used national park in the whole registry of parks.
    You have built outhouses that--there is one at Belle Haven 
that must go through 1,000 visitors in a day, and this one, you 
are lucky if you get half a dozen an hour, and yet I am sure 
that the one that was built along the GW Memorial Parkway was 
considerably less expensive. I asked a staff person to get us 
that information so we can put that in therecord, but I think 
it is going to underscore the fact that there is a need for some 
standardization. If the needs are consistent, then the costs ought to 
be relatively consistent.
    [The information follows:]

 belle haven marina comfort station--george washington memorial parkway

    The Belle Haven Marina comfort station was constructed 
roughly 25 years ago using a standard design. Cost details from 
realty records listed in the NPS property system indicate that 
the facility was constructed in 1973 by Mechanner Construction 
at a cost of $44,259. However, similar facilities in the 
National Capital Region were constructed during the same time 
period for approximately $130,000. The structure incorporates 6 
commodes and 2 urinals.

    Mr. Moran. It appears to be inescapable here that we have a 
Denver Service Center with more than 500 employees, and perhaps 
winning design awards is a higher priority than saving 
taxpayers' money. The Denver Service Center might think that is 
unfair, but based upon the outcome, that is the only logical 
conclusion that one can draw. And you can be--I am more than 
happy to have you refute that, but gosh, these numbers that I 
was shown, this staffing for the Denver Service Center, whereas 
the Park Service has 507, actually fewer housing units, it 
appears, than either the Fish and Wildlife Service.
    There may be explanations. They are not immediately 
apparent. But I think the conclusion is, we ought to get some 
standardization, and maybe OMB ought to do that across the 
board for Federal agencies, and that would be my suggestion.
    Now you can address any of those comments that you would 
like, Mr. Director.
    Mr. Stanton. I appreciate that very much, Congressman 
Moran. With respect to standardization across agency lines, I 
think it has some merit with respect to how we can maximize on 
proven successes with respect to designs that meet the agency's 
needs but also that are cost-effective. Four land management 
agencies, including yours truly, we have agreed that we will 
meet as a minimum on a quarterly basis to compare and to share 
experiences: Mike Dombeck, Forest Service; Jamie Clark, Fish 
and Wildlife; and Pat Shea. We are of the current vintage, if 
you will, having been sworn in about the same period of time.
    So I will be bringing this as a topic for our next meeting, 
to discuss what are the possibilities of our learning from how 
the Park Service has approached their planning construction, 
BLM, Fish and Wildlife, and we will share our experience. And 
out of that, in terms of overall management of the public lands 
entrusted to the American people, there are perhaps some things 
that we can achieve, or working across again those 
organizational lines, so I appreciate that suggestion very 
much.

                     co-location of interior staff

    Mr. Clapper. Just to add a little bit to that, in the 
testimony by the BLM and the Fish and Wildlife Service earlier 
today, they mentioned that we are, the Denver Service Center of 
the National Park Service and the other two agencies are, co-
located in the same building in Denver, Colorado. And the 
primary focus behind that co-location is that we will see more 
sharing, more understanding, more common approaches to design 
and construction within parks.
    Mr. Moran. Okay. Good. Well, that is the conclusion of 
this. We look at these examples, and I think a couple of my 
colleagues have mentioned this outhouse, this $330,000 
outhouse; the $600 toilet seat that caused such procurement 
reform in the Defense Department. It seems that we need some 
procurement reform in these agencies, and I am glad, I think it 
was Zach that mentioned the buy-back provision, the leasing.
    As it turns out procurement reform has saved a lot of money 
but obviously there are going to be exceptions. Those 
exceptions probably ought to be cleared at the Secretary's 
level or the director's level. But wherever possible, it makes 
a lot more sense to have a private contractor build it, own it, 
and then lease it back from the contractor. If DOD can do it, 
it seems that we ought to look for opportunities for our land 
agencies and park agencies to be able to achieve comparable 
cost savings, because obviously it is apparent that this is 
going to come back--if we don't address this, it is going to 
come back to haunt you in the next appropriations bill, I 
suspect.
    Mr. Stanton. Sure.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Regula. A couple of questions.

                     denver service center overhead

    Mr. Clapper, I have had some question as to the structure 
that we have used thus far, and specifically regarding the 
Denver Service Center. One of the things that concerns me is 
that your budget is predicated on how much construction is done 
and how much it costs, because you are operating on a 
percentage or an overhead fee that is paid out of the 
construction contract. Well, obviously that creates a 
temptation to inflate costs because it inflates the amount of 
money flowing into your budget. How do you respond to that?
    Mr. Clapper. Since I have been director of the Service 
Center since 1994, I have made it a real effort to get to those 
kinds of issues. I have made a real effort, and you will see 
that in the strategic plan for the Denver Service Center, to 
reduce the costs of planning for facilities, to reduce the 
costs of construction supervision in parks, to make sure that 
we stay within time and budget constraints as far as the 
construction of facilities and parks.
    Mr. Regula. As part of that, could you use more private 
contract A&E? For example, in the comfort stations, the cost of 
the Denver Service Center services was over $100,000 on a 
$300,000 project, and you had an individual on the ground at 
$81,000 cost for about 12 months. Would it not be more 
efficient to--we have talked about privatization--to privatize 
some of the design supervision and the other elements in the 
construction contract?
    Mr. Clapper. I make no excuses for the design costs on the 
Delaware Water Gap comfort station. I would posit that that 
wouldn't happen in today's Denver Service Center, but it did 
happen, and those costs are high. There are reasons forsome of 
those high costs, but they are high, and we are working to fix that, 
and in fact I think we have fixed that piece.
    As far as the construction supervision piece, our approach, 
because we have used primarily low-bid contractors, in other 
words, the person that bids the lowest price----
    Mr. Regula. That is the construction part.
    Mr. Clapper. The construction piece. Our approach has been 
to station a full-time supervisor, or if a job is much larger, 
additional inspectors. We are going to move to more use of 
design/build contractors, towards more use of negotiated 
contracts, which will allow us to get contractors that can 
indeed perform the work with less supervision.
    In 1998--let me start again. We have approximately 65 
people from the Denver Service Center stationed in parks 
supervising construction at this point. We are committed to 
reducing that number to--to reducing that number by 20 in 
fiscal year 1998, using the different contracting procedures 
which will allow us to have less supervision.

                            use of a&e firms

    Mr. Regula. Do you think in some instances the park 
superintendent of a major park would be capable of handling 
the--that is, arranging for supervision using the private 
sector A&E firms that are in the area, to reduce costs?
    Mr. Clapper. Yes, sir, that is an option. The challenge 
there is that most of the people that are in the parks are 
there with another job, so that when we explore the possibility 
of the park providing a supervisor for the job, they have other 
jobs to do, but that is certainly an option that we are more 
than willing to explore.
    If I could go back for a minute to the use of A&E firms, at 
this point in fiscal year 1996 the Denver Service Center 
overall used A&E firms to perform work for about 23 percent of 
our projects. Now, if you take just the preparation of 
construction drawings for projects, which is a specific 
component, the use of A&E firms is 54 percent. So we have 
traditionally used A&E firms to perform our work, and if you 
look at the fluctuations in the construction program, you will 
see that the size of the Denver Service Center has fluctuated 
as the size of the construction program has fluctuated.
    Mr. Regula. Well, we are kind of hoping to help you reduce 
the size of it. I think you need to look at the whole 
structure. When I see that it was 2 years to design the comfort 
station, that all seems pretty excessive to me, and as you say, 
you have only been there since 1994.

                    Closing Remarks--Chairman Regula

    We have a vote on, but let me just wrap up by saying the 
objective of this hearing is to find out if there is a better 
way to do things. I think we constantly need to examine the 
structure, the accountability, the way in which we are 
providing this service to the American people.
    We have appropriated this year a budget for the Park 
Service of $1.65 billion. That is a lot of money. That is a 
major corporation that you gentlemen are responsible for; a 
$1.65 billion company is substantial. This committee has, in a 
sense, given you a vote of confidence in two ways. We increased 
your budget by $211 million, and we gave you the fee program. 
Both of these elements are a reflection of our confidence and 
that of the American people in the park system, and we want to 
continue that.
    I am disturbed when people come up to me in the street, or 
at the county fair, as I mentioned earlier, and get all upset 
by what they read in the paper about the housing and the 
comfort station. It makes it more difficult for Mr. Miller and 
I as members of this subcommittee and my other colleagues to do 
what we think is the responsible approach, which we have tried 
to do in the 1998 budget.
    So we want to help you; we want to restore this credibility 
on the part of the public which will allow the parks to meet 
their mission, which is to serve the American people. You can 
understand how these kinds of things erode that credibility, 
and Mr. Stanton, you directly have a substantial challenge 
here. We want to help you, but we also want to be looking over 
your shoulder, because we in turn have to answer to the people 
that are paying the bill. And as the board of directors, if you 
will, of corporate NPS, we want to give value received as much 
as possible.
    I hope that you will take a look, and you, Mr. Galvin, at 
the whole structure of this. Is there a better way to do this? 
I think historically we all get in a pattern of, ``Well, we 
have done it this way last year, we just keep on doing it'', 
and not sort of step aside and say, ``Can we manage corporate 
NPS more efficiently to serve the public than we have in the 
past''?
    And of course you have a new challenge here, so perhaps it 
is an ideal time to do this. But we will hope to hear from you, 
and I think we will have some interim hearings here to get a 
report of how well you are coming along and how we might be 
able to be more helpful. Do any of you have any further 
comments you would like to make?
    Mr. Stanton. Other than to say, Mr. Chairman, I appreciate 
having had this opportunity to appear before you, and I thank 
you and Mr. Miller and the other members of the committee for 
your support. We take very seriously what our responsibilities 
are, and we realize that there is some work to be done, and we 
commit ourselves to doing that work. Thank you again.
    Mr. Regula. Thank you all for coming. The committee is 
adjourned.
    Additional Committee Questions For the National Park Service on 
            Employee Housing and Other Construction Projects
    In the past, based on work done by GAO and the Interior's Inspector 
General as well as Congressional hearings, the Committee has raised 
concerns about the Park Service's management of its housing and 
construction programs as well as the management question ``How are 
parks able to spend unlimited amounts for construction projects?'' 
Also, recent news reports have discussed exorbitant sums spent by the 
Park Service to construct new facilities such as employee housing and 
outhouses. Their costs raise many questions, especially in light of 
tight budgetary constraints and the multibillion dollar backlog needs 
of the Park Service to maintain facilities such as roads, visitor 
centers, housing and historic structures.
                      denver service center (dsc)
    Within the NPS, the Denver Service Center (DSC-507 FTE) provides 
planning, design, contracting and supervisory services for major 
construction projects throughout the park system. Several recent 
projects such as new housing at Yosemite and Grand Canyon National 
Parks ($390,000 to $584,000 per house) and the high-cost outhouse 
($330,000) at Delaware Water Gap National Recreation Area raise 
questions about the reasonableness of costs for projects designed by 
the DSC. Specific questions relate to costs for what may be award 
winning designs, unique rather than standardized designs, top of the 
line materials, and the services provided by the DSC.
    Question 1. What guidance does the DSC have to direct its approach 
to designing projects? Does the guidance address life expectancy, cost 
effectiveness, esthetics, etc.?
    Answer: The NPS Management Policies state that facilities for 
national parks ``will be harmonious with park resources, compatible 
with natural processes, aesthetically pleasing, functional, as 
accessible as possible to all segments of the population, energy 
efficient, and cost-effective.'' Additional guidance for NPS and DSC 
design comes from many sources, including:
    (1) NPS policy and design guidelines, including NPS-70: Design 
Process Guideline: The Built Environment (interim release, 3/94), NPS-
90: Value Engineering Guideline (7/94), and NPS-76: Housing Design and 
Rehabilitation Guideline (Release 2, 9/88);
    (2) The General Management Plan for the park, the Development/Study 
Package Proposal and Package Estimating Detail, which defines project 
scope and estimated costs (form 10-238/802, hereafter referred to as a 
10-238); and
    (3) The park superintendent, who has ultimate responsibility on 
issues affecting the park.
    The project agreement between the park and the Denver Service 
Center defines specific project design and cost objectives, including 
aesthetics, value analysis, compliance requirements, and 
responsibilities.
    The new Servicewide priority process defines cost-benefit 
expectations for a project. The NPS Assessment Team evaluates all 10-
238s within the Service to determine the benefit of each project to the 
National Park System as a whole. Benefits are defined based on the four 
objectives for the NPS line-item construction program: (1) Protect 
cultural and natural resources, (2) Provide for visitor enjoyment; (3) 
Improve the efficiency of park operations, and (4) Provide cost-
effective, environmentally responsible, and otherwise beneficial 
development for the National Park Service.
    When a park accepts a Servicewide priority for a project, the 
superintendent commits to delivering specific benefits for a prescribed 
cost. These benefit/cost parameters establish clear guidance to the 
design team (DSC, support office, park, or A/E) concerning the 
objectives for the project.
    Question 2. Where in the NPS does the responsibility lie for 
assessing the reasonableness of costs for projects? Is there any 
management accountability for controlling the costs of construction 
projects? Please explain how this works.
    Answer: The responsibility for all project decisions ultimately 
rests with the park superintendent under the new NPS organization; 
previously that responsibility rested with the Regional Director. In 
the past two years, the NPS, in response to Congressional as well as 
in-house concerns, has taken steps that reinforce the need for cost-
effective design and should prevent excessive costs on future projects. 
These steps include the following:
    The new Servicewide priority process assesses project benefit and 
cost and only allows cost-effective projects to proceed.
    Review by the NPS Development Advisory Board provides oversight on 
projects during the design process to ensure that cost effective 
solutions are used.
    Value assessments, which are performed in accordance with the NPS 
Servicewide Development Strategy: The Next Decade, further ensure that 
specific design proposals are appropriate to the project and cost-
effective over the life of the facility (generally 25 to 50 years). The 
assessments occur a minimum of three times during the planning and 
design process: (1) When a preferred planning alternative is selected, 
(2) When a preferred schematic design alternative is selected, and (3) 
When design development and contract documents for major systems are 
prepared.
    Management accountability for projects is detailed in the project 
agreement, which DSC has begun using in place of a task directive to 
define specific requirements for a project, including costs, and the 
relationship and responsibilities of the park superintendent and the 
core planning or design team. The project agreement also identifies the 
members of the core team, which is composed of park and regional 
representatives and the DSC project manager and job captain; the core 
team is responsible for guiding all project decisions, with the 
superintendent having final decision authority for the project. The 
steps in the design and construction process to ensure cost-effective 
solutions include the following:
    Securing a Servicewide Priority--A line item construction project 
begins with the preparation by a park of a 10-238, which defines the 
scope of the project and estimated costs (a class C estimate, which is 
based on costs for similar construction). The proposal must be based on 
the park's strategic plan, general management plan, or other planning 
activities. Costs and benefits defined in the 10-238are reviewed at the 
park, cluster, and regional levels.
    Project determined by each Region to represent the highest cost/
benefit ratios are forwarded to the national level for evaluation by 
the NPS Assessment Team. The choosing by advantage method, which uses a 
type of cost/benefit assessment, is used to evaluate the proposal. In 
1996 the team reviewed over 140 proposals, totaling over $500 million, 
and ranked the relative benefits of each to the National Park System.
    This benefit to cost ranking forms the basis for the final 
Servicewide priority list, which represents the most cost effective 
projects in the NPS line item construction program. This list is 
reviewed by the NPS Development Advisory Board and National Leadership 
Council and finally adopted by the NPS Director.
    Preparing Schematic Designs--Schematic design begins based on 
Servicewide priority, with work funded from construction planning 
accounts. Design work focuses on developing schematic alternatives, 
conducting value analysis of alternatives, selecting a preferred 
schematic design, and preparing a class B estimate.
    The NPS Development Advisory Board reviews project designs at the 
end of this stage to ensure acceptable benefit to cost ratios and to 
validate that projects are within the benefit and cost parameters used 
in developing the Servicewide priority list. After reviewing the 
project design the board may recommend that work on design and contract 
documents be continued; or it may recommend that further design and 
value analysis be conducted, with the project being reconsidered the 
following year, or it may recommend that a project be canceled. 
Projects approved at this stage will be considered for the next budget 
request.
    Completing Design Development and Contract Documents--Value 
assessments continue as major systems are designed, materials selected, 
and the contract documents completed. These assessments can include 
value analysis workshops, life cycle cost studies, and smaller scale 
value studies. Class A estimates, which are based on contract 
documents, are prepared prior to procurement.
    Question 3. Unique designs and top-of-the-line construction were a 
significant cost factor for Yosemite and the Grand Canyon National 
Parks' employee housing and the outhouse at Delaware Water Gap National 
Recreation Area. Why couldn't standardized designs be used for some 
park facilities, such as restrooms? Do you agree that using 
standardized designs and reasonably priced materials for such buildings 
could result in significant dollar savings?
    Answer: Standardized designs and general standards can be used and 
are used, but in most cases some level of customization is required to 
meet specific site conditions. A restroom design that works for Rocky 
Mountain National Park may not be suitable for Everglades or Denali. A 
facility that is acceptable for a small park may be totally inadequate 
for a park with high visitation.
    Question 4. Standards for materials form a framework for 
appropriate material choices. Material choices need to ensure the most 
cost-effective match between a standardized design and a specific park 
environment. Why is top-of-the-line construction appropriate?
    Answer: The level of construction quality and cost must be in 
balance with benefit to the National Park System. Special construction 
is appropriate when it is the most cost-effective solution, based on 
life cycle costs; when it allows the NPS to better fulfill its mission; 
and when failure to use the best quality materials will significantly 
intrude on or detract from a resource or the experience of public 
visitors.
    Question 5. Were any cost benefit analysis prepared showing top of 
the line items were less costly over the long-term and therefore worth 
their costs?
    Answer: Life-cycle costs and value analysis are used on some 
decisions, particularly on system decisions where energy costs are a 
major component of life-cycle costs, e.g., utilities, mechanical 
systems, insulation, and lighting. Better benefit/cost analysis, value 
analysis, and life-cycle costing will be ensured on current and future 
projects through NPS Development Advisory Board reviews and the system 
for setting Servicewide priorities. The NPS is beginning to show the 
impact of these programs on the cost-effectiveness of design, with more 
tightly defined project scopes and estimates.
    Question 6. Some park officials estimate that for construction 
projects planned, designed, and supervised by the DSC, the planning and 
design and other costs average about 56 percent of net construction 
costs. Do you agree with this percentage? If not, please specify what 
the percentage is.
    Answer: The 56 percent figure reflects construction planning costs 
(25%), contract supervision costs (15%), and construction contingency 
costs (16%), as indicated in the following table. Construction 
contingency costs are not planning, design, or supervision costs. These 
percentages are used by NPS to establish budgetary numbers for 
projects.
    The Denver Service Center is seeking to reduce design and contract 
supervision costs; targets that have been set in conformance with the 
Government Performance and Results Act (GPRA) are also shown below.

------------------------------------------------------------------------
                                    Breakdown of                        
                                    56% (Percent      DSC GPRA target   
           Cost element              age of net       (Percent of net   
                                    construction)      construction)    
------------------------------------------------------------------------
Construction planning............              25  \1\ 25 or lower.     
Contract supervision.............              15  14 or lower.         
                                  --------------------------------------
    Subtotal.....................              40  39.                  
Construction contingency.........              16  16.                  
                                  --------------------------------------
      Total......................              56  55 or lower.         
------------------------------------------------------------------------
\1\ Figures for FY 1997 indicate a construction planning percentage of  
  approximately 20 percent across the entire DSC construction program.  

    According to NPS-8: Budget and Programming Guideline (Release 1, 
12/94), contract or project supervision costs average 15 percent per 
project; on a percentage basis small projects usually cost more, and 
big projects cost less. Efficiencies can also be achieved in cases 
where two projects are in the same park and are of the same scale so 
that one supervisor can handle both. All project supervision funding 
(carryover amounts and new appropriations) is pooled at the beginning 
of the fiscal year and is managed by the Associate Director, 
Professional Services, and the Washington Office Budget Division. The 
amount generated by each project does not ``belong'' to a specific 
project. Each project is estimated through workload analysis.
    Similarly, the 16 percent budgeted for construction contingency for 
each project is pooled, and does not belong to a specific project. The 
total contingency availability is held by the WASO Budget Division and 
is allocated as needed, (1) for contract awards and day labor 
obligations in excess of the net availability, and (2) for change 
orders, claims, and other unanticipated requirements.
    The DSC has been actively pursuing more effective ways of 
contracting and has been working for several years to reduce contract 
modifications rates. Contracting methods being considered include 
competitive negotiations, design/build, prequalification of bidders, 
incentive clauses, and other business practices designed to provide the 
NPS the most qualified contractors at the most reasonable cost.
    Alternative ways of inspecting and supervising construction 
projects are being considered, including contracting out inspection 
services to local construction management firms, using park staff, 
using ``circuit riders'' who will inspect more than one project but 
will not be duty stationed in the Field, providing part-time 
supervision of projects using private industry and other agency 
experiences as benchmarks, and potentially using local building code 
inspectors.
    Question 7. How do these percentages compare to those in private 
industry?
    Answer: Denver Service Center costs compare favorably with private 
industry. In 1989, the former Management Advisory Group for DSC 
established a task force to investigate overhead costs. It was found 
that the DSC overhead rate was 63 percent, while the overhead rate for 
the Corps of Engineers was 81 percent and for the typical A/E firm, 150 
percent. The current DSC overhead rate of 78 percent compares favorably 
to the typical A/E rate of 150 percent.
    In 1992, Interior Secretary Manuel Lujan requested a study of DSC 
design costs. Projects were randomly selected by the department from a 
list of completed projects. Project costs were adjusted to compare like 
work. The design cost report stated, ``Analysis of these data indicated 
that the DSC average is 23.7 percent of the total construction costs of 
$26.7 million compared to 33.7 percent for private A/E firms on total 
construction costs of $17.9 million . . . The range of design costs 
were from 7.5 percent to 48.6 percent for DSC and from 8.3 percent to 
53.1 percent for the private architect and engineering firms.''
    The General Accounting Office completed a study, National Parks, 
Views on the Denver Service Center and Information on Related 
Construction Activities, in June 1995. Their conclusion, which was 
based on questionnaire responses from park units, was that when the 
Denver Service Center was used for planning, design, and construction 
activities, parks were generally satisfied with the services provided. 
They also stated that they found ``no governmentwide or industrywide 
standards that could be used as a benchmark for determining the 
reasonableness of the Park Service's contingency and project 
supervision costs; however, they were similar to those charged by other 
Federal Agencies.''
    Question 8. I understand that many individual park units have 
professional architects and planners permanently on-site (e.g., the 
Delaware Water Gap National Recreation Area). Is this correct? If so, 
in this time of increased budgetary pressure and efficiency, does the 
Park Service really need the DSC and these on-site architects and 
planners?
    Answer: Yes, the statement is correct. Some of the larger parks 
within the National Park System do have permanent planning and design 
professional staff members.
    The staff of the Denver Service Center and the professionals 
stationed in parks have different but complementary roles. Neither 
group can effectively or efficiently replace the other. The differences 
between responsibilities of professionals stationed at DSC and of those 
stationed in parks can be summarized in terms of size, scale, 
timeframe, and complexity of projects assigned to each.
    Individuals are stationed in parks where ongoing programs and 
infrastructure require day-to-day guidance and attention to details, 
such as utilities, roads and trails, large campgrounds, historic 
preservation/rehabilitation, and cyclic maintenance projects. Park 
professionals deal with numerous small projects, while DSC provides 
leadership for large scale projects (generally in excess of $250,000) 
that require an interdisciplinary team of professionals to complete. 
The DSC is also able to support smaller parks who are not able to have 
planning/design professionals on staff.
    A park may go for years without a planning or line item 
construction project and then receive funding from Congress for one or 
more projects. The Denver Service Center maintains a nucleus of 
planning, design, and construction specialists who are then able to 
respond in a timely manner to multiple needs throughout the entire park 
system. Centralized management and support services for the cadre of 
planning and design professionals is much more economical than 
dispersing functions at many locations. Additionally, project personnel 
can be easily shifted and used as needed on several projects at any 
given time within DSC, thereby maximizing productivity and cost 
efficiency. It would be costly and very inefficient if project 
personnel were stationed in several different and remote locations and 
required to coordinate their efforts for several projects.
    Question 9. The Denver Service Center Strategic Plan addresses the 
need to reduce costs, increase efficiencies, and work closely with 
customers to deliver the best product for the most reasonable cost/
benefit ratio. Methods to achieve long-term goals and desired results 
are being introduced into DSC processes. Have you analyzed whether you 
even need the DSC instead of just contracting out for the needed 
services? If not, why not? If so, when was the analysis done? What did 
it show?
    Answer: The National Park Service analyzed the need for the Denver 
Service Center as part of its organizational plan. The analysis was 
done in response to the National Performance Review, which culminated 
in the reorganization of the NPS and DSC in 1995. In accordance with 
the 1994 Restructuring Plan for the National Park Service, a national 
program office, such as DSC, had to pass three tests to justify its 
retention. These tests were: (1) the center would establish (or 
maintain) a critical mass of specialized expertise for Servicewide use, 
(2) it would be uneconomical to decentralize, and (3) better service to 
customers would result from centralized service. The NPS determined 
that DSC met those tests. Since that time, DSC management and services 
have been streamlined to reduce costs. In June 1993 the DSC employed 
over 800 full-time employees; currently DSC has just over 500 
employees. The 1994 NPS Restructuring Plan also stated the Denver 
Service Center was to include:
    A full range of technical and professional knowledge and expertise 
for major, multiphase, interdisciplinary planning, design, and 
construction programs and projects, including responsibility for major 
planning projects, especially projects that have Servicewide 
implications. The center will concentrate on accomplishment of complex 
line-item design and construction projects.
    A full range of technical services, including A/E construction 
contracting, drafting, editing, estimating, geographic information 
systems, graphic design and printing, as-built plans and operations and 
maintenance manuals, specifications, surveying, transportation 
planning, value engineering, and visual simulations, as well as a 
Servicewide repository for the storage and retrieval of planning, 
design, construction, and research documents.
    The current Denver Service Center organization, structure, and 
expertise have been maintained in accordance with those requirements. 
The Denver Service Center is maintaining a lower FTE level than 
authorized in order to reduce costs. The DSC uses contract services to 
provide expertise where needed and to meet short term needs. However, 
DSC preserves the institutional knowledge and NPS philosophy and 
technical expertise needed to successfully guide A/E products.
    When contracting out for services, a full range of technical 
expertise is required to effectively manage the contract and ensure the 
desired results are obtained. DSC has always recognized that A/E 
contractors are a valuable asset and contribute to producing its work 
on time. Currently, thirty-eight contracts are in place for 
professional services. This includes ongoing contracts awarded prior to 
FY 1995, as well as those contracts that were awarded in FY 1995 
through FY 1997. Since FY 1988, A/E costs compared to the percentage of 
total DSC costs ranged from just over 20 percent to a high of 43 
percent.
    The types of services for which DSC contracted with private firms 
falls into the following categories:
    Surveying, mapping, geotechnical, and GIS services
    Environmental engineering and planning
    Advisory and assistance: Leasing of NPS facilities
    Advisory and assistance: Solid and hazardous waste management
    Construction observation services
    Traffic and transportation planning and engineering
    Hazardous materials inspection, monitoring, planning, and design
    Site planning and design guidelines for Independence Mall, 
Philadelphia
    Structural and seismic engineering
    Civil and sanitary engineering
    Civil and environmental engineering
    Mechanical and electrical engineering
    Design of lodging and dormitories
    Inventory and condition assessments of NPS facilities.
    In addition, in FY 1998, the Denver Service Center has awarded a 
contract for architectural design services and is currently advertising 
a contract for landscape architectural design services.
                            employee housing
    In 1993, the GAO reported that it became apparent that housing was 
being provided in parks where it was not mission critical. Yet four 
years later, concerns still exist as to what progress the Park Service 
has made to reduce the housing inventory.
    Question 10. Why has it taken so long for the Park Service to 
review and revise its housing program?
    Answer: The National Park Service began extensive effort to review 
and revamp its Employee Housing Program several years ago.
    From December 1993 through August 1994, the National Park Service 
cooperated with the General Accounting Office on a followup audit on 
the NPS Housing Program conducted at the request of the Chairman, 
Subcommittee on National Parks, Forests, and Public Lands, House 
Committee on Natural Resources to further review the Park Service's 
housing situation. It was mutually understood that the NPS would await 
the finding of GAO's followup (1994) report prior to initiating major 
revisions to employee housing policies.
    Subsequently, in 1995, the NPS entered into a Reimbursable Support 
Agreement with the Bureau of Indian Affairs (BIA) to modify an existing 
contract to conduct housing assessment studies at four NPS sites to 
serve as pilots for the NPS. These studies were completed in late 1996. 
The pilots served as the basis for a Servicewide NPS housing assessment 
which is scheduled to begin in November of this year.
    During this time, the NPS also implemented an interim in-house 
needs assessment, and all parks were directed to complete an assessment 
as a part of their Housing Management Plans, which are a prerequisite 
to receiving housing funding.
    Additionally, in 1995, the NPS began working with the Congress on 
housing legislation to seek additional authorities to partner with the 
private sector and others. This effort led to enactment of Section 814, 
The Housing Improvement Act, in the Omnibus Parks Bill, Public Law 104-
333, in November 1996. The NPS is now the only non-military agency to 
possess this broad range of innovative authorities to help provide 
housing for employees with non-appropriated funds.
    Also, in 1994 through 1996, the NPS actively participated in an 
effort between the Office of the Secretary and the National Park 
Foundation to develop a partnership to improve employee housing by 
exploring alternatives not previously available to the NPS. These 
included various fund-raising efforts, potential financing packages 
through the private sector, and volunteer donation programs to have 
various private firms build and rehabilitate NPS housing at several 
park areas.
    Finally, in December 1996, the NPS began a formal process to review 
and revise the criteria under which we provide housing to employees. 
This review was completed in May 1997 as the NPS reported to the 
Committee in August. In summary, new policy and criteria focus on 
achieving a minimum number of housing units necessary to meet the park 
mission and include the elimination of excess housing units. This is a 
shift from current practices of utilizing structures as housing simply 
because the units are available, but recognizes the Service's 
responsibility for preserving historic structures and for housing 
temporary employees. Under our new policy, park managers must consider 
other alternatives with on-site housing to be a final consideration, 
not a first consideration. The NPS is currently revising guidelines and 
developing an Employee Housing Handbook and Director's Orders which 
will provide the parks with necessary direction in line with the new 
policy and criteria. The Employee Housing Handbook and Director's 
Orders will be completed this fiscal year.
    Question 11. What was the level of Park Service housing in fiscal 
year 1993? What is it in fiscal year 1997?
    Answer: As reported by the General Accounting Office in September 
1993, the NPS had a housing inventory of approximately 5,200 units at 
that time. That number included over 700 trailers/mobile homes. The 
inventory is now approximately 5,700 units. The increase is primarily 
the result of the acquisition of numerous housing units at former 
military bases, such as the Presidio and Fort Wadsworth and also 
includes new construction at several park areas, such as Yosemite 
National Park and Grand Canyon National Park. Additionally, over the 
past 4 years, a slight increase in the inventory has resulted from 
removing trailers from our housing inventory and replacing them, where 
warranted, with permanent, multi-plex structure.
    Question 12. Discuss the specific plans, if any, to reduce the 
level of employee housing in the next two years?
    Answer: The NPS is conducting comprehensive park-by-park studies to 
address inventory and condition assessment, and needs assessments, to 
determine the minimum number of housing units needed to meet the 
mission of each park, and to identify those units which are excess to 
park needs.
    This process was piloted under a cooperative agreement with the 
Bureau of Indian Affairs in 1995 through 1996. Based on review of four 
pilot studies, the NPS within 10 days will award a contract(s) to have 
private contractors determine how many housing units are needed for 
employees at each park location and to conduct a local market analysis 
to assess the ability of park employees to complete for housing within 
the surrounding area. This needs assessment/market analysis will be 
completed at all park areas with five or more housing units within 12 
months.
    This third party, unbiased determination will be based on recently 
reviewed and revised criteria under which the NPS provides housing to 
employees as reported to the Committee in August 1997. This criteria is 
consistent with Public Laws 88-459 and 104-333, existing OMB circulars, 
and Departmental policies and regulations.
    In addition, all park areas with less than five housing units will 
also complete an extensive inhouse needs assessment/market analysis 
based on the same criteria and based on practices and methodologies 
used by the contractor. This will also be completed within 12 months.
    In addition to the needs assessment/market analysis component of 
the contract(s), the contractor(s) will also conduct an inventory and 
physical inspection of individual housing units at each location to 
determine cost estimates for correcting identified deficiencies, will 
determine future housing needs with total cost estimates for meeting 
those needs, will formulate and recommend viable alternative methods 
for providing employee housing either onsite or offsite, and will 
develop a feasibility analysis or business plan for each park area 
based on a cost versus benefit ratio to minimize program expenditures.
    Question 13. According to the Interior's Inspector General's report 
on employee housing, the former Park Superintendent of Grand Canyon 
National Park decided to build 59 single family homes, even though 
other Park Service officials from the DSC and Pacific West Regional 
Office has recommended constructing up to 114 housing units composed of 
a mix of both single family and multi family units, such as apartments, 
townhouses, or ``cluster'' homes, to better meet the park's housing 
shortage and overcrowded, unsafe, and substandard housing conditions. 
Does the Park Service plan to hold managers accountable for achieving 
these inventory reduction commitments? If so, how?
    Answer: As contained in our recent report to the Committee, our new 
policy includes various measures to ensure accountability. Each park 
manager will be responsible for determining the minimum number of 
mission critical housing units, consistent with the revised criteria. 
All housing that is not mission critical will be identified as excess 
to the parks' needs. Each park will develop a plan for excess housing 
which will include removal, sale, historic lease and other uses. 
Performance measures for park managers will be in place to assure that 
minimum numbers of housing units are established.
    Further, each Regional Director will be held accountable for the 
housing management program within their Region. To accomplish this, 
each Regional Director will establish an evaluation process for 
reviewing the housing program at parks within their Region to evaluate 
the progress at each park. Evaluations will take place every 2 years.
    Question 14. Given the Park Service's housing needs, is it 
appropriate to have park superintendents with discretionary authority 
that essentially permits them to ignore upper level Park Service 
authorities?
    Answer: No. The project agreement provides the specifications for 
what will be accomplished on any given project. It is the document that 
recognizes past planning considerations and the results to be achieved. 
It reflects previous planning history and past agreements that guide 
the project such as the park's general management plan. These documents 
are reviewed and approved by the Regional Directors and, depending on 
the significance of the management action, review at the NPS 
headquarters level. Superintendents operate within those confines, but 
have the latitude to make decisions at the lowest management level 
within the NPS in accordance with the intent of the National 
Performance Review that directed all agencies to delegate decision-
making to the lowest feasible level.
    Question 15. Relative to the example given above, individual park 
managers must consider higher management decisions and constraints of 
the appropriated line item amount, but also have the latitude to make 
decisions based on specific local needs. Where is the accountability 
when individual park managers can serve their own park desires and 
ignore recommended actions that seem to be in the best interest of the 
Park Service?
    Answer: The Director of the National Park Service is accountable 
for implementing the program authorities as directed by Congress 
including housing and construction. A number of measures have recently 
been put in place and when combined, with existing direction to 
safeguard the natural and cultural resources of the park, will improve 
the effectiveness and efficiency of the manner housing and construction 
programs will be pursued.
    As an example, the NPS Director now personally awards reviews all 
construction projects prior to the issuance of bid announcements to 
ensure that any such projects are sound and cost-effective, while at 
the same time meeting a reasonable standard for park development. 
Preliminary designs which include information consisting of 
alternatives and cost-benefit analysis are submitted for the scrutiny 
of the Development Advisory Board. This board reviews all potential 
projects and makes project priority decisions based on the national 
program needs of the National Park Service.
    Question 16. Is this arrangement typical for the Park service as an 
organization?
    Answer. The National Park Service is a highly decentralized 
organization with 376 units within the System. This decentralized 
organizational structure responds to the direction of the National 
Performance Review and is based on the 1994 Restructuring Plan for the 
National Park Service. Regional Directors and Associate Directors with 
national responsibility assume responsibility for all NPS programs. 
They are responsible for considering all influencing factors including 
the individual park's GMP, doing what is best for the parks natural and 
cultural resources, and maximizing the use of appropriated and private 
resources to the greatest benefit. Management at all levels within the 
NPS must consider these same influencing factors in their decision-
making process.
    Question 17. In today's tight climate, do you think that perhaps it 
is time to demand more accountability from your park managers?
    Answer: Park superintendents have always been accountable to 
Regional Directors and constrained by the amount of funds appropriated 
for a project. However, steps are being taken to award a contract to an 
independent organization to take a very critical look at the manner in 
which the NPS carries out its planning, design, and construction 
activities. This will focus specifically on the role and 
responsibilities of the Denver Service Center and the oversight 
responsibilities of the park.
    In addition, the NPS will undertake an extensive effort to look at 
how programs are administered within the organization with respect to 
the responsibilities of Regional Directors and parks, and to ensure 
that policy oversight is provided at the national level. That will be 
in addition to the evaluation of the Denver Service Center as directed 
by Congress and the other organization components of the overall 
planning, design, and construction program.
    Question 18. What is needed to ensure management accountability at 
the park level in order to better control project design costs and 
better ensure that housing priority needs are being met?
    Answer: Several actions have been taken and will continue to be 
implemented to ensure that where mission-critical housing is necessary, 
it is designed, constructed, and maintained in a cost-effective manner. 
It continues to be the policy of the National Park Service to rely 
primarily upon the private sector to provide housing. Absent the 
availability of private sector housing, it is the policy of the NPS to 
provide the minimum number of housing units necessary to support the 
mission of the National Park Service, protect the resources and 
infrastructure of the park, and support visitor needs.
    A report has been recently provided to Congress on revised employee 
housing criteria pursuant to Public Law 103-333, Omnibus Parks and 
Public Lands Management Act of 1996. The National Park Service was 
directed to review and revise as necessary the criteria used in 
determining park provided housing for employees, specifically examining 
required occupancy.
    Contained in the report is the new policy, including measures to 
ensure accountability, and an implementation timeframe. Each park 
superintendent will be responsible for determining the minimum number 
of mission-critical housing units in the park, consistent with the 
revised criteria. Oversight and accountability for the entire housing 
management is the responsibility of each Regional Director.
    A Servicewide contract is now in place to conduct a comprehensive 
inventory and condition assessment of existing housing units and to 
conduct a mission critical needs assessment utilizing the revised 
criteria. Approximately 120 park areas will undergo assessments under 
the contract during the next 12 months.
    The passage of the Housing Improvement Act section contained in 
Public Law 104-333, the Omnibus Parks Bill, also provides new 
authorities to the NPS to explore new, previously unavailable 
alternative to onsite Government housing. This will provide the 
framework for some positive results in achieving the goal to reduce 
housing in park areas.
              delaware water gap national recreation area
    Planning, designing, and constructing a composting toilet outhouse 
at Dingmans Falls in Delaware Water Gap National Recreation Area has 
been reported to cost over $300,000. The cost of an average new 2,000-
square-foot home with three bedrooms and two baths in this area is 
estimated to cost about $100,000. (This amount also includes the cost 
of land.)
    Question 19. Wouldn't you agree that a Park Service outhouse 
costing more than three times a typical home in this area, excluding 
land costs, would make the average citizen question whether their taxes 
were being wisely spent?
    Answer: It would prompt questions. In response to similar questions 
in the past from Congress, the NPS has implemented checkpoints where 
benefits and costs for all line-item construction projects are reviewed 
and assessed.
    Question 20. The Deputy Director of the Park Service has defended 
the costs of the Delaware Water Gap outhouse by saying that ``its cost 
is typical for what the NPS is paying for outhouses.'' Is that a 
correct statement?
    Answer: The Delaware Water Gap comfort station includes some 
elements that probably would not have been included if designed under 
the new priority setting system, with review by the NPS Development 
Advisory Board. Designing to optimize life-cycle costs sometimes 
requires a higher initial investment. In terms of unit costs, the 
Delaware Water Gap project was in the high range of square-foot cost, 
but not without precedent. Five bids were received so the price was 
determined competitively. However, while answers to the following 
questions explain further the individual elements and cost items, it is 
clear that upon reflection that the comfort station should not have 
been built if cost had been a dominant consideration. The Park Service 
is implementing additional procedures to avoid similar situations in 
the future.
    Question 21. Doesn't this suggest a state of mind that, with 
today's tight Federal budget, is too extravagant?
    Answer: It suggests that benefit/cost analysis was not emphasized 
to the extent needed when decisions were being made concerning the 
comfort station. Recognizing today's tight Federal budgets, the NPS has 
developed a method to ensure that line-item construction projects have 
a high benefit-to-cost ratio.
    Question 22. Doesn't the cost for this kind of facility suggest 
that ``the system is broken''?
    Answer: It suggests that the ``system'' did need to be adjusted. 
The new Servicewide priority system and the Development Advisory Board 
now in place are the initial steps to bring strong cost accountability 
to the NPS line-item construction program.
    Question 23. The Department of Defense had bought some $600 
ashtrays, etc., that led to the revamping of the entire procedure 
system there. Is the high-cost outhouse the Park Service's $600 
ashtray? It seems like it is. Would you comment?
    Answer: The NPS has recognized the need to bring the concept of 
value and benefit/cost analysis more strongly into decision-making. The 
adoption of the NPS Servicewide Development Strategy: The Next Decade, 
the preparation of strategic plans in conformance with GPRA, and the 
implementation of the new Servicewide priority process, in conjunction 
with reviews by the Development Advisory Board, have all brought 
accountability for cost-effective, value-based management into sharp 
focus. These steps incorporate value analysis at key decision points, 
and they encourage the continuous use of value methods, e.g., benefit-
to-cost analysis, functional analysis, and life-cycle cost analysis, 
throughout the planning and design process.
    The new construction priority system, which was started two years 
ago, is beginning to show results as value methods are becoming 
integral to NPS development decision-making. If this process had been 
applied to the package study proposal for the Raymondskill comfort 
station, that facility as conceived and built would probably not have 
been on the new NPS priority list. Review by the Development Advisory 
Board has prompted value studies to ensure that projects stay within 
the benefit and cost parameters established at the conception of the 
project.
    Question 24. Is there any park management accountability for 
controlling the cost of a project? What is it? How does it work?
    Answer: The park superintendent has the basic responsibility for 
operation and maintenance of the park area, under the general direction 
and oversight of the Regional Director. As stated in the February 1995 
report to Congress, ``Opportunities for Improvement of the National 
Park Service Line-Item Construction Program: Definition, Control and 
Priority Setting,'' page 6,
          ``Superintendents should be held accountable for the quality, 
        cost, and appropriateness of planning and design work done for 
        their respective parks. More specifically, superintendents are 
        responsible for preparation of high quality 10-238s and for 
        providing park input into the design process. Superintendents 
        should closely monitor design efforts to ensure that only 
        essential needs are being met and that solutions are 
        appropriate within Servicewide development parameters.''
    Each park superintendent is a Denver Service Center customer and is 
expected to provide direction, review, and approval of DSC work. In 
that regard, the DSC operates similarly to a private firm doing 
business with its customers.
    Question 25. Do the parks have too much autonomy to control what 
they want?
    Answer: The authority of the park manager is outlined in the 
November 1994 Restructuring Plan for the National Park Service and is 
consistent with the direction of the Vice President's National 
Performance Review to delegate authority to the lowest practical levels 
in organizations: ``The Federal Government will adopt this 
decentralized approach as its new standard operating procedure.''
    Question 26. Does the Denver Service Center lack incentives to be 
cost conscious?
    Answer: The Denver Service Center always provides park managers an 
array of options to solve a development problem in the most cost-
effective manner possible. Discussions of pros and cons of each 
planning or design alternative, an analysis of environmental impacts, 
and in most cases life-cycle costs are used to aid decision-makers 
(park superintendents and Regional Directors). Each park superintendent 
can accept or reject the design team's recommendation. If the 
superintendent or Regional Director selects an expensive solution and 
there are funds to build it, the DSC will follow that customer 
direction. In the NPS organization, the DSC is a service organization; 
it does not make park management decisions. However, the Denver Service 
Center does look for every opportunity to save costs within the basic 
framework of the selected alternative. Once appropriated, the project 
is further constrained by the level of funding provided.
    Question 27. Do park superintendents lack incentives to be cost 
conscious?
    Answer: Most park superintendents are confronted daily with trying 
to solve as many problems as possible with the money budgeted for a 
project. Because of limited operation and maintenance dollars, the 
inclination is to request design solutions that minimize future costs 
but that result in higher initial expenditures. Many life-cycle cost 
analysis have shown that this is generally sound decision-making from 
the standpoint of long-term costs to the taxpayers.
    Question 28. Explain the roles of the park and the DSC in deciding 
what the outhouse should look like--a basic functional outhouse vs. the 
one chosen for over $300,000.
    Answer: The architectural design of any structure, including 
comfort stations, is based on what is appropriate for the site, the 
surrounding architecture, weather conditions (heavy snow loads, 
frequent rain, etc.), applicable building codes, and how the structure 
is to be used. As mentioned above, the design is also influenced by the 
long-term maintenance costs. In this particular situation, it was 
decided that the comfort station must be accessible to individuals with 
disabilities, have a rustic architectural appearance, have a large roof 
area to provide some shelter for visitors during inclement weather and 
to provide space for some interpretive panels, and be constructed of 
low maintenance materials.
    The Denver Service Center, the park, and the Region developed four 
alternative architectural designs. The Regional Director and 
superintendent selected the alternative that was ultimately 
constructed.
    Question 29. What are the major factors contributing to the 
projects' high cost and who--the DSC or the park or the NPS--was 
responsible for making decisions on these factors?
    Answer: The cost can be attributed to the following factors (the 
factors are not ranked in any particular order of importance): (1) High 
bids from contractors because of the time of year (already busy), the 
difficult location, and to a minor degree, the use of metric 
dimensions, (2) Davis Bacon wage rates, (3) The heavy paperwork 
requirements of Government contracts, (4) Quality materials specified 
in order to minimize future maintenance, (5) The difficult demolition 
of old concrete bridge foundations, (6) The difficult soil conditions, 
which ruled out conventional wastewater disposal options and moved the 
solution to a more expensive composting toilet arrangement that 
required a basement area under the building, and (7) Construction of a 
new 20-car parking lot and connecting road.
    An estimated $34,000 could have been saved by using less expensive 
materials (no stone, asphalt shingles, less durable paint, no windows, 
and no wood siding). As described above, The Denver Service Center 
prepared alternative designs for the selection and approval by the 
Regional Director and the park superintendent.
    Question 30. Why were the more expensive options chosen? The 
Vermont slate roof? The 29-inch thick, earthquake proof foundation? The 
cobblestone exterior?
    Answer: The slate roof was chosen on the basis of sound life-cycle 
costing and benefit. The slate will last as long as the structure and 
added $4,800 to the overall cost. Stone is durable, vandal resistant, 
and sustainable. It is in common use throughout the area, and it ties 
the building into its natural setting. The slate, which was specified 
in accordance with American Society for Testing and Materials (ASTM) 
and National Slate Association standards, is a durable slate. Slate 
from any location that met the specification could have been used. Most 
Pennsylvania slates are absorptive due to calcite minerals, leading to 
spalling and delamination of the shingle. Such shingles, at 
approximately the same cost, have a serviceable life of approximately 
one-third that of the specified slate.
    The project was designed to the Building Officials Code 
Administrators (BOCA) National Building Code, Seismic Zone 2. All code 
compliant structures in the area are designed in accordance with this 
code. The concrete foundation walls are approximately 12 inches thick, 
not 29 inches as reported in the media. (It is possible that the 
misstatement included the thickness of the nonstructural battered stone 
veneer.)
    The cobblestone exterior was chosen because it corresponds with the 
appearance of the surrounding landscape of waterfall and steam 
associations. Cobblestones match the appearance of the streambank. The 
exterior is durable and requires less, if any, maintenance, and it is 
vandal resistant.
    Question 31. Is the selection of expensive options consistent with 
the mission of the DSC? If so, what is the basis for this mission?
    Answer: Management accountability for projects is detailed in the 
project agreement, which defines specific requirements for a project, 
including cost and scope. The Denver Service Center's role is to ensure 
that project information and the range of alternatives being considered 
are adequate for making sound and fully informed decisions. Final 
decision authority rests with the park.
    Question 32. Wouldn't you agree that the above components are 
rather excessive and wasteful for an outhouse in light of today's tight 
budgets and other needs within the Park Service?
    Answer: While the material components of the comfort station 
initially seem costly, they must be compared with life-cycle 
maintenance costs. Using lesser materials that are cheaper in the 
beginning contribute to additional maintenance costs during the life-
cycle of structure, resulting in an even larger cumulative cost. Since 
the funding for maintenance activities does not match park needs, there 
is an everpresent desire to build maintenance free features into all 
DSC projects.
    Question 33. Were less expensive outhouse designs that were 
functionally equivalent available? If so, why were they not chosen?
    Answer: A number of alternative designs were considered which 
included flush toilets, vault toilets, chemical toilets, and composting 
toilets. In addition, numerous effluent disposal systems were 
considered, including elevated sand mounds, in ground leachfields, 
spray irrigation, evaporative ponds, and regular sewage pumper trucks. 
Specific considerations included the fact that the site is a rocky 
ravine at the edge of a 175 foot waterfall, where wetlands, water 
quality, and geology preclude the use of a conventional septic and 
leachfield system. This site also lies on the banks of an exceptional 
quality trout stream. Alternative systems were not found desirable due 
to the following:
    The use of flush toilets would have required the development of 
water and sewage disposal systems, which would have been too costly. In 
a less remote area where utilities were readily available, flush 
toilets would have been used. However, in this area utility lines would 
have had to be extended 3.5 miles from the nearest connections.
    Chemical toilets were not chosen because of the odor and the 
continual need for pumping and maintenance.
    Vault toilets require substantial ventilation, which is not 
feasible with the surrounding dense hemlock forest; the associated odor 
and the need for continual pumping and maintenance were additional 
reasons for not using vault toilets.
    Composting toilets were selected because they met the resource 
conditions of the site. The natural resources and the lack of site 
utilities dictated that the NPS build a comfort station with a self-
contained, small sewage treatment (composting) system. While composting 
toilets do not function in below freezing conditions, visitor use at 
this site is extremely low in winter due to hazardous ice conditions. 
The decision to use composting toilets was accomplished with the 
participation and coordination with the Dingman Township sewage 
enforcement officer and the Pennsylvania Department of Environmental 
Resources.
    Ultimately, this solution will best protect the scenic and 
environmentally sensitive setting from contamination hazards associated 
with traditional wastewater disposal. After all costs were compared, 
the compost system proved to be the most advantageous.
    Question 34. Is it true that the composting toilet outhouses 
costing substantially less were constructed at Delaware Water Gap and 
other park units?
    Answer: Yes, five composting toilets were built along the Delaware 
River for canoe campsites. They are simple outhouses that do not comply 
with Americans With Disabilities Act standards and were meant to serve 
a small number of users. They were constructed in the mid-1980s.
    Question 35. Are other substantially high cost composting toilet 
outhouses (construction costs estimated in excess of $200,000) planned 
at Delaware Water Gap and other park units?
    Answer: Currently, there are two composting projects planned for 
Delaware Water Gap National Recreation Area. These are, (1) Delaware 
Water Gap Package 263AE--Dingmans Falls Comfort Station, and (2) 
Delaware Water Gap Package 002--4 comfort stations. A special session 
of the Development Advisory Board was convened to review all line-item 
construction through the year 2000, including comfort stations. Value 
analysis was requested where the board questioned the benefit to cost 
ratio.
    Question 36. Do you think they are still appropriate? Why?
    Answer: Delaware Water Gap National Recreation Area Package 002, 
which proposes four additional comfort stations throughout the park, 
was submitted for the FY 1999 line-item construction call. The package 
did not provide high enough benefit for the estimated cost, and the 
project has not been included on the NPS Servicewide priority list.
    An additional comfort station is required at Dingmans Falls because 
of high visitor use, and the design must deal with difficult 
environmental conditions and wastewater regulatory requirements. Recent 
review by the NPS Development Advisory Board has placed this on hold, 
pending completion of a full value analysis, redesign, and final 
evaluation by the board.




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Lewis, W.A.......................................................     1
Hill, B.T........................................................     1
Fowler, Cliff....................................................     1
Moberly, Steven..................................................     1
Henne, Paul......................................................   185
Laverty, Lyle....................................................   185
Millenbach, Mat..................................................   185
Stanton, Robert..................................................   201
Galvin Dennis....................................................   201
Clapper, Charles.................................................   201





                               I N D E X

                              ----------                              
                                                                   Page
Accountability...................................................    40
Accountability and Oversight.....................................    28
Accountability Issues............................................   206
Accountability Standards.........................................   219
Architectural and Engineering Services...........................   192
Bureau of Land Management Housing................................   189
Bureau of Land Management Visitor Centers........................   189
Closing Remarks--Chairman Regula.................................   223
Co-location of Interior Staff....................................   222
Construction Moratorium and Design Build.........................    27
Contracting Out for Services.....................................   215
Cost Comparability with the Private Sector.......................    38
Cost Comparisons.................................................    33
Cost Considerations..............................................    33
Davis-Bacon Compliance Costs................................... 42, 208
Davis-Bacon Issues...............................................   214
Delaware Water Gap Comfort Station............................ 207, 209
Delaware Water Gap Outhouse Construction.........................    24
Denver Service Center............................................    44
Denver Service Center Overhead...................................   222
Discretion in use of Funds.......................................    23
Grand Canyon Housing.............................................   210
Housing and Maintenance Backlog..................................   190
Housing Issues...................................................    29
Housing Policy...................................................    31
Independent Review of NPS Construction Program...................   202
Life Cycle Cost Analysis.........................................   190
Management Review of NPS Construction program....................   202
NPS Construction Supervision.....................................   203
Opening Remarks--Associate Director of GAO.......................     4
Opening Remarks--Bureau of Land Management.......................   188
Opening Remarks--Chairman Regula.................................     1
Opening Remarks--Inspector General of DOI........................    14
Opening Remarks--National Park Service...........................   201
Opening Remarks--U.S. Fish and Wildlife Service..................   185
Opening Remarks--U.S. Forest Service.............................   186
Overhead Costs...................................................    26
Park Service Changes.............................................    35
Park Service Superintendent Accountability.......................    44
Park-by-Park Housing Assessments.................................   214
Private Sector Housing Partnerships..............................    30
Privatization....................................................   213
Problem Solving..................................................   191
Project Specific Costs...........................................   207
Projecting Costs.................................................    37
Question of Legality.............................................    36
Questions and answers, Bureau of Land Management.................   193
Questions and answers, National Park Service.....................   224
Questions and answers, U.S. Fish & Wildlife Service..............   195
Questions and answers, U.S. Forest Service.......................   197
Review of Construction Contracts.................................   212
Special Report--cost of construction of employee housing at Grand 
  Canyon and Yosemite National Parks.............................    46
Special Report--National Park Service, condition of and need for 
  employee housing...............................................   116
Special Report--National Park Service, reexamination of employee 
  housing program is needed......................................   147
Standardization of Design Requirements...........................   220
Testimony of Barry T. Hill, Associate Director, General 
  Accounting Office..............................................    10
    Background...................................................    11
    The need for employee housing is not fully justified.........    11
    Backlog estimate is not based on a facility specific 
      assessment.................................................    12
    Park managers have broad discretion in managing the housing 
      program....................................................    12
    Park Service provides significantly more housing than the 
      Forest Service or BLM......................................    13
Testimony of Robert G. Station, Director of the National Park 
  Service........................................................   204
    Priority setting.............................................   204
    Value analysis--integral part of facility development process   204
    New contracting methods......................................   205
    Supervision of construction projects.........................   205
    Denver Service Center role in planning design and 
      construction...............................................   205
Testimony of Wilma A. Lewis Inspector General, DOI...............    16
    Employee housing at Grand Canyon National Park...............    17
    Employee housing at Yosemite National Park...................    17
    Prior Park Service testimony.................................    17
    Construction cost factors....................................    17
    Planning, design, and supervisor costs.......................    18
    Park Service responses and Office of Inspector General 
      replies....................................................    18
    Recommendation...............................................    21
    Other Park Service construction..............................    21
    Information on Park Service decisionmaking...................    22
U.S. Fish and Wildlife Service Overhead..........................   186
Use of A&E firms.................................................   223

                                     <all>
</pre></body></html>
